<html>
<title> - OVERSIGHT HEARING ON MODERNIZING NEPA FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 MODERNIZING NEPA FOR THE 21ST CENTURY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, November 29, 2017

                               __________

                           Serial No. 115-29

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
       
       

        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
                     
                     
                  
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-722 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>     
                     
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                
                
                               ---------                                

                                CONTENTS

                              -----------                              
                                                                   Page

Hearing held on Wednesday, November 29, 2017.....................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California, prepared statement of.................    83
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Bear, Dinah, Former General Counsel, White House Council on 
      Environmental Quality, Tucson, Arizona.....................    19
        Prepared statement of....................................    20
        Questions submitted for the record.......................    27
    Bridges, Mike, President, Longview/Kelso Building and 
      Construction Trades Council, Business Rep. IBEW 48, 
      Portland, Oregon...........................................    10
        Prepared statement of....................................    12
    Howard, Philip K., Chairman, Common Good, New York, New York.    37
        Prepared statement of....................................    38
        Questions submitted for the record.......................    44
    Willox, Hon. Jim, Converse County Commissioner, Wyoming 
      County Commissioners Association, Douglas, Wyoming.........     6
        Prepared statement of....................................     7

Additional Materials Submitted for the Record:
    American Road & Transportation Builders Association, 
      Statement for the Record...................................    83
    California Agricultural Commissioners and Sealers 
      Association, Martin Settevendemie, President, Statement for 
      the Record.................................................    89
    GreenLatinos--The City Project, November 29, 2017 Letter to 
      Chairman Bishop and Ranking Member Grijalva................    93
    Labor Council for Latin American Advancement, June 5, 2017 
      Letter to Ranking Member Grijalva..........................    95
    List of documents submitted for the record retained in the 
      Committee's official files.................................    96
                                     

 
       OVERSIGHT HEARING ON MODERNIZING NEPA FOR THE 21ST CENTURY

                              ----------                              


                      Wednesday, November 29, 2017

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, Gohmert, Lamborn, 
McClintock, Pearce, Gosar, Tipton, LaMalfa, Denham, Cook, 
Westerman, Graves, Hice, Radewagen, Johnson; Grijalva, 
Bordallo, Costa, Tsongas, Huffman, Lowenthal, Beyer, Torres, 
Barragan, Soto, and Gomez.
    The Chairman. The Committee on Natural Resources will come 
to order. The Committee today is having an oversight hearing 
entitled, ``Modernizing NEPA for the 21st Century.''
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chair, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from the 
witnesses sooner. I am going to ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Clerk by 5:00 p.m. today.
    Without objection, so ordered.
    Let me start off with my opening statement, and then we 
will turn to Mr. Grijalva for his.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Today, we are going to examine how to 
modernize the National Environmental Policy Act. In 1969, NEPA 
was originally intended to be a tool to assess the impacts of 
government actions on the environment. Unfortunately, today it 
has become a sweeping regulatory framework that does the exact 
opposite. Like some of our other bedrock environmental 
statutes, they had a noble intent. But when you write something 
in an open-ended and vague manner of statutory language, it 
simply means that administrations and litigation can make it a 
far cry from what Richard Nixon signed back in 1969.
    The provisions of NEPA also created, for example, the CEQ, 
which came up with a sweeping climate change for regulatory 
guidance, voluntary guidance, which, fortunately, this 
Administration has been kind enough to rescind from the silly 
guidance that was originally established.
    The issue, though, for NEPA is that court orders and 
executive branch actions are not going to improve how the bill 
functions if Congress needs to act to enable some common-sense 
changes to correct the deficiencies that are in the way the law 
is being administered. The common refrain that we are hearing 
from Federal agencies, as well as state and local governments 
and small businesses, is NEPA is used as a tool to slow or 
block needed infrastructure projects and rural development.
    Delays and duplications of environmental reviews added cost 
to the program, which drives up the cost of everything from 
milk to lumber to energy. Somebody has to pay for this 
gridlock, and it is the taxpayer. Environmental improvements 
take a backseat to paperwork and court settlements, and that is 
not what was intended decades ago, when this bill was first 
passed.
    There are some who are thinking this bill is perfect as it 
is; that attitude is simply short-sighted. The environment can 
have a review, and in a timely manner, and it does not have to 
be mutually exclusive. But it simply won't happen unless 
Congress actually acts to clarify NEPA's intent, its scope, and 
its limitations.
    There are multiple Executive Orders and agency attempts in 
the past few years to try to streamline NEPA. Congress is more 
than happy to have some oversight necessary in that process. 
But it is clear that Congress has to do the clarifications. 
There is a lesson for Congress with NEPA that when you pass 
vague, open-ended language, you open the door to controversy, 
legal challenges, and a legacy of unintended consequences.
    So, the purpose of our hearing today is examining ways of 
how we can fix a system that is not functioning the way it was 
intended. As noble as those intentions were, it just is broken. 
And we need to find a way of fixing it. Anything needs to be 
modernized as time goes on; this cries for that modernization.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Today, the Committee meets to examine ways to modernize and improve 
the National Environmental Policy Act. Passed in 1969, NEPA was 
originally intended to be a limited tool to assess impacts of 
government actions on the environment. Today, NEPA is a sweeping 
regulatory framework that effects almost every aspect of the American 
economy.
    The law, like so many other environmental statutes, was created 
with noble intent. However, due to open-ended statutory language, 
differing interpretations of congressional intent, and the exploitation 
of these vagaries by the activist litigants, the law's implementation 
is a far cry from what President Nixon signed decades ago.
    A provision of NEPA also created the White House Council on 
Environmental Quality. Ironically, the previous administration's CEQ 
attempted to force sweeping climate change regulatory guidance for all 
NEPA actions. I applaud the Trump administration's CEQ for rescinding 
this potentially damaging Executive Order earlier this year. Executive 
branch or court orders have not and will not improve how NEPA functions 
over the long-term.
    Rather, to proactively maintain our critical infrastructure, manage 
our public lands and provide critical public services, Congress needs 
to enact common-sense, substantive changes to bring the law to correct 
its deficiencies. This can be accomplished, while at the same time, 
respecting existing environmental protections. The common refrain from 
a myriad of Federal agencies, state and local governments and small 
businesses is that NEPA is used as a tool to slow or block needed 
infrastructure projects and rural development.
    Delays and duplication of environmental reviews have driven up the 
cost of a host of critical infrastructure and job-producing projects, 
which in turn, drives up the cost of everything from milk to lumber to 
energy production. Ultimately, taxpayers are paying more for Federal 
bureaucracy, gridlock and lawyers as limited resources for productive 
environmental improvements take a back seat to paperwork and court 
settlements. This is not what was envisioned by Congress when it passed 
NEPA decades ago.
    Some consider NEPA to be perfect ``as is'' and oppose any changes 
to it. Yet, we can both better protect the environment and allow for 
thorough review and processing of critical economic, energy and 
infrastructure activities in a timely manner. These concepts are not 
mutually exclusive. But it simply won't happen unless Congress acts to 
clarify NEPA's intent, scope and limitations.
    Recently, this Committee has made efforts to address some of the 
most glaring problems we have observed in the application of the law. 
In 2015, the Congress passed a narrow modification to NEPA to establish 
best practices among Federal agencies, require coordination of Federal 
agency review of projects, and shorten time periods for legal 
challenges. But just as we observed with original passage of NEPA, it's 
one thing to pass a law with good intentions, it's quite another to 
ensure its application is carried out correctly by agency officials.
    Similarly, this year has already seen multiple Executive Orders and 
agency attempts at streamlining the NEPA environmental review process. 
I'm eager to provide the congressional oversight necessary to examine 
how these new efforts may positively impact the environmental review 
process in the weeks and months ahead. I am encouraged that the 
Administration agrees that NEPA processes can and must be addressed.
    There is a lesson for Congress with NEPA. When you pass vague, 
open-ended language, you open the door to controversy, legal challenges 
and a legacy of unintended consequences. It is the purpose of today's 
hearing to examine ways to re-establish NEPA as a tool to balance 
environmental needs with economic progress. I look forward to the 
testimony of the witnesses and I yield back.

                                 ______
                                 

    The Chairman. With that, I will yield to the Ranking 
Member.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman. Today, the 
Majority will once again try to make its case for weakening the 
National Environmental Policy Act. It is a case we have heard 
before, and one that has repeatedly failed to ring true.
    In 2005 and 2006, Committee Republicans under former 
Chairman Richard Pombo tried and failed to make this case by 
convening a NEPA task force. This group held a series of 
hearings, issued a Committee Report that featured the opinions 
of those who were interested only in getting out of NEPA 
requirements, and not in using NEPA to strengthen our 
environment and communities. The report was met with harsh 
criticism, particularly because it played fast and loose with 
the facts, and failed to provide evidence for its claims and 
conclusions. Fortunately, none of its harmful recommendations 
to amend NEPA were adopted.
    Since the Republicans took the House Majority in 2011, 
however, they have renewed their assault on NEPA. They have 
pushed for drilling, logging, dam building, and other 
environmentally destructive activities to be conducted without 
Federal agency oversight or public review. Time and again, we 
have debunked Republican myths about NEPA causing excessive 
delays, frivolous lawsuits, and damage to our economy.
    Based on the testimony provided by Majority witnesses in 
advance of today's hearing, we will need to continue refuting 
those false claims. So, here are a few real facts to consider 
before this hearing devolves into yet another forum for making 
NEPA a scapegoat.
    First, NEPA simply requires Federal agencies to take a hard 
look at potential environmental impacts of projects they 
undertake or permit. If an agency modifies or abandons a 
proposal after NEPA review, it is because of real environmental 
harm revealed during the review, not because of the NEPA 
process. Blaming NEPA for uncovering bad projects is like 
blaming a tumor on the x-ray that discovered it.
    Second, 95 percent of NEPA reviews are completed in a 
matter of days using categorical exclusions that exist to 
streamline review of simple, environmentally benign projects. 
Only 1 percent of NEPA reviews require an environmental impact 
statement. These are the most complex projects with the 
greatest potential for environmental harm, and are rightly 
subject to careful review.
    Third, the size of the American economy has more than 
tripled since NEPA was passed in 1970, from less than $5 
trillion to nearly $17 trillion in GDP. NEPA has helped make 
that economic development more sustainable, more just, and less 
wasteful.
    Calls to modernize NEPA miss the point entirely: the beauty 
of NEPA is that it is already modern and it is already 
flexible. To quote the Democratic response to the Pombo task 
force report, ``NEPA was a fundamental shift in our Nation's 
public policy and carries no expiration date. The law's call to 
foster and maintain conditions under which man and nature can 
exist in productive harmony is timeless and its insistence on 
meaningful local involvement, sustainable development, and 
deliberate Federal decision making was, and remains, visionary. 
It cannot credibly be argued that we have fully realized this 
vision, nor should we ever stop trying.''
    Democratic members of this Committee are dedicated to 
ensuring that the NEPA vision remains a central part of all 
discussions regarding the use of resources owned by the 
American people. Today, our members will highlight NEPA's 
successes, and the fact that a lack of resources and trained 
professionals at CEQ and in the agencies is the main driver of 
any inefficiencies and inconsistencies in the implementation. I 
look forward to the hearing, and welcome our witnesses.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Today, the Majority will once again try to make its case for 
weakening the National Environmental Policy Act. It is a case we have 
heard before, and one that has repeatedly failed to ring true.
    In 2005 and 2006, Committee Republicans under former Chairman 
Richard Pombo tried and failed to make this case by convening a NEPA 
``task force.'' This group held a series of hearings and issued a 
Committee report that featured the opinions of those who were 
interested only in getting out of NEPA requirements, and not in using 
NEPA to strengthen our environment and communities. That report was met 
with harsh criticism, particularly because it played fast and loose 
with the facts and failed to provide evidence for its claims and 
conclusions. Fortunately, none of its harmful recommendations to amend 
NEPA were adopted.
    Since the Republicans took the House Majority in 2011, however, 
they have renewed their assault on NEPA. They have pushed for drilling, 
logging, dam building and other environmentally destructive activities 
to be conducted without Federal agency oversight or public review. Time 
and again we have debunked Republican myths about NEPA causing 
excessive delays, frivolous lawsuits, and damage to our economy. Based 
on the testimony provided by Majority witnesses in advance of today's 
hearing, we will need to continue refuting false claims.
    So here are a few real facts to consider before this hearing 
devolves into yet another forum for Committee Republicans to use NEPA 
as a scapegoat:

    <bullet> First, NEPA simply requires Federal agencies to take a 
            ``hard look'' at the potential environmental impacts of 
            projects they undertake or permit. If an agency modifies or 
            abandons a proposal after NEPA review, it is because of 
            real environmental harm revealed during that review, not 
            because of the NEPA process. Blaming NEPA for uncovering 
            bad projects is like blaming a tumor on the x-ray that 
            discovered it.

    <bullet> Second, 95 percent of NEPA reviews are completed in a 
            matter of days using categorical exclusions that exist to 
            streamline review of simple, environmentally benign 
            projects. Only 1 percent of NEPA reviews require an 
            environmental impact statement. These are the most complex 
            projects with the greatest potential for environmental 
            harm, and are rightly subject to careful review.

    <bullet> Third, the size of the American economy has more than 
            tripled since NEPA was passed in 1970: from less than $5 
            trillion to nearly $17 trillion. NEPA has helped make this 
            economic development more sustainable, more just, and less 
            wasteful.

    Calls to `modernize' NEPA miss the point: the beauty of NEPA is 
that it is already modern and it is already flexible. To quote from the 
Democratic response to the Pombo task force report: ``NEPA was a 
fundamental shift in our Nation's public policy and carries no 
expiration date. The law's call to `foster and maintain conditions 
under which man and nature can exist in productive harmony' is timeless 
and its insistence on meaningful local involvement, sustainable 
development, and deliberate Federal decision making was, and remains, 
visionary. It cannot credibly be argued that we have fully realized 
this vision, nor should we ever stop trying.''
    Democratic Members of this Committee are dedicated to ensuring the 
NEPA vision remains a central part of all discussions regarding the use 
of resources owned by the American people. Today, our Members will 
highlight NEPA successes and the fact that a lack of resources and 
trained professionals at CEQ and in the agencies is the main driver of 
any inefficiencies and inconsistencies in implementation.

    I look forward to hearing from our witnesses, and I yield back.

                                 ______
                                 

    Mr. Grijalva. Mr. Chairman, I yield back.
    The Chairman. Thank you. I appreciate that Minority 
viewpoint.
    Now we are going to introduce the witnesses we have here. 
And once again, any other opening statements will be part of 
the record.
    First, we have Commissioner Willox from Converse County in 
Douglas, Wyoming, who is here from the Wyoming County 
Commissioners Association; Mr. Mike Bridges, President of 
Longview/Kelso Building and Construction Trades Council, and a 
business representative of IBEW 48, from Portland, Oregon; Ms. 
Dinah Bear, who is the former General Counsel from the Council 
on Environmental Quality from Tucson, Arizona--you had nothing 
to do with that?
    Mr. Grijalva. No.
    The Chairman. OK.
    Mr. Grijalva. Just it always rises to the top.
    [Laughter.]
    The Chairman. OK. And then Mr. Philip Howard, who is the 
Chairman of Common Good from New York.
    We appreciate all four of you being here.
    Let me remind you, if you haven't been here before, that 
you have a 5-minute time limit. Your written statement is part 
of the record. I am going to try to be a stickler on keeping 
within those 5 minutes.
    The microphones don't come on automatically, you have to 
make sure they are turned on, get them close to your face, then 
watch the timer over there. When you have 1 minute left, it 
will turn yellow. When it turns red, please finish the sentence 
without making it a compound or a complex sentence.
    With that, let's turn to our first witness, Commissioner 
Willox from Wyoming.

STATEMENT OF THE HON. JIM WILLOX, CONVERSE COUNTY COMMISSIONER, 
   WYOMING COUNTY COMMISSIONERS ASSOCIATION, DOUGLAS, WYOMING

    Mr. Willox. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and members of the Committee. My name is Jim Willox, 
and I have been a Converse County Commissioner for 11 years, 
and also serve on the board of the Wyoming County Commissioners 
Association, who I represent today.
    County commissioners across Wyoming are actively engaged in 
NEPA analysis of all types. I am personally the main point of 
contact for two EISs underway in our county for proposed oil 
and gas projects.
    Commissioners are elected administrators with broad 
mandates to advance the well-being of our entire county, not 
just one slice of it. With that in mind, I would like to offer 
these suggestions.
    It is important to remember Congress' original intent in 
drafting NEPA. In part, it was to encourage productive and 
enjoyable harmony between man and his environment. 
Unfortunately, in recent years, NEPA has mushroomed into an 
exhaustive, analytical effort on every possible negative 
outcome, including on a global scale. Agency officials are 
forced into years of analysis and reams of paper designed to 
fend off litigation, instead of making sound, informed policy 
decisions.
    This has real consequences. The normally pressured Lance, 
an oil and gas project in western Wyoming, is approaching 8 
years of study and drafting. The Converse County EIS in my home 
county is now well into its 4th year. A proposed pipeline to 
carry carbon from western Wyoming is languishing in its 5th 
year.
    There are also countless examples of smaller projects that 
are made costlier and result in greater negative impacts.
    For example, a small power provider in my county faces 
lengthy NEPA delays to install additional electricity to a 
local wastewater plant, despite the fact that it is parallel 
and adjacent to an existing power line across Federal land.
    A Wyoming-based wireless provider is forced to undergo 
NEPA-related analysis to replace their copper lines with fiber, 
upgrading their network.
    These types of problems incentivize industry to figure out 
how to route their projects around Federal lands, which result 
in greater impact on the land and the wildlife.
    NEPA delays can also be downright dangerous. Wyoming has 
4.6 million acres of forest that has been decimated by insects 
and disease. Yet, accessing these lands to remove fuel loads 
and improve the health of the forest is hindered by NEPA.
    There are two actions that Congress and the agencies could 
take that would dramatically improve NEPA before it even 
begins. Congress should write new rules on what constitutes a 
Federal nexus.
    For example, in Converse County's EIS, only 10 percent of 
the surface is federally owned. Yet, a well pad that sits on 
private land that drills into private minerals and then 
accesses Federal minerals laterally, up to 2 miles away, is 
considered a Federal nexus, even though no Federal land is 
disturbed. The same is true for telecommunication providers 
attempting to improve their networks over and through Federal 
lands, triggering NEPA review, even when it is a minority of 
the distance.
    Second, counties, as units of local government, should be 
afforded great deference by land managers in the Federal 
Government. We agree with the Western Governors' Association 
that states and local governments are not merely stakeholders, 
but rather co-regulators established by Congress. This requires 
a willing partner on the Federal side, and we hope this 
Committee will continue to demand that agencies fulfill their 
coordination responsibilities.
    Now, once NEPA has been triggered, we believe this 
Committee should consider creating a category of actions or 
locations that would automatically provide for more categorical 
exclusions. Paralleling or replacing existing infrastructure 
should not trigger full NEPA review. Congress should explicitly 
require the agencies to grant categorical exclusions in areas 
like this.
    The size and scope of Federal EISs are a significant 
administrative burden to county personnel and budgets. The 
Department of the Interior's recent order to reduce the amount 
of pages in EISs is certainly helpful, but only if accompanied 
by the trimming of the exhaustive analysis forced on the agency 
by litigation.
    And finally, the agency should make better use of the tools 
already at their disposal. They should use tiering to reduce 
redundancies, and grant local governments administrative review 
authority at the end of the process to correct errors before 
going public.
    In conclusion, counties in Wyoming and across the West are 
ready, willing, and able to assist in the goal of modernizing 
NEPA to ensure that it continues to work for the benefit of 
decision makers.
    Mr. Chairman, I thank you for this opportunity to testify 
today, and I look forward to questions.

    [The prepared statement of Mr. Willox follows:]
 Prepared Statement of the Honorable James H. Willox, Converse County 
     Board of County Commissioners on behalf of the Wyoming County 
                       Commissioners Association
    Chairman Bishop, Ranking Member Grijalva, Representative Cheney, 
and members of the House Natural Resources Committee, thank you for the 
opportunity to testify today on modernizing NEPA for the 21st century.
    My name is Jim Willox. I have served on the Board of County 
Commissioners in Converse County, Wyoming since 2007. I also serve on 
the Board for the Wyoming County Commissioners Association (WCCA). The 
WCCA is a voluntary association of all 23 Wyoming counties that strives 
to advance county level needs through unified action. I am representing 
the WCCA today.
    County Commissioners across Wyoming are actively engaged in Federal 
resource management plan revisions or amendments in various stages, and 
NEPA analysis of all types. I personally am the main point of contact 
for Converse County in the current EIS underway in my county for a 
proposed oil and gas project. Collectively, Wyoming's Commissioners 
have extensive on-the-ground experience with the nitty gritty 
implementation of NEPA, as opposed to the high-level, philosophical 
arguments in Congress, which I hope helps us identify changes to NEPA 
that will help make a difference on the ground.
    The fact is, County Commissioners are often the only people in the 
room with broad policy objectives when it comes to Federal planning and 
environmental analysis. Federal agencies, even state agencies apart 
from the governor, have specific, narrow objectives to advance. While 
that isn't necessarily wrong, Commissioners are elected Administrators 
with a broad mandate to advance the well-being of our entire county, 
not just one slice of it. With that in mind, I would like to offer the 
Committee some suggestions on modernizing NEPA in a way that maintains 
the original objective of the law, but provides the necessary 
flexibility to undertake projects in a timely manner.
             nepa delays are costly and sometimes dangerous
    It is important to remember Congress' original intent in drafting 
NEPA:

        Sec. 2 [42 U.S.C. Sec. 4321]. The purposes of this Act are: To 
        declare a national policy which will encourage productive and 
        enjoyable harmony between man and his environment; to promote 
        efforts which will prevent or eliminate damage to the 
        environment and biosphere and stimulate the health and welfare 
        of man; to enrich the understanding of the ecological systems 
        and natural resources important to the Nation; and to establish 
        a Council on Environmental Quality.

    The Act was designed to be a planning tool that helped to inform 
decision makers about the costs and benefits of proposed actions--for 
both the environment and to ``stimulate the health and welfare of 
man.'' For many years this analysis was effective, timely, and not cost 
prohibitive. Unfortunately, in recent years NEPA has mushroomed into an 
exhaustive analytical effort on every possible negative outcome, 
including on a global scale. What was once a helpful look at proposed 
actions has metastasized into a grotesque perversion of congressional 
intent whereby agency officials are forced into years of analysis and 
reams of paper designed to fend off litigation instead of making sound, 
informed policy decisions.
    This has real consequences for my county, for Wyoming, and for all 
of the West. The length of time it takes for the Federal Government to 
issue Records of Decision on major oil and gas projects is well-plowed 
ground in this Committee. The Normally Pressured Lance oil and gas 
project in western Wyoming is approaching 8 years of study and 
drafting. The Converse County EIS in my home county is now well into 
its 4th year after the initial Plan of Development was outlined. A 
proposed pipeline to carry carbon from western Wyoming for beneficial 
utilization elsewhere is languishing in its 5th year. These are just a 
few. The delays are costly to the project proponent, but also are a 
burden on local economies and government services.
    In addition to these large projects, there are countless examples 
of smaller projects that are made costlier and result in greater 
negative impacts to the land and wildlife as a result of NEPAs 
mushrooming, for example:

    <bullet> A small power provider in my county faced lengthy NEPA 
            delays to install additional electricity to a local 
            wastewater treatment plant because the line crossed Forest 
            Service managed grasslands. The proposed route was directly 
            adjacent to a transmission line already present, and the 
            area has railways, a state highway, and other 
            infrastructure nearby.

    <bullet> A Wyoming-based wireless provider is forced to undergo, 
            and pay for, NEPA related analysis when they seek to 
            replace copper lines with fiber to upgrade their network, 
            even though analysis may have already occurred, or previous 
            analysis doesn't meet the ever moving goalposts of what is 
            required. This is a delay that seems in direct 
            contradiction to national goals of improving broadband and 
            wireless coverage in rural areas.

    These types of problems incent industry to figure out how to route 
their projects around Federal lands even if the route is significantly 
longer. The result is greater impact on the land and wildlife, 
increased burden on county infrastructure, and less efficient projects. 
Not at all what NEPA was intended to do.
    Beyond economic development projects, NEPA delays can be downright 
dangerous. Wyoming is home to over 7 million acres of forested land 
owned by the Federal Government. Over 4.6 million acres of that forest 
has been decimated by insect and disease over the last 20 years. These 
areas are prone to wildfires, and the Forest Service estimates that 
over 100,000 dead and dying trees fall every single day in the forests 
of the West, impacting recreational opportunities and the health and 
welfare of our wildlife and residents. Yet accessing these lands to 
remove fuel loads and improve the health and resiliency of the forest 
is hindered by NEPA, a complete contradiction to NEPA's intent.
    Even though Congress has given the Forest Service some tools--like 
the use of NEPA's categorical exclusions for management in designated 
insect and disease areas--the Forest Service is reluctant to use the 
designation. For example, Wyoming's Governor, Matt Mead, has requested 
over 1.5 million acres be declared Insect and Disease Areas, but to 
date this tool has not been utilized in Wyoming.
                 modernizing nepa before it even begins
    All of the challenges mentioned above are preventable with a few 
relatively minor changes either in statute or in sustained agency 
action. I will mention those below, but first there are two actions 
that Congress and the agencies can take that would dramatically improve 
NEPA for all involved before the NEPA process even begins.
    First, we believe that this Committee and Congress should take a 
hard look at narrowing when a Federal nexus triggering NEPA reviews is 
warranted. When NEPA was passed in 1969 there was no way to anticipate 
changes in technology like horizontal drilling, or the necessity of 
deploying fiber in rural areas as our country shifted almost overnight 
from voice telephone service to a broadband economy. As a procedural 
law only, NEPA should be flexible enough to account for these changes 
while adhering to its original goals.
    For example, the Converse County EIS I've already alluded to is in 
an area of Wyoming that does not have significant Federal land 
ownership. In fact, only 10 percent of the surface in the project area 
is federally owned, 83 percent is privately owned. Yet, here we are 4 
years into an extensive NEPA review with even more years to go. A well 
pad that sits on private land, and drills vertically into privately 
owned subsurface before turning horizontally, and then either crosses 
federally owned subsurface or accesses federally owned minerals up to 2 
miles away from the well pad is considered a Federal nexus. In other 
words, no Federal land is disturbed in any way, yet NEPA reviews for 
the entire project, even on private lands, are triggered.
    The same is true for the wireless company mentioned before and 
other telecommunications providers attempting to improve their networks 
over and through Federal lands. In Wyoming's checkerboard, it is 
possible to replace miles of fiber line predominately on private land, 
but still cross some small segment of Federal land, triggering a NEPA 
review for the entire project.
    Congress should write new rules on what constitutes a Federal nexus 
in the first place so that agency personnel and county governments can 
focus their time, resources, and attention on projects that actually do 
have an impact on Federal lands themselves.
    Second, counties, as units of local government, are--or should be--
afforded great deference by Federal land management agencies as 
outlined in the Federal Land Management and Policy Act (FLPMA) and the 
National Forest Management Act (NFMA). Both of these organic Acts 
establish the principle of coordination with local government. In 
separate, but similar ways, Congress made clear--and the courts have 
affirmed--that Federal agencies have an obligation to engage local 
governments in a meaningful way that goes beyond just notice and 
comment.
    In Wyoming we have learned that the most lasting and successful 
Federal projects are ones that begin with significant and meaningful 
engagement with local government. We agree with the Western Governors' 
Association that states and local governments are not ``stakeholders,'' 
but rather co-regulators as established by Congress. This elevated 
status requires that local governments come to the table prepared and 
able to meaningfully contribute to planning and project decisions, but 
it also requires a willing partner on the Federal side that is 
genuinely interested in the expertise local governments have to offer. 
This is an ongoing project for both local government and the Federal 
agencies, but one that too often Federal agencies ignore.
    The WCCA, the WGA, the National Association of Counties, the 
Council of State Governments and several others have argued that 
agencies should spend more time and resources in the early stages of 
environmental reviews understanding the needs of state and local 
governments. That effort will pay off with more robust and defensible 
actions. We agree wholeheartedly with that call. But before NEPA 
analysis begins Congress has already directed agencies to engage in 
ongoing, meaningful dialogue with local governments even in the absence 
of a particular project.
    We have been heartened by the recent change in attitude at the 
Department of the Interior to engage with local governments, but the 
mandate of coordination is one that requires constant intentionality on 
our part, and continued oversight on yours, no matter the presidential 
administration. We hope that this Committee will continue to demand 
that agencies fulfill their coordination responsibilities.
                    nepa improvements once triggered
    We have been pleased with the attention Secretary Zinke has paid to 
improving the NEPA process. For the first time in a long time it 
appears that the Department of the Interior is genuinely interested in 
modernizing NEPA in a way that recognizes the expertise that exists at 
the state and local level. In response to the Secretary's memos on this 
topic, the WCCA wrote a series of letters with suggestions on how the 
agency could improve the process administratively, but would like to 
outline a couple of them here.
    First, with respect to actions Congress can take, we believe the 
Committee should consider creating a category of actions or locations 
that would automatically trigger a categorical exclusion where 
significant impact has already taken place. For example, President 
Obama instituted a ``dig once'' rule as it relates to installation of 
public utilities along roadways in an effort to minimize disturbance 
when roads are built and then overbuilt with utilities, including 
broadband infrastructure. While this is laudable, many major roadways 
like Interstate Highways predate these rules and have caused 
significant impact to the landscape from which there is no turning 
back. Rather than cause delays and added costs in analyzing new 
projects in heavily impacted areas, Congress should explicitly require 
the agency to grant categorical exclusions in areas like this.
    Second, the size and scope of Federal EISs are a significant 
administrative burden on county personnel and budgets. The Department 
of the Interior's recent order to reduce the amount of pages in EISs is 
certainly helpful, but only if accompanied by a trimming of the 
exhaustive analysis forced upon the agency by litigation and a greater 
reliance on states and counties to complete analysis. Counties can 
assist in setting appropriate timelines and scoping by early 
involvement--both in coordination as mentioned before--but also as 
cooperating agencies. Counties should be involved in internal ``ID 
teams'' that can set parameters at the front end to limit expansive and 
wasteful analysis.
    Further, even though it is costly, we in Wyoming have taken the 
lead at providing to Federal agencies robust and defensible socio-
economic data that should play a greater role in Federal decision 
making. While Interior is required to analyze the economy, culture, and 
custom of the counties, we discovered years ago that the agency was 
woefully unprepared to produce and analyze this data. We have worked to 
establish fact-based, scalable socio-economic profiles the agencies can 
use to bolster decisions.
    Finally, the agencies should make better use of tools already at 
their disposal. The agencies underutilize the tiering of NEPA documents 
to reduce redundancies. Also, agencies should grant local governments 
administrative review authority at the end of the process but prior to 
the release of the Final EIS in order to correct any remaining issues, 
streamline the Governor's consistency review, and reduce adverse 
comments during the protest period.
                               conclusion
    Counties in Wyoming and across the West are ready and willing to 
assist in the goal of modernizing NEPA to ensure that it continues to 
work for the benefit of decision makers. We believe that the changes 
suggested above, either legislatively or administratively, would go a 
long way toward shortening the timelines, administrative burden, and 
financial obligations of everyone involved in advancing these projects.

    Thank you again for the opportunity to testify today.

                                 ______
                                 

    The Chairman. Thank you, I appreciate that.
    Next, Mr. Bridges, you are recognized for 5 minutes.

 STATEMENT OF MIKE BRIDGES, PRESIDENT, LONGVIEW/KELSO BUILDING 
    AND CONSTRUCTION TRADES COUNCIL, BUSINESS REP. IBEW 48, 
                        PORTLAND, OREGON

    Mr. Bridges. First, I would like to say thank you to the 
Chair and the Committee members for the opportunity to share my 
experiences with the NEPA process and its effects on projects 
in my community. My name is Mike Bridges, and I am the 
President of the Longview/Kelso Building and Construction 
Trades Council. I also serve on the Executive Board for our 
state organization.
    The state organization represents 70,000 skilled men and 
women in the trades whose livelihoods depend on the 
construction of new projects, many of which must be permitted 
through a NEPA process. A number of these new projects are in 
southwest Washington, and I represent a total of $5 billion of 
private capital investment, millions in tax revenue, and 
thousands of jobs.
    One such project is the Millennium Bulk Terminals project 
in Longview, which is where I have built my home and I am 
raising my family. Millennium is cleaning up a 1940s-era 
aluminum smelter and redeveloping it to export U.S. coal to our 
allies in Japan and South Korea. It is a prime example of how a 
project reliant on natural resources can be encumbered with 
delay.
    Millennium submitted permits in February of 2012, the draft 
EIS published 3\1/2\ years later. As we approach the 6-year 
mark, the final EIS has still not been published. Washington 
State published its 13,000-page state final EIS back in April 
2017. Even though its environmental analysis was far larger in 
scope than the Federal, I attribute the delay in the NEPA final 
EIS in part to the way in which the process has been hijacked 
by activists seeking to deny projects that do not align with 
their political agendas.
    NEPA was not enacted to function as a political process to 
allow members of the public to voice their approval or 
disapproval of a controversial project, yet multiple NEPA 
hearings I attended on the Millennium project function as a 
public voting booth of sorts. I witnessed singing grandmothers, 
people dressed as their favorite endangered species, and other 
theatrical antics designed not to inform agency officials, but 
to publicly protest the project.
    Hundreds of people wearing red shirts were bussed in from 
other cities and states to protest against the project. Local 
supporters showed up and outnumbered the out-of-town 
protesters. This was great to see, but we should not have to 
pretend that these hearings are useful in the way that Congress 
intended.
    The Building Trades support responsible and consistent 
environmental regulations, and has been involved in 
environmental improvements at industrial facilities for 
decades, and has also been leading the way to build and invest 
in renewable energy technology.
    I am not here today to encourage deregulation. The Building 
Trades support a thorough permitting process, but that process 
needs to adhere to the actual regulatory requirements and allow 
for a reasonable timeline.
    The Building Trades believe that projects like Millennium 
are essential to the journey toward cleaner sources of energy, 
and we know that this terminal can be built and operated safely 
within the environmental requirements of the law, and can 
provide family wage jobs that my members and others in the 
community so desperately need in Cowlitz County.
    Currently, many of our skilled trade workers are forced to 
make long daily commutes, or even travel to other states to 
find steady work. The Millennium project presents an 
opportunity for my members to return to the days when they 
could go to work in the morning and come home at the end of the 
day in time to have dinner with their families.
    Projects like Millennium also provide the Building Trades 
with the opportunity to replace our aging skilled workforce 
through our on-the-job apprenticeship training programs. We can 
only admit new apprentices into our programs when there are 
opportunities in the marketplace. The Millennium project is 
essential because its size and duration make it possible for us 
to responsibly gauge how many people to start in a career path 
in the trades.
    One group we strive to bring into our apprenticeship 
programs are the military veterans through our Homeless to Hard 
Hats program. With a suicide rate of about 20 veterans per day 
nationally, we want the apprenticeship to serve our veterans as 
they have served our country, by providing them with dignity, 
self worth, and family wages that their sacrifice deserves.
    And I am not here today just in support of my members. As 
part of the labor movement, Building Trades cares not just 
about our craft workers, but all workers. In addition to the 
tradesmen and women that will be employed during construction 
of the facility, the Millennium project is projected to produce 
300 direct and indirect full-time, family wage jobs.
    And our concerns are not just limited to the jobs my 
community needs now. We also have real concerns about our 
state's reputation and economic future. The seemingly endless 
arbitrary regulatory process in Washington State will 
discourage future projects that would employ members of the 
building trades in my community.
    In the long term, we in the Building Trades encourage the 
Committee to put some controls around the process to prevent 
this type of abuse. There should be a limit to the amount of 
time an agency can spend on the NEPA process, the type of 
public process it provides, and the number of pages in a final 
EIS. But in the short term, we ask the Committee to insist the 
Seattle Corps District publish the final EIS for Millennium.
    As someone who drives every day through Longview and sees 
the devastation caused by the lack of good jobs, I am asking 
you to help my community. The regulatory process in Washington 
State is broken. The result has been years and millions of 
dollars of lost wages and millions of dollars of added costs to 
projects like Millennium during the review process. Please 
don't let this continue with the Federal process. Thank you.

    [The prepared statement of Mr. Bridges follows:]
Prepared Statement of Mike Bridges, President, Longview/Kelso Building 
  and Construction Trades Council, representing the Washington State 
                Building and Construction Trades Council
                              introduction
    I would first like to say thank you to the Chair and the Committee 
members for the opportunity to share my experience with the NEPA 
process and its effects on the projects in my community. My name is 
Mike Bridges and I am the President of the Longview/Kelso Building and 
Construction Trades Council and I serve on the Executive Board of the 
Washington State Building and Construction Trades Council.
    The State Council represents 70,000 skilled men and women in the 
trades whose livelihoods depend on the construction of new projects. I 
have worked alongside these men and women as a Union electrician, and 
now work to serve them by securing opportunities to build world-class 
projects, many of which must be permitted through the NEPA process.
    A number of these new projects are in southwest Washington and 
represent a total of $5 billion of private capital investment, millions 
in tax revenue, and thousands of jobs. The majority of my comments will 
discuss the Millennium Bulk Terminals Coal Export Project, which will 
export 44 million tonnes of low-sulfur American coal to our democratic 
allies in Japan and South Korea. This project has been under review for 
over 5 years. Millennium will provide millions in taxes for the region, 
support thousands of family wage jobs during construction and 
operations, all while cleaning up and redeveloping a 1940s era aluminum 
smelter.
    Another significant project is the proposed Vancouver Energy 
terminal in Vancouver. This critical infrastructure would enable the 
safe transfer of North American crude oil from rail to ship, and 
ultimately the manufacturing of transportation fuels that we use every 
day at West Coast refineries. This project has been under review for 
over 4 years. The Vancouver Energy project will provide $2 billion in 
economic benefit for the region, support thousands of family wage jobs 
during construction and operations, and strengthen U.S. energy 
independence with the potential to displace up to 30 percent of the 
foreign oil imported to the West Coast with lower-carbon North American 
crude.
    Both these projects have suffered significant permitting delays. 
But for our purposes today, I will use as an example the Millennium 
Bulk Terminals coal export project in Longview, which is where I have 
built my home and am raising my family.
                background on millennium bulk terminals
    Longview is an industrial town built on natural resources, 
manufacturing, and trade--all of which are dependent on our deep-water 
ports on the Columbia River. Yet we are a rural community of less than 
50,000 residents.
    The town has weathered multiple economic downturns because we have 
a well-established industrial area that is still home to major global 
manufacturers who rely on ports to export everything from forest 
products to grain to commodities that are mined.
    But we have lost a significant number of family wage jobs through 
those economic downturns because of plant closures and staff reductions 
in manufacturing and industrial facilities. We need to create new jobs 
and opportunities for our children by diversifying, and the Millennium 
Bulk Terminals project is an opportunity to provide just what my 
community needs.
    As a prerequisite for permits, two environmental impact statements 
(EIS) are needed, although both documents study much of the same 
topics. One is prepared under state law by the State of Washington 
Department of Ecology and Cowlitz County (the SEPA EIS). The second is 
prepared under NEPA by the Seattle District Corps of Engineers.
    Millennium submitted permits in February of 2012. The NEPA Draft 
EIS published 3\1/2\ years later. As we approach the 6-year mark, the 
Final EIS has still not published.
    Washington State published its 13,000-page State Final EIS back in 
April 2017, even though its environmental analysis was far larger in 
scope than the Federal.
    The first permit required for the coal export terminal, the 
Critical Areas Permit, was issued in July and in the absence of any 
challenges, both the SEPA EIS and the permit are considered final and 
no longer subject to challenge.
    The NEPA EIS requires a 401 Water Quality Certification by the 
State of Washington Department of Ecology. The Department of Ecology 
denied the 401 Water Quality Certificate ``with prejudice'' so 
Millennium is both appealing that denial to the State of Washington 
Pollution Control Board and has filed a lawsuit against the Department 
of Ecology in Cowlitz County Superior Court.
    Despite clear limitations expressed by Congress under the Clean 
Water Act, Section 401, which states base their certification decisions 
on specifically enumerated water quality grounds, Ecology's purported 
bases for denial with prejudice were, in fact, entirely unrelated to 
water quality.
    This is the first time in Ecology's history that it decided to deny 
a 401 certification with prejudice based on SEPA findings it made 
concerning interstate rail capacity, train traffic (and its attendant 
effect on vehicular traffic), train emissions, vibrations and noise, 
and train safety.
    While the 401 Water Certificate is under legal challenge, the NEPA 
EIS is stalled, although there are only a few weeks of work left to 
complete it.
    The second set of permits for Shoreline Development was subject to 
a public hearing conducted by a Hearing Examiner appointed by Cowlitz 
County. The Hearing Examiner denied the shorelines permits also on the 
SEPA findings concerning interstate rail capacity, train traffic (and 
its attendant effect on vehicular traffic), train emissions, vibrations 
and noise, and train safety. Millennium is now appealing that decision 
to the State of Washington Shorelines Hearing Board.
    Another legal challenge is underway as a result of the Department 
of Natural Resources (DNR) withholding consent to a sublease between 
the property owner, Northwest Alloys (a subsidiary of Alcoa), and 
Millennium. Millennium prevailed in that lawsuit when the judge ruled 
that DNR action in withholding the sublease was ``arbitrary and 
capricious.''
                         abuse of nepa process
    I took time away from my job, as did a number of my members, to 
participate in the NEPA process provided by the Corps of Engineers. 
Rather than functioning as a useful tool to educate agency decision 
makers of the environmental pros and cons of a proposed project and to 
solicit input from the public as Congress intended, NEPA has been used 
to protract and impede agency officials from making a sensible permit 
decision in a reasonable amount of time. I have testified at multiple 
public hearings across Washington State over a period of 5 years and 
yet, the Corps of Engineers has still not completed its environmental 
review.
    I attribute the delay in the NEPA Final EIS in part to the way in 
which the process has been hijacked by activists seeking to deny 
projects that don't align with their political agendas.
    NEPA was not enacted to function as a political process to allow 
members of the public to voice their approval or disapproval of a 
controversial project. Yet the multiple NEPA hearings I attended on the 
Millennium project functioned as a public voting booth of sorts; 
members of the public were both allowed and encouraged to use the 
public forum to voice their personal sentiment on whether the project 
should be permitted. At these public hearings, I witnessed singing 
grandmothers, people dressed as their favorite endangered species, and 
other theatrical antics, designed not to inform agency officials but to 
publicly protest the project.
    Hundreds of people wearing red t-shirts were literally bussed in 
from other cities and states to protest against the project. Hundreds 
of thousands of people were provided form letters by local and national 
environmental organizations to send to the Corps to clog the Corps' 
record with anti-project comments so that project opponents could tally 
the ``vote.''
    Hundreds of local supporters showed up and outnumbered the out-of-
town protestors--which was great to see, but we should not have to take 
time out of our work day to support jobs and private investment in our 
community--and pretend that this is useful to the regulatory process.
    This is not the informed and reasonable process that Congress 
intended.
    Millennium continues to move forward. The project was issued one 
permit, but had other permits rejected which are now under appeal.
    These permits were denied because of impacts which are the 
jurisdiction of the Federal Government, those being interstate rail 
capacity and effects of train traffic, as well as tribal concerns and 
endangered species. Had the NEPA EIS been published, this might not 
have happened.
    Ironically, we fear the Corps will not finalize their work because 
of these politically motivated state decisions.
    The Building Trades supports responsible and consistent 
environmental regulations and has been involved in environmental 
improvements at industrial facilities for decades and has also been 
leading the way to building and investing in renewable energy 
technology.
    I am not here today to encourage deregulation. The Building Trades 
support a thorough permitting process, but that process needs to adhere 
to the actual regulatory requirements and follow a reasonable timeline.
    The Building Trades believe that projects like Millennium are 
essential in the journey toward cleaner sources of energy, and we know 
that this terminal can be built and operated safely and within the 
environmental requirements of the law. And it can provide the family 
wage jobs that my members and others in the community so desperately 
need in Cowlitz County.
              cost of regulatory delays to people's lives
    We know what it means to live in an industrial town. And we support 
Millennium Bulk Terminals and its project in Longview because we know 
what it will do for us locally.
    Our unemployment rates speak volumes, as do the large number of our 
families who have to rely on free-and-reduced lunches in our schools 
each day.
    Finding family wage construction trade jobs in Cowlitz County is 
tough. Many of our skilled trades workers are forced to make long daily 
commutes or even travel to other states to find steady work.
    The Millennium project and others like it present an opportunity 
for my members to return to the days when they could go to work in the 
morning and come home at the end of the day in time for dinner with 
their family.
    Projects like Millennium also provide the Building Trades with the 
opportunity to replace our aging skilled workforce through our on-the-
job training programs, which we refer to as apprenticeship. We can only 
admit new apprentices into our programs when there are apprenticeship 
job opportunities in the marketplace.
    The Millennium project is essential because its size and duration 
makes it possible for us to responsibly gauge how many new people to 
start on a career path so we can keep them busy learning and working 
throughout their entire training.
    Only 16 percent of residents of Cowlitz County have a college 
degree. I am a firm believer that our children can have a future in 
Longview with a good family wage job and do not necessarily need to 
have a college degree.
    It has dominated the news lately that the majority of high school 
graduates do NOT get a college education. And many of those that do and 
want to return to the town where they grew up find that the job 
opportunities are few and far between, and end being forced to make a 
home in a different community. This has prompted much discussion at all 
levels of government about how to expand CTE--Career Technical 
Education.
    Career Technical Education is precisely what the Building Trades 
do. Each trade covers the cost of training of the next generation of 
skilled workers, including tuition, books, and tools, all while 
providing benefits like health care and pension contributions. We do 
this without any government funding because these workers are too 
important to us to let budget shortages and partisan politics get in 
the way of their careers.
    This commitment to steady employment throughout the apprenticeship 
program is especially important for some of the more vulnerable groups 
we strive to bring into the Building Trades, such as our military 
veterans. Our Helmets to Hardhats program helps service men and women 
transfer their skills to careers within the construction industry. With 
a suicide rate of about 20 veterans per day nationally, we want the 
apprenticeship to serve veterans as they have served our country by 
providing them with the dignity, self-worth, and family wages their 
sacrifice deserves.
    Millennium signed a Project Labor Agreement with the Building 
Trades way back in 2013. This was unusual because it was so early in 
the process, but Millennium truly wanted to show its commitment to 
providing family wage jobs for members of the community.
    As part of the Project Labor Agreement, the company pledged to 
invest in our future by creating opportunities for new workers to learn 
the trades through apprenticeship programs. It also contains a 
commitment to the Helmets to Hardhats program, which is required in all 
Building Trades Project Labor Agreements.
    Millennium agreed to use skilled Union Building Trades workers on 
the project, but also agreed to search for these workers locally first.
    Without the tech boom that the Puget Sound area has enjoyed, our 
community has had to look for other economic opportunities that play to 
our strengths as an industrial community with access to major trade 
routes.
    The terminal would be an asset to the state's trade network, 
providing private investment in rail and other infrastructure to help 
ensure rapid delivery of other commodities.
    This creates jobs in areas well beyond the boundaries of 
Millennium's project.
    It also supports infrastructure for future shorelines development 
plans--and the jobs they bring--in places close to home, like Barlow 
Point, a property just downriver from Millennium that the Port of 
Longview recently acquired for growth.
    Millennium's project would add millions in annual tax revenue for 
schools and public services. At a time when state revenue is needed 
most, we've suddenly become very picky about where that tax money 
should come from--which works if you live in Seattle.
    Millennium is not asking for special tax breaks, like Boeing did, 
or challenging communities to bid against each other, like Amazon is 
doing. Millennium has just asked our community, and our state, to treat 
this project's applications like other port projects have been treated.
    This project has endured the most rigorous scrutiny ever by state 
regulators under the most stringent environmental standards in the 
country. Opposing industrial activity, imposing endless regulations and 
cherry-picking export commodities leaves no future for Cowlitz County. 
My Building Trades members just want the same chance that their parents 
and grandparents had here in Longview, which is to have a local job 
with wages that can support a family and actually get to spend time 
with that family after a full day of work.
    Millennium's project will provide the jobs and opportunities our 
community needs. That is why the Building Trades support the project.
    And I am not here today just in support of my members. As part of 
the Labor Movement, Building Trades cares not just about our craft 
workers, but all workers. In addition to the tradesmen and women that 
will be employed during construction of the facility, the Millennium 
project is projected to produce 300 direct and indirect full-time, 
family wage jobs.
    And our concerns are not just limited to the jobs my community 
needs now. We also have real concerns about our state's reputation and 
economic future. The seemingly endless and arbitrary regulatory process 
in Washington State will discourage future projects that would employ 
members of the Building Trades and my community.
                            recommendations
    In the long term, we in the Building Trades encourage the Committee 
to put some controls around the process to prevent this type of abuse. 
There should be a limit to the amount of time an agency can spend on a 
NEPA process, the type of public process it provides, and the number of 
pages the Final EIS consumes.
    The state EIS was published in April of this year and was more than 
13,000 pages. The Final Corps EIS should not follow suit. The Committee 
should amend the statute to prevent this type of abuse of process, to 
eliminate the political gamesmanship that ensues, and to return the 
statute to its original intent.
    But in the short term, we ask the Committee to insist the Seattle 
Corps District publish the Final EIS for Millennium. As someone who 
drives every day through Longview and sees the devastation caused by 
the lack of good jobs, I am asking you to help my community. The 
regulatory process in Washington State is broken. The result has been 
years and millions of dollars of lost wages, and millions of dollars of 
added cost to projects like Millennium during the review process. 
Please don't let this continue with the Federal process.

                                 *****

                               ATTACHMENT

Arbitrary and capricious: Rule of law binds agencies

By ROB McKENNA, Former Washington State Attorney General

Olympian Newspaper 11/17/2017

http://www.theolympian.com/opinion/op-ed/article185225268.html

After five years and thousands of hours of public testimony, it took a 
Cowlitz County judge just five seconds to say what many of us have long 
suspected: some state regulators are out of control, and important 
parts of the state regulatory process are now tools of activist groups.

Cowlitz County Superior Court Judge Stephen Warning made his comments 
in response to a dispute over access to the Columbia River for the 
Millennium Bulk Terminals project. They suggest a level of frustration 
not often seen from the bench. The Millennium case is a striking 
example of how agency regulatory processes can be appropriated by 
activists seeking to deny or block projects that don't align with their 
political agendas.

Judge Warning, though, saw through that strategy. His October ruling is 
based on the principle that the rule of law must be applied evenly, 
regardless of politics. Regulatory agencies must not exceed the 
authority granted to them by our elected representatives in the 
Legislature.

The dispute before Judge Warning involves a lease from our state 
Department of Natural Resources currently held by Northwest Alloys, and 
its sublease with Millennium Bulk Terminals. Millennium's proposed coal 
export terminal in Longview, Washington, has been under local and state 
regulatory review for a record five years, and counting. At issue is 
whether Northwest Alloys and Millennium can build a dock under the 
lease.

Just prior to leaving office this year, former DNR Lands Commissioner 
Peter Goldmark denied the requested sublease, citing fiscal issues--not 
environmental issues--for the denial. Three activist groups, including 
Columbia Riverkeeper, Washington Environmental Council, and Sierra Club 
asked the court to consider environmental issues in reviewing 
Goldmark's decision. In July, Warning denied them their request, noting 
that the lease denial must rest on the words in Goldmark's denial 
letter.

Warning again took up the lease issue and whether DNR acted legally in 
denying the sublease. He did not mince words, calling DNR's decision 
``arbitrary and capricious,'' highlighting how out of line the DNR 
decision really was.

We've seen this sort of agency activism before on this particular 
project. In September, the State Ecology Director denied Millennium a 
water permit based on nine factors, none of which had anything to do 
with water. The director has taken to Twitter on multiple occasions to 
issue comments about the project, the tenor of which seems more 
befitting an activist than regulator.

All of this casts doubt on our state regulatory process. Businesses and 
individuals hoping for a fair and timely review of their projects in 
our state are now likely to think twice before starting a project here. 
In the case of Millennium, they're five years and $15 million into this 
process. Other investors are unlikely to have this kind of time or 
money for such a protracted process.

Homeowners have also been affected by serious regulatory delays. Just 
ask rural landowners who have been dramatically affected by the Hirst 
water rights decision. They can share similar stories of wasted time 
and endless fees for wells they cannot dig, on land they cannot sell--
dream homes that have become regulatory nightmares.

Abuse of the regulatory process further political aims is an affront to 
our democracy and must not go unchecked. Judge Warning said as much in 
as little as three words. Let's hope they speak loud enough for all to 
hear them and end such abuse.

                                  ***

    Rob McKenna served two terms as Washington's attorney general. He 
is currently in private practice with Orrick, Herrington & Sutcliffe 
LLP, where he serves as a partner and co-chair of the firm's public 
policy group.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Location of Millennium Bulk Terminals--Longview, LLC. Proposed 
coal export terminal in Washington State.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Aerial view of Longview, Washington. The area along the 
waterfront of the Columbia River was zoned industrial when the city was 
created in the 1920s. The Millennium coal export project is located on 
a shuttered 1940s era aluminum smelter site. Millennium has spent over 
$25 million cleaning up the site. This commitment is in addition to the 
$15 million spent to date for permitting the coal terminal over the 
last 6 years.

            Income Information on Cowlitz County Washington

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Prior to 1981 Cowlitz County's Per Capita Income was in the top 
ten of all Washington Counties. With added federal and state 
environmental regulations such as the spotted owl, our manufacturing 
sector took a large hit and we have seen a steady decrease in out Per 
Capita Income when compared to the nation and state of Washington. The 
gap is increasing and we are lagging behind.

    Cowlitz County is a gateway for trade for our state. Limits on the 
use of our interstate and international transportation systems (rail 
and the navigation channel) will cause Cowlitz County residents to not 
fully benefit from the unique location of our county and ultimately 
cause or residents to fall further behind.

                                 ______
                                 

    The Chairman. Thank you. You timed that perfectly.
    Ms. Bear, you have 5 minutes.

 STATEMENT OF DINAH BEAR, FORMER GENERAL COUNSEL, WHITE HOUSE 
       COUNCIL ON ENVIRONMENTAL QUALITY, TUCSON, ARIZONA

    Ms. Bear. Chairman Bishop, Ranking Member Grijalva, and 
distinguished members of the Committee, thank you for the 
opportunity to testify this morning about the National 
Environmental Policy Act.
    At its heart, NEPA is grounded in certain basic beliefs 
about the relationship between citizens and their government. 
Those core beliefs include an assumption that information 
matters, that citizens should actively participate in their 
government, and that the NEPA process should be implemented 
with both common sense and imagination.
    NEPA also rests on a belief that the social and economic 
well-being of human beings is intimately interconnected with 
their environment.
    At the Federal level, NEPA is the law that provides the 
broadest, most systematic way for citizens to know what their 
government is going to do before they do it, and to have some 
input in the analysis leading up to that decision.
    When proposed actions trigger the need to prepare an EIS, 
the potential consequences are extremely significant, and the 
impacts may last for decades, if not centuries. Time taken for 
the purpose of doing excellent analysis and public involvement 
is time well spent. We also need to remember that citizens who 
are not professional members of trade associations, public 
interest groups, law firms, or otherwise professionally 
employed in the environmental field need real time to review 
documents and write comments.
    It is true, though, that the NEPA process is delayed at 
times--too many times--for reasons that have nothing to do with 
the environment. In my experience, the major causes are lack of 
staff capacity in the Federal agencies and lack of adequate 
training. My experience is that agency capacity is dramatically 
insufficient.
    When I entered public service in 1981, agencies typically 
had or were building a multi-disciplinary staff to implement 
NEPA. Over time, agency capacity has been severely diminished. 
In some cases, offices have been disbanded and other additional 
responsibilities have been assigned to the point that the NEPA 
capacity has been severely diminished. And one of the worst 
situations I saw, an agency decided not to appoint anybody to 
implement NEPA on the theory that everyone would do NEPA.
    Recently a professor at the University of Arizona stated 
that most of the time costs for conducting NEPA right now are 
due to limited staff. NEPA projects wait in line until staff 
are available to do the work. The capacity for training has 
also been decimated. I sympathize with some of the problems 
that both Mr. Bridges and Commissioner Willox pointed out in 
their testimony, which are issues that should never have arisen 
under the current regulations, and I am afraid lack of training 
had something to do with the problems that emerged.
    Congress has passed a number of ``streamlining provisions'' 
and transportation authorization bills, as well as the FAST 
Act. A number of those provisions make sense. Some, in my view, 
go too far. Executive Order 13807 seeks to expedite the review 
process with a goal of completing environmental review 
processes within 2 years. CEQ has also taken a number of steps. 
None of these measures will succeed if Federal agencies lack 
skilled, trained staff to implement them.
    So, my first recommendation, not surprisingly, is to direct 
agencies through both oversight and through the appropriations 
process to prioritize adequate trained staff to implement NEPA 
and ensure that the executive branch does implement the 
provisions in FAST-41, allowing the collection of fees from 
infrastructure sponsors with some safeguards to ensure 
independence of the agencies.
    If there is any doubt at this point of time that there is a 
problem with staff capacity, additional study of staff 
capacity, or a study, actually, would be very useful. I would 
also recommend the study comparing staff with consultants. 
Special attention should be given to social, economic, and 
health impacts. The quality of that analysis, I agree with Mr. 
Willox, is lacking. And NEPA is all about, as one of the 
sponsors said, a policy for people and the human environment, 
which is the key phrase in NEPA.
    I think I will end there. I have other recommendations. I 
ask that my full testimony be included in the hearing record.
    Thank you very much and I look forward to questions.

    [The prepared statement of Ms. Bear follows:]
 Prepared Statement of Dinah Bear, Former General Counsel, White House 
           Council on Environmental Quality, Tucson, Arizona
                          introductory remarks
    Thank you for the invitation to appear before the House Natural 
Resources Committee to testify on the issue of how to modernize the 
National Environmental Policy Act (NEPA) for the 21st century. I 
appreciate the opportunity to testify, and hope that my remarks will 
assist the Committee.
    By way of background, I was asked to serve as Deputy General 
Counsel for CEQ with President Reagan's administration in 1981. The 
Council on Environmental Quality (CEQ) is the agency established by 
Congress with responsibility for overseeing the National Environmental 
Policy Act. In 1983, I was appointed as General Counsel, which was then 
and remains a non-career position. In that role, I had responsibility 
for oversight of implementation of NEPA. I served in that position 
through both terms of President Reagan's administration and that of 
President George H.W. Bush. I resigned from CEQ in October, 1993, and 
resumed responsibilities as General Counsel in January, 1995. I was 
General Counsel at CEQ during the Clinton and the George W. Bush 
administrations until the end of calendar year 2007, when I retired 
from Federal service. My husband and I moved to Tucson, Arizona last 
year and I continue to be active in the field of environmental law 
generally and NEPA specifically.
                 the national environmental policy act
    As the title suggests, the National Environmental Policy Act, this 
country's environmental magna carta, sets forth this country's policies 
regarding the environment. In discussing NEPA, it is good to begin with 
a reminder of those policies:

``CONGRESSIONAL DECLARATION OF NATIONAL ENVIRONMENTAL POLICY

Sec. 101 [42 USC Sec. 4331].

(a) The Congress, recognizing the profound impact of man's activity on 
the interrelations of all components of the natural environment, 
particularly the profound influences of population growth, high-density 
urbanization, industrial expansion, resource exploitation, and new and 
expanding technological advances and recognizing further the critical 
importance of restoring and maintaining environmental quality to the 
overall welfare and development of man, declares that it is the 
continuing policy of the Federal Government, in cooperation with State 
and local governments, and other concerned public and private 
organizations, to use all practicable means and measures, including 
financial and technical assistance, in a manner calculated to foster 
and promote the general welfare, to create and maintain conditions 
under which man and nature can exist in productive harmony, and fulfill 
the social, economic, and other requirements of present and future 
generations of Americans.

(b) In order to carry out the policy set forth in this Act, it is the 
continuing responsibility of the Federal Government to use all 
practicable means, consist with other essential considerations of 
national policy, to improve and coordinate Federal plans, functions, 
programs, and resources to the end that the Nation may----

  1.  fulfill the responsibilities of each generation as trustee of the 
            environment for succeeding generations;

  2.  assure for all Americans safe, healthful, productive, and 
            aesthetically and culturally pleasing surroundings;

  3.  attain the widest range of beneficial uses of the environment 
            without degradation, risk to health or safety, or other 
            undesirable and unintended consequences;

  4.  preserve important historic, cultural, and natural aspects of our 
            national heritage, and maintain, wherever possible, an 
            environment which supports diversity, and variety of 
            individual choice;

  5.  achieve a balance between population and resource use which will 
            permit high standards of living and a wide sharing of 
            life's amenities; and

  6.  enhance the quality of renewable resources and approach the 
            maximum attainable recycling of depletable resources.'' 42 
            U.S.C. Sec. 4331.

    Congress sought to ensure that Federal agencies implemented these 
policies by mandating a process by which executive branch agencies 
would analyze the environmental and related social and economic impacts 
of a proposed action and reasonable alternatives to the proposed action 
to meet a particular purpose and need identified by an agency. It also 
established CEQ to oversee implementation of the Act.
    What is often referred to as ``the NEPA process,'' or more 
globally, the environmental assessment impact process, reflects a 
common-sense approach to decision making. Basically, Federal agencies 
identify a need to take action, develop a proposed action and identify 
reasonable alternatives and analyze the effects of the various 
alternatives. As stated in CEQ's regulation at 40 CFR Sec. 1502.14, the 
``heart'' of an EIS is the alternatives section; without alternatives, 
the analysis simply documents a decision already made instead of 
actually informing it. As then Governor Fruedenthal of Wyoming put it 
once, ``The National Environmental Policy Act is not about what we do 
or do not like. Rather, it is about displaying a true range of 
alternatives to address the issues raised during the planning 
process.'' Letter from Governor David Freudenthal to Rawlins Field 
Office, Bureau of Land Management, March 15, 2005.
    In my view, the most exciting development in NEPA has been the 
formulation of truly reasonable alternatives developed by citizens, 
often coalitions composed of people representing diverse 
constituencies, who present an alternative to an agency and see it 
analyzed in an EIS and on occasion, ultimately chosen in whole or part 
as the agency's decision. That's seems to me to be a true living 
example of democracy in action. In the context of Federal agency 
decision making, NEPA is the law that provides the broadest, most 
systematic way for citizens to know what their government is going to 
do before it happens and to be involved in the analysis leading up to 
the government's decision. It has had an enormous impact in this 
country and around the world.
    Under CEQ's regulations implementing the procedural provisions of 
NEPA, each department and agency identifies the anticipated level of 
environmental impact, based on its experience, that typically result 
from undertaking the type of actions it normally undertakes to fulfill 
its mission. Actions that have significant impact on the environment 
require preparation of an environmental impact statement (EIS). In 
2012, the last year for which CEQ has posted the number of EISs 
prepared, there were 397 draft and final EISs prepared--spread out over 
the 85 some Federal agencies. By far, the preponderance of Federal 
actions come under either categorical exclusions (CEs), which require 
no written documentation under CEQ's regulations. The next most common 
type of proposed Federal action triggers the need to prepare an 
environmental assessment (EA), which may conclude in either a Finding 
of No Significant Impact or a decision to prepare an EIS. Public and 
intergovernmental participation requirements are commensurate with the 
level of impacts. There is a considerable amount of flexibility under 
the CEQ regulations as to how agencies can implement the NEPA process. 
There are also time tested provisions for emergency situations related 
to actions that would normally require an EIS and provisions for 
dispute resolution.
    At its heart, the NEPA process is grounded in certain basic beliefs 
about the relationship between citizens and their government. Those 
core beliefs include an assumption that information matters, that 
citizens should actively participate in their government, that the NEPA 
process should be implemented with both common sense and imagination, 
and that there is much about the world that we do not yet understand. 
NEPA also rests on a belief that the social and economic welfare of 
human beings is intimately interconnected with their environment.
         state and local governments' role in the nepa process
    In NEPA and the CEQ regulations implementing it, states and local 
governments are afforded special roles in the NEPA process. Under 
Section 102(2)(D) of NEPA, an EIS for a Federal action funded through a 
grant program to states may be prepared by a state agency if (i) the 
agency has statewide jurisdiction and has the responsibility for such 
action; (ii) the responsible Federal official furnishes guidance and 
participates in such preparation; (iii) the responsible Federal 
official independently evaluates such statement prior to its approval 
and adoption; and (iv) the responsible Federal official provides early 
notification to, and solicits the views of, any other state or any 
Federal land management entity of any action or any alternative thereto 
which may have a significant impact related to the action and prepares 
a written assessment of any disagreements among such agencies for 
inclusion into the EIS. Additionally, there are several grant programs 
which delegate responsibility for NEPA to the grant recipient; for 
example, the Department of Housing and Urban Development's Community 
Development Block Grant Program and the Urban Development Action Grant 
program.
    Under CEQ's regulations, a state or local government agency can be 
either a joint lead agencies, typically used when the state has a so-
called ``little NEPA'' law to avoid doing the process twice, or assert 
jurisdiction by law or special expertise to become a cooperating 
agency. If there is state law or local ordinance in addition but not in 
conflict with NEPA, Federal agencies are instructed to cooperate in 
fulfilling those requirements so that one document will comply with 
applicable laws at all levels of government. 40 CFR Sec. 1506.2.
    During the 1990s, CEQ received many complaints from county 
commissioners in the West, especially from Wyoming and New Mexico, 
about being denied cooperating agency status. In looking into those 
complaints, we determined that these grievances had legitimacy. CEQ 
then guidance documents on cooperating agencies, including quite 
specific guidance regarding county and state governments, and 
instituted an annual reporting requirement for Federal agencies 
regarding cooperating agencies. At present, CEQ is working on a series 
of memoranda that compare and contrast state and local environmental 
review requirements with Federal requirements, as well as providing 
contacts for each jurisdiction.
    Finally, in the past few years, there have been congressional moves 
to delegate NEPA compliance in whole or part to states. This has been 
particularly been true for Federal highway activity, which long 
operated under Section 102(2)(D) of NEPA explained above for 
preparation of EISs. Legislation now allows states to assume 
responsibility for determining which activities are categorically 
excluded; for example, earlier this year, the Federal Highway 
Administration published the 3rd renewal of a Memorandum of 
Understanding with the state of Utah in which the state assumes 
responsibility for determining whether certain highway projects can be 
categorically excluded from written NEPA compliance as well as assuming 
responsibility for 30 environmental laws for those actions (while 
excluding government to government consultation with tribes).
    Additionally, the recently passed so-called ``FAST Act'' allows up 
to five states to substitute state requirements for environmental 
review for Federal review requirements where state requirements are 
``at least as stringent'' as the Federal requirements proposed to be 
replaced. 30 U.S.C. Sec. 330(d)(1)(A). CEQ recently published, for 
public review and comment, proposed criteria for determining which 
states have requirements that qualify under this Act.
                            causes of delay
    There is a perception that compliance with NEPA causes significant 
delays in approval of large numbers of proposed actions. Sometimes that 
is true and sometimes it is not.
When NEPA Is the Reason
    It is important to acknowledge that in the relatively few instances 
when proposed actions trigger the need to prepare an EIS, the potential 
consequences are extremely significant and ones that the affected 
community likely may live with for decades if not centuries, depending 
on the nature of the action. Time taken for the purpose of doing an 
excellent job of analysis and public involvement is time well spent. It 
is also important to understand that citizens need some real time to 
review document and write comments--more time than ``streamlined'' 
provisions provide. For example, during my tenure at CEQ, the New 
Mexico Cattle Growers Association and New Mexico Wool Growers 
Association both advocated for mandatory 90-day comment periods on all 
environmental assessments. That's not the current rule, but they 
emphatically reminded us that for many in rural America, 30 days is 
simply not a sufficient comment period.
    It is true, though, that the NEPA process is delayed at times, 
whether for preparation of EISs, EAs or even processing categorical 
exclusions--for reasons that have nothing to do with the protection of 
the environment, our communities or public lands. In my experience, 
there are two related reasons for that, both dealing with issues of 
capacity within agencies: lack of staff with responsibility for NEPA 
implementation and lack of training.
    I am not aware of any systematic accounting of staff capacity for 
NEPA implementation within Federal agencies that charts the personnel 
trend over the past few decades. But my experience is that the trend 
has been very much in the wrong direction--that is, dramatically down. 
When I first entered public service in 1981, major departments and 
agencies typically had or were building a multi-disciplinary staff to 
implement NEPA and a network of field offices. For example, the Office 
of Environmental Coordination for the Forest Service ``had national 
responsibility for leadership, NEPA policy and procedures, training and 
oversight. It also had agency responsibility for coordination and 
liaison with other agencies. In 1989 we decided to greatly expand our 
national training effort to ensure that all of our people at the field 
level and all of the knowledge they needed to make environmentally 
sound and defensible decisions . . . [the staff] did an outstanding job 
of developing a national program that involved training a cadre of 
trainers from all the Regions. These people then went back to their 
Regions and developed their Regional Cadre and passed the training to 
all of the National Forests in their Regions.'' Personal communication 
from David Ketcham, first Director of the Office of Environmental 
Coordination, to Dinah Bear, July 14, 2017.
    Since that time, agency capacity in all of these aspects has been 
severely diminished. In some cases, offices have been disbanded; in 
others, additional responsibilities have been assigned to the point 
that the capacity for NEPA work is severely diluted. In one of the 
worst situations I've seen, an agency decided not to fill NEPA 
positions on the theory that ``everyone'' would do NEPA. The Task Force 
on Improving NEPA established by this Committee in 2005 identified this 
as an issue and the situation seems to have gotten worse since then. 
Recently, at the University of Arizona, Dr. Kirk Emerson, in the School 
of Government and Public Policy has been working with public land 
agencies and ``we have learned through some of our public land agency 
interviews, most of the time costs for conducting NEPA right now are 
due to limited staff. NEPA projects wait in line, until staff are 
available to do the work.'' Personal communication from Dr. Kirk 
Emerson to Dinah Bear, November 19, 2017.
    Further, and importantly, the capacity for NEPA training within the 
agencies has been decimated. Far too many employees learn ``on the 
job'' in ways that do not provide a solid foundation for understanding 
how to do the job. Staff who are not fully trained in implementing NEPA 
often end up doing a lot of extra work in an attempt to make sure they 
are doing the right thing. I recall one gentleman who came to a long 
overdue NEPA training course after being assigned NEPA responsibilities 
for an entire region 6 months prior to the workshop. He had no 
background whatsoever in NEPA when he was assigned the job of advising 
staff throughout the region on difficult NEPA issues. He had faithfully 
written down every question that came to him that he couldn't answer 
and brought them to the workshop for answers. These kinds of situations 
are big problems in the real world--not a NEPA problem, but a training 
and management issue.
    In the past few years, Congress has passed a number of 
``streamlining'' provisions in transportation authorization bills as 
well as the FAST Act to expedite the NEPA process for infrastructure 
projects. A number of those provisions make sense; some, in my view, go 
too far. Executive Order 13807 also seeks to expedite the review 
process with a goal of completing environmental review processes within 
2 years and issuing a single Record of Decision for infrastructure 
projects. Independently over the past decade, CEQ has taken a number of 
steps to both increase transparency regarding the progress of the 
environmental review for infrastructure projects and to reduce delays. 
However, these measures will not succeed if the Federal agencies lack 
skilled staff to implement them.
    Delegating NEPA responsibilities to the states or local governments 
does not automatically solves the capacity problem. Indeed, depending 
on the state or local government, there may be even less capacity to 
undertake the process. A 2003 GAO report found that 69 percent of 
transportation stakeholders reported that both state departments of 
transportations and Federal environmental agencies lacked sufficient 
staff to handle their workloads. Highway Infrastructure: Stakeholders' 
Views on Time to Conduct Environmental Reviews of Highway Projects, 
GAO-03-545, p. 5. It would be good to have this analysis updated.
When NEPA Is Not the Reason
    Little systematic research has been done by neutral organizations 
on the causes of delay in terms of Federal decision making. GAO 
underscored the paucity of information about NEPA implementation in a 
2014 report, Little Information Exists on NEPA Analysis (GAO-14-369). 
Such research that does exist relates almost exclusively to Federal 
highway actions. Since at least the mid-1990s, the General Accounting 
Office/General Accountability Office (GAO), and the Congressional 
Research Service (CRS), have prepared a series of reports, remarkably 
consistent in their findings, regarding the construction of highway 
projects and the relationship of environmental laws generally and NEPA 
specifically to decision-making timelines. This type of analysis is 
needed more broadly if agencies and/or legislators are going to be able 
to formulate successful approaches to reducing delays. In short, the 
GAO and CRS reports find that a number of Federal projects have indeed 
been delayed or stopped but for reasons that have nothing to do with 
NEPA, although NEPA usually gets the blame. Reasons include lack of 
funding, changes in the proposal by applicants, assessment by 
applicants that the project is no longer desirable for a variety of 
reasons, opposition from citizens and state and local governments. See, 
for example, The Role of the Environmental Review Process in federally 
Funded Highway Projects: Background and Issues for Congress, CRS 7-
5700, R42479, April 11, 2012.
        recommendations for modernizing nepa in the 21st century
Increase Capacity and Cut Contracting
    As discussed above, in my view, the lack of trained staff within 
government agencies is a major cause of delay in the NEPA process. 
Changes in the law or regulations won't make a difference if there is 
no who knows about those changes and is equipped to implement them. For 
example, many people concerned about delay in NEPA advocate for 
expanded use of categorical exclusions. I think we've reached if not 
surpassed the limit of acceptable CEs and instead the effort should be 
directed to ensuring that agencies understand how to use them. CEQ 
requires no paperwork to utilize a categorical exclusion once it is 
established, although many agencies do require at least some 
documentation. However, there have been found instances of agencies 
preparing literally hundreds of pages of documents to justify the use 
of a categorical exclusion. The point is that just mandating the use of 
a categorical exclusion doesn't work if there is no staff to implement 
it or the staff that is there doesn't know how to handle a categorical 
exclusion. Why does such a thing happen? Lack of training is the 
primary answer. Further, agencies who don't have the capacity to 
implement seldom have competent oversight either. And CEQ, which is 
ideally situated to do both generic, across-the-board and more focused 
oversight, itself suffers from serious staff shortages. For too many 
years during its 47-year tenure, CEQ has only had one or possibly two 
people charged with overseeing about 85 agencies in the executive 
branch. At other times, it has had a staff of five to seven 
professionals. At that staff level, CEQ can do some serious oversight 
work. With only one or two people, only the firestorm of the day can be 
addressed.
    As the result of these capacity problems, when possible, agencies 
now generally hire consultants to prepare NEPA documentation and often 
to run the public involvement process. There are many consulting firms 
that include personnel who are knowledgeable about the NEPA process and 
do a good job from a technical perspective (there are also some, of 
course, who are not up to the task). However, whatever a consultant's 
expertise, using outside personnel inevitably delays the process, 
whether by virtue of the procurement process or the need for oversight 
and review from agency staff that may be unavailable or under 
qualified. In fact, the EIS processes I've seen done in, for example, 2 
years, have been conducted solely by qualified agency staff with 
support of agency leadership. Further, routinely contracting out NEPA 
work dilutes much of the point of the process by often removing agency 
staff from direct contact with the people most interested, concerned 
and affected by the proposed action.

    Recommendations: Congress should direct agencies, through the 
appropriations process, to prioritize ensuring that agencies have 
adequate trained, competent staff to implement the NEPA process. 
Congress should also continue to authorize shared resources between 
state and Federal agencies, as they have done to expedite both highway 
funding and certain projects designed to mitigate risk of fire near 
communities. The executive branch should implement the provisions in 
FAST-41 authorizing a system to collect fees from infrastructure 
project sponsors to fund environmental review personnel in agencies 
with adequate safeguards to ensure the independence of agency staff.
    If doubt still exists as to the validity of these concerns, 
Congress should direct CEQ or the National Academy of Sciences to 
engage in a comprehensive study of current Federal agency NEPA staffing 
issues, including capacity, training and retention and recruitment of 
experienced staff. Further, CEQ should ensure that agency decision 
makers understand the basic purposes and requirements of NEPA and 
encourage them to work with their staff to implement NEPA in a flexible 
and creative manner. Additionally, I would urge a study be undertaken 
by CEQ and the Office of Management Budget jointly to compare the costs 
of undertaking NEPA review through the use of consultants with the cost 
of maintaining a small core of competent agency staff. The latter would 
be, as the GAO has reported, challenging but not impossible if it is a 
multi-year study and agencies are given direction on budgeting and 
accounting for future fiscal years.
    Finally, Congress should pause and evaluate before passing further 
streamlining provisions. Before the measures mandated passed by 
Congress in the 2012 MAP-21 transportation authorization bill had been 
implemented, Congress passed further streamlining requirements in the 
FAST Act that caused confusion and delay in implementing these 
measures. Vulnerabilities Exist in Implementing Initiatives Under MAP-
21 Subtitle C to Accelerate Project Delivery, Office of the Inspector 
General, March 6, 20107. The combination of FAST-41, Executive Order 
13807 and other measures taken by the Administration is a lot for 
understaffed agencies to implement and should be evaluated prior to 
further measures.
Increase Efficiency by Using 21st Century Technology
    One obvious suite of measures that the Federal Government should 
take to bring NEPA into the 21st century is to be utilize 21st century 
technology in a manner that both reduces the amount of time needed for 
preparation of NEPA analyses and utilizes the vast amount of 
information stored in NEPA documents to evaluate and improve analyses.
    Almost 50 years of data and analyses contained in NEPA documents 
and paid for by taxpayers' money should be a treasure trove of 
information for both the public and private sectors. NEPA analyses 
cover all parts of the country, contain ecological, social and economic 
data and after five decades, should be readily available for trends 
analysis. Technical tools such as natural language processing, text 
mining and spatially explicit information retrieval as well as modern 
machine reading systems such as PaleoDeepDive could be utilized to 
facilitate access to this information. Imagine the boon to analyses and 
the understanding on the part of all interested parties if 50 years of 
information about, for example, the ecology, economy and communities of 
the Central Valley of California--or national forests in Idaho--or the 
colonias along the U.S. Mexico border--were available within a day. Yet 
today, no such system exists. Indeed, even obtaining EISs, let alone 
environmental assessments, which have no central filing system, can be 
very challenging and if a person does dig such documents out of the 
National Archives, there is no shortcut to going through each document 
individually in hard copy.
    CEQ has identified the need to use information technology tools to 
improve the efficiency and management of NEPA reviews and has promoted 
the use of various IT tools such as NEPAassist geospatial systems for 
preparation of NEPA documents. However, the agency's limited resources 
do not currently allow it to tackle the larger issues of making 
available EISs and other valuable NEPA documents, both past and 
present, easily accessible on a government-wide basis.
    While advocating for better use of 21st century technology, I also 
want to stress that it must be remembered that almost one-quarter of 
Americans still do not have access to speedy internet service, 
especially in rural areas. Agencies must not entirely abandon 
production of hard copy documents.

    Recommendation: CEQ should be funded and directed to establish 
(either managed by CEQ directly or by an appropriate institution) a 
publicly available database with sophisticated search capability for 
NEPA documents for the entire executive branch. This effort should 
include the promulgation of technical guidelines for electronic 
submission of NEPA documents going forward into the 21st century.
Improve the Quality and Integration of Economic, Health and Social 
        Impact Analysis in the NEPA Process
    Senator Henry Jackson stated during the Senate debate on NEPA's 
passage, ``An environmental policy is a policy for people. Its primary 
concern is with man and his future. The basic principle of the policy 
is that we must strive, in all that we do, to achieve a standard of 
excellence in man's relationship to his physical surroundings. If there 
are to be departures from this standard they will be exceptions to the 
rule and the policy. And as exceptions they will have to be justified 
in the light of public scrutiny.'' Congressional Record-Senate, October 
8, 1969, p. 29056. The core term in NEPA's requirement to analyze the 
effects of proposals for Federal action is the impact on ``the human 
environment'' and the policies set forth in the Act, cited at the 
beginning of this testimony, talk about fulfilling the, ``social, 
economic and other requirements of present and future generations of 
Americans.'' The effects to be analyzed in either an EA or an EIS 
include cultural, economic, social, aesthetic, historic and health 
impacts. 40 CFR Sec. 1508.8.
    However, the quality of social and economic analysis is, as a 
general rule, far below that analysis of what are thought of as 
traditional fields of environmental study (i.e., air, water, wildlife). 
Often, social impacts and economic impacts are blurred together and 
merged into something labeled ``socioeconomic effects'' that 
essentially is a data dump of information that may or may not be 
relevant. Further, with some exceptions, human health impacts are 
frequently overlooked or shortchanged in NEPA analyses. See, National 
Research Council, Improving Health in the United States: Health Impact 
Assessment (advocating for improved integration of health impacts into 
the NEPA process as relevant) (2011), available at https://www.nap.edu/
catalog/13229/improving-health-in-the-united-states-the-role-of-health.
    Some of the shortchanging of analysis regarding impacts on human 
beings is due to a misunderstanding of both the CEQ regulations and 
applicable case law. Those misunderstandings, in turn, have left 
already understaffed agencies bereft, for the most part, of any 
expertise related to human health, community welfare, and economics and 
a proposed action's impacts on all of the above. Some citizens, whether 
western ranchers, residents of inner cities or Native Alaskans, have 
concluded that the law has no room for consideration of impacts on 
human beings. This feeling undercuts citizens' sense of mattering to 
Federal agencies, weakens agencies' understanding of the communities 
they serve and it is wrong as a matter of law.

    Recommendation: CEQ should be directed to work with Federal 
agencies to identify obstacles to accomplishing professionally 
competent economic, social and health analyses and to promote 
recruitment of personnel with these types of credentials to joint 
agency staff or partnerships with appropriate entities, such as public 
health organizations. As needs are identified and as appropriate, CEQ 
should also publish guidance or handbooks on particular issues of 
common concern regarding analyses of these types of impacts.
Make the Process Count by Making Mitigation Binding
    For understandable reasons, the post-decisional aspects of NEPA 
gets short shrift from everyone. The NEPA process is primarily a 
predecisional process and the work and energy focuses on informing that 
decision. NEPA does not require agencies to mitigate adverse impacts 
and nothing in NEPA makes mitigation measures that are included in 
decisions automatically binding. Yet it is rare, if not impossible, to 
find a decision document following the NEPA process that does not 
include mitigation measures. And in some cases, considerable resources 
have been invested in the process of designing mitigation. But are 
those mitigation measures implemented? And if so, do they have the 
desired effect? The answers to these questions are largely unknown. As 
a general rule, little to no monitoring takes place. So the taxpayers 
don't know if commitments made by an applicant or agency are carried 
out and none of us know the effectiveness of those measures if they 
have been implemented. This is not a good situation, either from the 
perspective of the resources being impacted or citizens' trust in their 
government to carry out commitments. Both Congress and citizens should 
expect better from Federal agencies.
    In 2011, CEQ issued guidance to Federal agencies regarding 
mitigation and monitoring. Memorandum for Heads of Federal Departments 
and Agencies on Appropriate Use of Mitigation and Monitoring and 
Clarifying the Appropriate Use of Mitigated Findings of No Significant 
Impact. In part, the guidance is based on the excellent, common-sense 
Department of the Army regulation at 32 CFR part 651, Appendix C, which 
requires proposed mitigation measures to be a line item in the 
proponent's budget or equivalent funding document and/or include the 
mitigation commitment in a legally binding document (for example, 
permits or grants). It mandates a monitoring and enforcement program 
for adopted mitigation and provides for situations in which mitigation 
measures are not implemented.
    The CEQ guidance also discussed how the integration of 
Environmental Management Systems (EMS), used extensively in the private 
sector, or other data or management systems can be integrated into the 
monitoring mitigation commitments. These are especially useful systems 
for monitoring compliance in the context of infrastructure 
developments.

    Recommendation: Either the National Academy of Sciences or CEQ 
should be tasked to initiate a review of both the implementation and 
effectiveness of mitigation measures for both agency-initiated and 
applicant sponsored actions in selected agencies and report back to 
committees of jurisdiction within 1 year. The report may suggest 
concrete steps to be taken by either Congress or CEQ depending on the 
findings.
Elevate the Role of Tribal Governments in NEPA
    I want to end with perhaps the most egregious oversight in NEPA--
the role of tribal governments. While perhaps understandable (although 
not acceptable) in 1969 when NEPA was passed; and less so in 1978 when 
the CEQ regulations were issued, it is completely unacceptable now. The 
CEQ regulations on their face confine cooperating agency status for 
tribes to situations where the effects of a proposed action are felt on 
reservations. 40 CFR Sec. 1508.5 Most Native Americans live off 
reservation in the continental United States and with one small 
exception, Alaska Natives do not live on reservations at all. Tribal 
governments must be recognized as being on a level playing field with 
local and state governments and afforded all due respect as potential 
joint lead and cooperating agencies and should be able to execute all 
other responsibilities afforded state and local agencies. Short 
changing the role of tribal governments in NEPA implementation 
perpetuates a second class status for tribes that never was appropriate 
but is even less so in the 21st century.

                                 ______
                                 

 Questions Submitted for the Record to Ms. Dinah Bear, Former General 
          Counsel White House Council on Environmental Quality
                   Questions Submitted by Rep. Denham
    Question 1. Ms. Bear, how does the Council on Environmental Quality 
view this concept of NEPA reciprocity and what are your thoughts on 
utilizing this tool with state water agencies for Bureau of Reclamation 
water storage projects?

    Answer. To be clear, I am no longer with the Council on 
Environmental Quality (CEQ), but I can speak to how Congress and CEQ 
have viewed the state's role in NEPA in the past, including the 25 
years in which I served at CEQ as well as offering my own thoughts on 
the matter.

    Both Congress and CEQ have been very cognizant of the important 
role of states and have provided mechanisms to involve states in the 
NEPA process for Federal agency decision making in a very robust 
manner. For example, NEPA already provides that a state agency or 
official with statewide jurisdiction and the responsibility of carrying 
out a program funded by Federal grants to the states may prepare an 
environmental impact statement (EIS). 42 U.S.C. Sec. 4332(D). If the 
state chooses to do so, the Federal agency involved must provide 
guidance, participate in the process and independently evaluate the EIS 
to ensure that it meets Federal standards. The Federal agency also 
retains the responsibility to defend the EIS in Federal court if there 
is a legal challenge. In my experience, the principal user of this 
provision has been state highway departments, although the provision is 
not limited to them.

    Under CEQ's regulations, a state or local government agency can be 
either a joint lead agency, typically used when the state has a so-
called ``little NEPA'' law to avoid doing the process twice, or assert 
jurisdiction by law or special expertise to become a cooperating 
agency. If there is state law or local ordinance in addition but not in 
conflict with NEPA, Federal agencies are instructed to cooperate in 
fulfilling those requirements so that one document will comply with 
applicable laws at all levels of government. 40 CFR Sec. 1506.2. 
Similarly, joint planning processes, joint environmental research and 
studies, joint public hearings and joint environmental assessments are 
already authorized under the same regulation.

    Additionally, there are several grant programs which delegate 
almost complete responsibility for NEPA to the grant recipient; for 
example, the Department of Housing and Urban Development's Community 
Development Block Grant Program and the Urban Development Action Grant 
program. Importantly, these are situations in which the recipient of 
the grant makes the decision about what to do with the funding, with 
applicable statutory parameters, as opposed to a Federal agency.

    Additionally, the recently passed so-called ``FAST Act'' allows up 
to five states to substitute state requirements for environmental 
review for Federal review requirements where state requirements are 
``at least as stringent'' as the Federal requirements proposed to be 
replaced. 30 U.S.C. Sec. 330(d)(1)(A). CEQ recently published, for 
public review and comment, proposed criteria for determining which 
states have requirements that qualify under this Act.

    Here are some additional thoughts:

  1.  The opportunities presented for more robust state involvement, 
            either for assuming responsibility for an entire EIS or 
            sharing the responsibility with a Federal agency, were not 
            very robustly utilized during my tenure at CEQ (roughly 
            1981 through 2007). My sense of the reason for that is that 
            many states, especially states without a ``little NEPA 
            law'' at the state level, lacked capacity and were simply 
            not interested in assuming that responsibility. With some 
            notable exceptions (California), most states and local 
            governments were more interested in being cooperating 
            agencies than taking the lead role.

  2.  About half of the states do have ``little NEPA laws,'' but the 
            requirements under those individual state laws vary widely. 
            California's law, the California Environmental Quality Act, 
            is generally regarded as being stricter than NEPA, for 
            example, in the area of mitigation. Other state laws are 
            quite narrow and only apply to certain types of projects. 
            Wholesale delegation of NEPA responsibilities to states 
            under 50 separate state laws could, I would think, 
            complicate, not simplify, compliance with NEPA, especially 
            for large interstate projects like gas pipelines.

  3.  California already provides that if a project requires compliance 
            with both NEPA and CEQA, state or local agencies should use 
            the Federal document rather than preparing a separate state 
            document and then add to that document the additional CEQA 
            requirements if they are not included in the state 
            document. Cal. Code Regs. Title 14, Sec. 15221. So, 
            especially in California, with both the CEQ regulations 
            mandating joint EISs and CEQA's provision to use NEPA 
            documents, there rarely, if ever, should be two separate 
            documents (i.e., an EIS and an EIR). In my experience, many 
            of the failures that lead to separate documents are 
            management issues, not NEPA issues.

  4.  The purpose of the environmental impact assessment process is to 
            inform decision making. The responsibility for the process 
            needs to be vested in the institutional decision maker. 
            Thus, if a Federal agency is going to make a decision on 
            the proposed action, that agency should bear responsibility 
            for compliance with NEPA. If there is a state involved that 
            also needs to make a decision, the responsibility for the 
            environmental review process should be shared jointly, as 
            in the statutory and regulatory examples above. If final 
            decision making for the proposed action has been 
            transferred entirely to states, then it follows that it 
            would be appropriate for states to assume the 
            responsibility for the environmental review process.

  5.  I would warn against wholesale transfer of NEPA responsibilities 
            to states for a number of reasons. I have watched several 
            instances in which Congress has made available to the 
            states the opportunity to take over the environmental 
            review process--from the amendment to NEPA itself to pilot 
            projects in transportation and infrastructure bills. It is 
            honestly not clear to me that most states (again, with some 
            exceptions) are eager to do this. Assuming such 
            responsibility puts a greater burden on states with no 
            discernable advantage to them since without assuming the 
            entire responsibility, state agencies can still be at the 
            table and share in many (drafting documents, holding public 
            hearings, etc.) under current law if they so desire. 
            Implementing a mandate to assume such responsibility also 
            puts a burden on the states, unless Congress appropriates 
            funding to the states for the purpose of environmental 
            review. Also, some state laws, as noted above, are stricter 
            than NEPA; others are weaker. Creating 50 different 
            standards creates an uneven playing field and a bit of a 
            nightmare for interstate projects. Finally, to the extent 
            the proposed action involves a Federal interest and a 
            Federal decision, the far better and fairer allocation of 
            responsibilities and the construct that makes sense in 
            terms of fulfilling the purpose of the NEPA process is for 
            the Federal agency to retain the overall responsibility for 
            the process and partner with affected states to jointly 
            implement the environmental review process.

                  Questions Submitted by Rep. Grijalva
    Question 1. Congressman Graves observed that your statement that 
people would be much less likely to know what their government was 
doing before they did it if NEPA were no longer the law made little 
sense because states, local governments and businesses do tell people 
what's going to happen ahead of time on a routine basis. There was no 
time left for you to respond to that point, but would you do so now?

    Answer. Congressman Graves is, of course, correct that many states, 
local governments and sometimes businesses tell people what's going to 
happen ahead of time. In some instances, there is a legal requirement 
for states and local governments to do so. However, that is not 
universally true, especially in the majority of states that do not have 
a broad environmental impact assessment statute of their own. More to 
the point regarding NEPA, there are many Federal actions taken which do 
not come under the jurisdiction of another entity and are not 
associated with a private business. As was brought up by another Member 
during the hearing, this is especially true in the case of military 
installations, where NEPA is typically the sole mechanism for advance 
public notice of activities affecting the public. It is also true of 
public land management, affecting much of the western United States.

    Question 2. Commissioner Willox observed that counties need to be 
part of the identification team working on an EIS and otherwise 
involved early in the process. What is your perspective on this?

    Answer. I agree with Commissioner Willox. CEQ has vigorously 
encouraged Federal agencies to include counties (at their request) as 
cooperating agencies, and as such, they should be included on ID teams 
working on an EIS. A concern that Federal agencies had a few years ago 
that inclusion of counties on such teams would be a violation of the 
Federal Committee Advisory Act was addressed by Congress in 1995 that 
provides for the inclusion of state, local, and tribal agency officials 
when working to implement a program that anticipates intergovernmental 
cooperation. It is not clear to me that the existence of this provision 
is known and understood by all relevant agency staff. The National 
Environmental Policy Act and the CEQ implementing regulations 
specifically contemplate cooperative work with such intergovernmental 
representatives.

    Question 3. Mr. Howard's proposed amendment to the FAST Act 
purports to bestow upon CEQ dispute resolution authorities. Does CEQ 
currently play a role in dispute resolution in the context of NEPA?

    Answer. CEQ has multiple dispute resolution roles. The most formal 
role is the dispute resolution process established in the CEQ 
regulations to resolve disputes between agencies over a proposed 
action. That process, through which the head of one department refers 
an action proposed by another executive branch department, includes 
timelines, opportunities for both agencies to present their views, 
opportunity for public involvement and ultimate resolution in a number 
of ways, including elevation to the President. 40 CFR Sec. 1504.00 et 
seq. CEQ also has a formal dispute resolution process in the event that 
agencies cannot decide which agency should be the ``lead agency'' for 
purposes of the NEPA process. 40 CFR Sec. 1501.5(3). More frequently, 
CEQ routinely resolves interagency disputes and concerns raised by 
private citizens, governors, Members of Congress and a whole host of 
others who have concerns about a particular implementation issue 
associated with NEPA.

    Question 4. Mr. Howard specifically recommends that permitting 
processes should take no longer than 2 years, but this one-size-fits-
all approach seems like it would quickly fail for larger and more 
complex projects.

    4a. Is a lack of mandated timelines actually a hurdle to efficient 
environmental review?

    Answer. I do not think that the lack of congressionally mandated 
timelines are a hurdle to efficient environment review; I think the 
lack of qualified staff to manage the NEPA process is a huge hurdle. 
Agencies are not only free to set timelines, they are already required 
to do so if an applicant requests time limits. 40 CFR Sec. 1501.8. 
Interestingly, this is the provision in the CEQ regulations most 
requested by business and industry representatives during the 
development of the regulations, but it is almost never invoked. Besides 
applicants, state or local agencies or members of the public may also 
ask agencies to set time limits. The regulations provide that the 
agency may consider a number of what I believe are quite sensible 
factors in arriving at those time limits and call on agencies to 
designate a person with NEPA responsibility to expedite the NEPA 
process. A big problem today is that many agencies do not have such a 
staff person who is both knowledgeable about NEPA and experienced in 
management.

    4b. Do you think there would be negative environmental impacts 
caused by this kind of mandated time limit?

    Answer. I am afraid that mandated time limits for all projects will 
have a deleterious effect on the environment. When agency staff get the 
signal that speed is more important than anything else and when 
agencies are understaffed, problems will get missed or short changed. I 
fear that in the rush to meet mandatory timelines, serious oversights 
will come back to haunt our communities and our public lands and that 
future generations will reap the results.

                   Questions Submitted by Rep. Costa

Topic 1: NEPA Delegation Authority
    Question 1. Some states have enacted state level public disclosure 
laws similar to NEPA whose standards meet or even exceed NEPA's 
requirements.

    For instance, in 1970 my home state enacted the California 
Environmental Quality Act, which actually mandates that environmental 
mitigation be performed if an action has an impact on the environment. 
Unfortunately, in many instances, analysis under CEQA does not meet the 
statutory requirements of NEPA, leading to duplicative work and delayed 
project delivery.

    I've heard that this is especially problematic for projects where 
CEQA analysis and review has already been completed and as a result of 
a Federal agency interaction either through a required permit or a 
Federal funding agreement, an environmental review process under NEPA 
is required. In fact, I've heard of some instances where local agencies 
have rejected Federal funding because the delay to complete NEPA, 
despite already having completed CEQA, would result in a greater 
project cost.

    This is simply unacceptable.

    As you've mentioned, Congress has taken some steps to streamline 
these analyses, specifically for highway projects. This could prove 
beneficial to streamline projects in many congressional districts and 
specifically for those projects in California, like the Atwater-Merced 
Expressway that's needed to redevelop Castle Air Field or the 
California High-Speed Rail project.

    1a. Do you think that there are benefits to allowing projects in 
states that have equally stringent environmental disclosure laws as 
NEPA to move forward under a single environmental analysis?

    1b. Is it reasonable for Congress to explore additional ways in 
which NEPA delegation authority can be extended to the states?

    1c. In your opinion, what sorts of agency actions lend themselves 
to enhanced delegation authority? For instance, Reclamation projects, 
FERC projects, or projects with Federal grant funds disseminated?

    1d. If it is beneficial, is further action by Congress necessary to 
move forward to expand delegation authority?

    Answer. I agree that having separate documents (i.e., an EIS under 
NEPA and an EIR under CEQA) is problematic. In the vast majority, if 
not all, cases, it is also unnecessary and unwarranted. In my 
experience, the problem virtually always lies with bad management of 
the process, not the law itself.

    First, NEPA already provides that a state agency or official with 
statewide jurisdiction and the responsibility of carrying out a program 
funded by Federal grants to the states may prepare an environmental 
impact statement (EIS). 42 U.S.C. Sec.  4332(D). If the state chooses 
to do so, the Federal agency involved must provide guidance, 
participate in the process and independently evaluate the EIS to ensure 
that it meets Federal standards. The Federal agency also retains the 
responsibility to defend the EIS in Federal court if there is a legal 
challenge. In my experience, the principal user of this provision has 
been state highway departments, although there the provision is not 
limited to federally-funded highways. In the case of California, as you 
point out, there is both a strong environmental review law and 
capacity. I am not sure why other agencies, besides the California 
Department of Transportation, don't avail themselves of this provision.

    Under CEQ's regulations, a state or local government agency can be 
either a joint lead agencies, typically used when the state has a so-
called ``little NEPA'' law to avoid doing the process twice, or assert 
jurisdiction by law or special expertise to become a cooperating 
agency. If there is state law or local ordinance in addition but not in 
conflict with NEPA, Federal agencies are instructed to cooperate in 
fulfilling those requirements so that one document will comply with 
applicable laws at all levels of government. 40 CFR Sec. 1506.2. 
Similarly, joint planning processes, joint environmental research and 
studies, joint public hearings and joint environmental assessments are 
already authorized under the same regulation.

    Finally, CEQA already provides that if a project requires 
compliance with both NEPA and CEQA, state or local agencies should use 
the Federal document rather than preparing a separate state document 
and add to that document the additional CEQA requirements if they are 
not included in the state document. Cal. Code Regs. Title 14, 
Sec. 15221. Indeed, rather than CEQA documents not being adequate for 
purposes of NEPA, my sense is that it is more frequently the other way 
around--additions are needed to a NEPA document to make it compliant 
with CEQA. Even so, there is no reason to have two separate documents 
(and the processes that are associated with each document).

    Given that legal authorization and mechanism already exist to not 
only allow but promote one document instead of two documents for 
environmental review and yet we continue to hear of situations where 
two documents are produced, I would suggest a first step would be to 
task either the General Accountability Office (GAO) or the 
Congressional Research Service (CRS) initiate a discrete study to 
identify and analyze perhaps half a dozen of situations where both a 
NEPA and a CEQA document were produced, to determine: (a) the reasons 
that two documents instead of one were produced, and (b) 
recommendations to address those reasons. In the absence of a clear 
understanding of the reasons that existing legal mechanisms were not 
used or did not work, I am concerned that further legislation will not 
actually achieve the intended goal.

    1a. Yes, I think there are benefits to allowing projects in states 
with equally stringent environmental disclosure laws to move forward 
under a single environmental analysis. In my view, that single document 
should be a joint Federal/state document.

    1b. Per my answer above, I think a very specific study about the 
reasons current mechanisms for joint documents and processes are not 
utilized should be undertaken prior to passing more legislation.

    1c. As noted above, NEPA already provides that a state agency or 
official with statewide jurisdiction and the responsibility of carrying 
out a program funded by Federal grants to the states may prepare an 
environmental impact statement (EIS). 42 U.S.C. Sec. 4332(D). I should 
also add that anyone--an applicant, state, local government or tribe, 
may prepare an environmental assessment.

    1d. It is important to keep in mind that the purpose of NEPA is to 
inform decision making and so ultimately, it is the deciding body that 
should have ultimate responsibility for NEPA. Delegating NEPA wholesale 
to the states, for example for FERC projects, makes little sense when 
FERC holds the decision-making authority. On the other hand, when a 
state or local grant applicant is truly the decision-making authority, 
then delegating the environmental review responsibilities makes some 
sense. Congress has already done that in the case of the Community 
Development Block Grant Program and the Urban Development Action Grant 
program. There, the local communities are responsible for NEPA 
compliance and stand fully in the shoes of the Department of Housing 
and Urban Development (including in Federal court) as opposed to, for 
example, FERC's authority to permit natural gas pipelines, under which 
it has statutory authority in some circumstances to over-rule state 
agencies.

Topic 2: FAST Act Streamlining Provision Implementation

    Question 2. I have heard concerns from many infrastructure project 
stakeholders that too much time is required to complete all of the 
environmental reviews under NEPA (i.e., environmental assessments (EA) 
and environmental impact statements (EIS). The U.S. Department of 
Energy reported that the average completion time for an EIS in 2015 was 
4.1 years, and the average cost was $4.2 million. A 2014 GAO report 
found that the average completion time for an EIS in 2012 was 4.6 years 
from the notice of intent to prepare an EIS through the issuance of the 
record of decision. I have heard that these figures may underestimate 
both time and costs. Available data from Federal agencies generally do 
not account for costs beyond third-party contractor fees, including a 
project applicant's data-development costs. The time estimates do not 
include the work that precedes the decision to prepare an EIS or the 
cost of defending them in court. I have heard other comments that 
expediting reviews could lead to potential litigation which could 
account for longer project delays beyond those that would have occurred 
using a more slow and steadfast approach under NEPA.

    Specific to infrastructure, there are NEPA streamlining reforms in 
the FAST Act already. With the FAST Act, Congress and the Obama 
administration sought to improve on past attempts to streamline the 
NEPA process by coordinating and expediting NEPA review across a 
broader range of agencies and industry sectors. The Act establishes a 
Federal Permitting Improvement Council (the Council), composed of 
officials from CEQ, OMB, and 13 other Federal agencies, to coordinate 
this streamlining effort. The range of projects covered by the FAST Act 
includes: ``renewable or conventional energy production, electricity 
transmission, surface transportation, aviation, ports and waterways, 
water resource projects, broadband, pipelines, [and] manufacturing.'' 
In addition, the Council has the authority to designate projects in 
other industry sectors by majority vote.

    To trigger the FAST Act, a project must be subject to NEPA; be 
likely to cost more than $200 million; and either: (1) not qualify for 
abbreviated environmental-review processes under any applicable law, or 
(2) because of its size and complexity, would likely benefit from 
enhanced coordination. Important aspects of Title XLI of the FAST Act 
include:

    <bullet> Coordinated Project Plans. The plans will identify the 
            lead agency and cooperating agencies and set out a 
            permitting timeline. The lead agency is to develop the 
            permitting timetable in consultation with the cooperating 
            agencies and the applicant.

    <bullet> Permitting Dashboard. An expanded online database will 
            track the status of Federal NEPA reviews for each covered 
            project. The lead agency must post information, including 
            the permitting timetable, status of compliance for each 
            participating agency, and any memoranda of understanding 
            between the agencies.

    In summary, the FAST Act already contains NEPA streamlining 
language for infrastructure projects. There seems to be little data on 
whether or not these provisions have been implemented or whether they 
are working to accelerate project delivery in a way that is consistent 
with the public disclosure requirements and alternatives analysis 
required by NEPA.

    2a. Is there information available about whether the existing 
streamlining provisions have been fully implemented and what effect, if 
any, they have had on project delivery timelines?

    2b. If this information were available, would it assist Congress in 
making any policy changes necessary to implement NEPA more effectively?

    2c. If this information is not available, how would you recommend 
this information be acquired and presented to Congress?

    Answer.

    2a. There is some information available about the implementation of 
the streamlining provisions under the FAST Act. A fair amount of 
information can be found on the website of the Federal Permitting 
Improvement Steering Council (https://www.permits.performance.gov/) and 
the Permitting Dashboard (https://www.permits.performance.gov/). The 
FAST Act requires an annual report to Congress, and the first such 
report was filed in April of this year (https://
www.permits.performance.gov/about/news/fast-41-report-Congress) and it 
is worth reviewing. Some of the time to date, of course, has been spent 
setting up the administrative infrastructure to administer the Act. 
However, 38 projects are currently in the pipeline under FAST-41. The 
Federal Permitting Improvement Steering Council has issued some 
guidance to agencies. I am concerned about the extent of education and 
training within the Federal agencies about implementation of the Act. 
In terms of understanding the effect of the streamlining provisions, I 
think it may be a bit early to assess the effect yet, as most projects 
in the pipeline, for a variety of reasons (not all related to 
environmental review) are still in process, although 11 projects have 
been completed.

    2b. I do think that analysis regarding the effect of FAST-41 on the 
environmental review process would be useful to Congress in determining 
whether to make further changes.

    2c. I would suggest waiting a bit longer until more projects have 
gone through the FAST-41 pipeline (perhaps 3 years from the date of 
enactment of FAST-41) and then asking either GAO or CRS to analyze the 
impacts of FAST-41, identifying both successes and problems.

Topic 3: Local Development Experience

    Question 3. Recently approved by all permitting agencies last June/
July was a major ``new town'' project in my district that is designed 
for roughly 5,000 new residences, 3 million square feet of commercial 
and light industrial development, two new public schools, parks, 
trails, environmentally sensitive conserved lands, and various other 
related features. That project is now under construction.

    The U.S. Army Corps of Engineers and the U.S. Bureau of Reclamation 
were key permitting agencies for this project, and NEPA compliance by 
these agencies played a major role. Fortunately for this project, both 
the Corps and Reclamation ended up working well together to resolve a 
wide variety of issues, including some tricky NEPA compliance issues. 
Other projects, I am told, have not fared so well.

    However, with the benefit of 20/20 hindsight on this project, there 
are at least two areas where I am told we could be doing better:

    <bullet> Need for a single lead agency for NEPA compliance. Many 
            projects, including the project in my district, require 
            permits from two or more Federal agencies. Although the 
            NEPA regulations contemplate a lead Federal agency for 
            purposes of NEPA compliance, it is too often the case that 
            Federal agencies work inefficiently with each other on NEPA 
            compliance issues, leading to time-consuming delays and 
            multiple meetings that can sometimes span weeks and even 
            months.

      I believe that the NEPA regulations could be strengthened in that 
            regard with the intent of squarely assigning the 
            responsibility of NEPA compliance in one Federal agency for 
            all the Federal agencies that might be involved on a 
            particular project.

      In my home state of California, our NEPA equivalent--CEQA--is an 
            excellent model for how this notion of a single ``lead'' 
            Federal agency can work well.

    <bullet> Scope of analysis. Closely related to the idea of a 
            ``single lead agency'' for each project is the importance 
            of defining a suitably encompassing ``scope of analysis'' 
            for purposes of NEPA review. This is particularly important 
            for purposes of Section 7 consultation under the Endangered 
            Species Act.

      If the ``lead'' Federal permitting agency defines its NEPA 
            ``scope of analysis'' to only include the area of its 
            particular permitting jurisdiction, then the other Federal 
            permitting agencies for that same project may have no 
            choice but to prepare their own separate NEPA analysis if 
            their permitting jurisdiction does not coincide with that 
            of the ``lead'' agency.

      For the project in my district, resolution of this particular 
            issue took months longer than it needed to, and further 
            clarity is needed for future projects. At base, there 
            should be a single ``lead'' Federal agency with a project-
            specific ``scope of analysis'' that encompasses all Federal 
            permitting issues, not just those of the ``lead'' agency.

    3a. I have heard from constituents that the 6-year statute of 
limitations applicable to NEPA claims is too long. It creates too much 
uncertainty and can be a sticking point with the project finance 
community. Six years is too long to know whether an approved project is 
going to become the subject of litigation alleging NEPA non-compliance.

    The comparable statute of limitations under CEQA is 30 days.

    What are your views on the idea of new legislation to shorten the 
NEPA statute of limitations?

    3b. Under NEPA, ``alternatives'' to the proposed project that must 
be assessed in an environmental impact statement (EIS) are, according 
to some Federal agencies and some courts, supposed to be reviewed at 
the same level of detail as the proposed project. This project-level 
review of the alternatives can be quite burdensome, difficult or 
impossible to undertake (e.g., how can a bio analysis be undertaken at 
an alternative site that is owned by someone else?), and ultimately, of 
little value to the ultimate analysis.

    What are your views on the possibility or need for new NEPA 
regulations to better and more efficiently focus the ``alternatives 
analysis'' component of NEPA review?

    3c. Under NEPA, each Federal agency is authorized to develop its 
own list of ``categorical exclusions'' that is intended to be a list of 
activities that are determined to be so relatively minor in their 
potential for environmental impacts as to excuse the need for further 
NEPA analysis. It seems like a good concept, but I wonder if there are 
improvements that could be made. In the interests of streamlining NEPA 
review across all Federal agencies, there may be merit in issuing new 
regulations that list categorical exclusions that are common to all 
Federal agencies (e.g., ``minor construction''), thereby reducing the 
possibility for inconsistent treatment of the same issue by different 
agencies. These common categorical exclusions could be in addition to 
the agency-specific ``CatEx's'' that are already in existence.

    What are your views on the possibility of streamlining the CatEx 
process by issuing new regulations that create categorical exclusions 
that are common to all Federal agencies, perhaps in addition to the 
agency-specific CatEx's that already exist?

    Answer. First, on the topic of lead agencies, as stated, CEQ 
regulations do provide for a lead agency. In the case of disputes over 
what agency should be the lead, CEQ has a 20-day dispute resolution 
process. 40 CFR Sec. 1501.5(e). The regulations do provide for the 
possibility of joint lead agencies and when agencies opt for that 
construct, it is important for the agencies to set out in writing which 
agency is going to undertake what responsibilities. I am happy to learn 
that in your view, the environmental review process ``new town'' 
project in your district worked well under the auspices of the U.S. 
Army Corps of Engineers and the Bureau of Reclamation.

    3a. In regards to the statute of limitations, Congress provided for 
a 2-year (instead of a 6-year) period in the FAST Act. I believe 2 
years is a reasonable period of time.

    3b. I strongly believe that alternatives are the most important 
element of the NEPA process, if done correctly. It is through the 
analysis of reasonable alternatives that meet the stated purpose and 
need that better decision can be made as opposed to just mitigating 
impacts from an action. There are numerous examples of agencies 
adopting better alternatives suggested by other governmental agencies 
or public citizens through the NEPA process. Many of those examples 
have resulted in millions of dollars of taxpayers money being saved, 
improved decisions and happier constituents.

    That said, there is no set number of alternatives that must be 
analyzed in a NEPA document; the requirement is analyze ``reasonable 
alternatives.'' If an alternative site is not available to the 
proponent, analysis of that site is, as you suggest, of little value to 
the decision maker. Agencies should be (a) aggressive in their pursuit 
of and listening to outsiders about possible reasonable alternatives 
and then (b) make a reasoned judgment about which alternatives are 
reasonable and which are not. Much of this work depends on appropriate 
training and good management. I would put the emphasis on those two 
elements--which are sorely lacking in many agencies--rather than 
changes to the regulations.

    3c. There might be some merit in some carefully selected 
categorical exclusions that are applied throughout the executive 
branch. However, recall that agencies operate in extremely different 
types of ecosystems--for example, what would easily qualify as a 
categorical exclusion for projects in the continental United States 
might have considerable impact in the Arctic environment. It is already 
the case, though, that large departments, like the Department of the 
Interior, have promulgated common categorical exclusions that the 
agencies and bureaus within the department can utilize, supplemental by 
agency specific categorical exclusions. It is also important to 
remember that categorical exclusions are not supposed to be the 
equivalent of legislative exemptions from NEPA; if, in a particular 
case, there are extraordinary circumstances, an agency does generally 
need to prepare an EA.

    I'm not sure there is an awareness of how many categorical 
exclusions already exist but there are hundreds of them. Sometimes we 
are seeing legislation to enact categorical exclusions for actions that 
are already categorically excluded. Agencies have been pressured by 
both CEQ and Congress for at least the past 16 years to promulgate more 
and more categorical exclusions. Rather than focusing on yet more 
categorical exclusions, I would suggest some oversight on how the 
existing ones are used. CEQ requires no paperwork at all for an 
activity that has categorical exclusions. Most agencies do require some 
documentation and it is sensible to put into the file 1-2 pages 
documenting what categorical exclusion was used for a particular 
proposed action so that someone else does not wonder whether NEPA was 
complied with for a particular project. But there is absolutely no need 
for the voluminous paperwork that some staff compile for each use of a 
categorical exclusion; again, often due to lack of training.

Topic 4: Potential Guidance Updates

    Question 4. Some stakeholders have indicated that new guidance from 
CEQ would help streamline Federal review of infrastructure projects by 
clarifying NEPA duties and procedures that are routinely challenged 
legally. This is as important for agencies and projects as for the 
public and the reviewing courts.

    While there are some who believe that the underlying NEPA statute 
is largely sufficient, some stakeholders assert that NEPA guidance has 
not kept pace with the specific issues and arguments that are now 
commonplace. Existing guidance tends to be high-level and conceptual; 
effectively leaving it to the courts to discern what is or is not 
required by NEPA. I have heard that areas for special focus could 
include:


    <bullet> Purpose and Need--NEPA analysis could properly reflect the 
            purpose of the proposal before the agency, not the 
            preferences of policy makers or opposition groups.

          --  For example, the purpose of a proposed interstate natural 
        gas pipeline is generally to transport natural gas by pipeline 
        from one or more regions or interconnections, to specific 
        market areas or interconnections. This purpose is more specific 
        than simply meeting the energy needs in a geographic area. Such 
        a general purpose could theoretically be met by providing oil, 
        coal, solar, or hydro power, requiring demand reduction, etc. 
        But none of these is the proposal before the agency, and none 
        expresses the purpose of the project or reflects the 
        jurisdiction of the reviewing agency (in this case, FERC).

          --  To remain pertinent and useful, would it be beneficial to 
        ensure that the scope of the NEPA review reflect the project's 
        purpose?

    <bullet> Alternatives--The alternatives analysis could be tailored 
            to the purpose of the proposal before the agency, otherwise 
            it leads to excessive analysis of irrelevant, tangential, 
            or infeasible projects that are not before the agency for 
            action.

          --  In the example above, solar or hydro power may not be 
        considered appropriate alternatives to the gas pipeline 
        project, even if these energy sources are preferred by certain 
        agencies or groups.

          --  I have heard that the breadth of alternatives being 
        considered has increased to the point where scores of major and 
        minor route alternatives are put under the microscope for an 
        interstate gas pipeline project. As a result, NEPA seems to 
        have evolved into the vehicle to select the route--which is 
        properly the province of the Natural Gas Act--and to ensure 
        that it has least environmental impact--which is not NEPA's 
        charge.

          --  The depth of analysis seems to have also increased to the 
        point where full mapping and resource-by-resource analysis is 
        often expected for many alternatives, setting up impact 
        comparisons between alternatives measured in fractions of a 
        wetland acre, etc. Such broad and intensive analyses require 
        months of effort and entail enormous costs that may be out of 
        proportion to the purpose of the alternatives analysis. They 
        also lead the public to expect a greater degree of control--by 
        the public and by the agency--over project development than 
        NEPA affords, fostering litigation and eroding public trust in 
        the reviewing agencies.

          --  Can you please speak to these concerns and whether you 
        believe if new guidance is needed to tie alternatives, first, 
        to the purpose and need of the proposed action of the agency 
        and, second, to a more general level of analysis sufficient to 
        discern whether an alternative is significantly more or less 
        burdensome to the environment.

    Answer.

    Purpose and Need. The law is very clear that the lead agency has 
the prerogative to define the purpose and need. There is simply no 
suggestion in the law or the CEQ regulations otherwise. 42 U.S.C. 
Sec. 4332(d); see also, 40 CFR Sec. Sec. 1501.5, 1506.5. For example, 
in the case of a proposed gas pipeline, NEPA analysis for a particular 
pipeline would not typically (nor would courts typically) require 
analysis of all types of alternative energy sources. However, if, for 
example, the Department of Energy decided to develop a national energy 
strategy, NEPA compliance for the that policy would need to consider 
various competing sources of energy. The key issue is the scale of the 
decision to be made.

    Courts do recognize that agencies should respect the role of local 
and state authorities in the transportation planning process and 
appropriately reflect the results of that process in the ``purpose and 
need'' statement. North Buckhead Civic Assoc. v. Skinner, 903 F.2d 1533 
(11th Cir. 1990). And to enhance coordination with states, when 
preparing a joint EIS/EIR, for example, it is prudent to develop a 
purpose and need statement that covers both the needs of the Federal 
and state agency. Further detail on the purpose and need requirement 
can be found in an exchange of letters between the Secretary of the 
Department of Transportation and the Chairman of CEQ on this topic, 
posted here: https://energy.gov/sites/prod/files/nepapub/
nepa_documents/RedDont/G-CEQ-purpose_need.pdf.

    1. I agree that for the NEPA analysis to be pertinent and useful, 
the scope of the NEPA analysis should reflect the project's purpose and 
need. That is what the law requires now. Normally, the purpose and need 
should be articulated by the agency in one or two paragraphs. Far too 
often, agencies delegate this job to consultants who are not sure what 
the agency really wants to do.

    Writing the purpose and need statement should be a government 
function. Frankly, I have seen situations where agency leadership 
didn't know why an EIS was being done or what decision they were 
expected to make at the end of the process. If a senior official in an 
agency proposing to do an EIS cannot sit down at the computer and write 
a couple of paragraphs (one or two paragraphs is all that is required) 
about why the agency is proposing to do something, the agency should 
not be initiating the EIS process. This is a management failure, not a 
problem with NEPA.

    2. NEPA, the regulations and case law are clear that only 
reasonable alternatives that meet the purpose and need of the lead 
agency must be analyzed.

    The NEPA process, in my view, can and should be used in a sensible 
manner to improve routing of facilities and activities. Let me briefly 
two such examples, both in California:

    In the first instance, the Federal Transit Administration and the 
Los Angeles County Metropolitan Transportation Authority worked 
together to review an 8.5 mile light-rail metro extension serving 
southern Los Angeles County communities. Through the NEPA process, a 5-
mile stretch of rarely used existing freight rail line corridor was 
identified that could be used instead of building new tracks. The 
railroad agreed to abandon the line and allow its use for the light-
rail extension. The decision decreased project costs and time and 
reduced environmental disturbances to nearby communities. The project 
is currently being constructed.

    In the second instance, the U.S. Navy and the National Park Service 
worked together on an environmental assessment that identified better 
routing for Navy flights over Joshua National Park. The result of the 
NEPA process was reduced impacts to visitors and natural and cultural 
resources on a route that actually improved training exercises. In the 
words of the individual who managed this process for the Navy, 
``Because of NEPA, the public and government decision makers were able 
to analyze the need for action, compare environmental impacts 
associated with alternatives, and bring together organizations and 
individuals with competing interests. The draft EA formed a basis for 
government officials and the public to exchange ideas and develop a 
consensus solution. The end result was a win-win solution for the 
National Park Service, the military, the general public, and the 
environment.''

    The Supreme Court has made it quite clear that NEPA does not 
obligate agencies to choose the most environmentally preferable 
alternative and lower courts have faithfully followed that holding. 
(Vermont Yankee Nuclear Power Corp. v. Natural Resources Defense 
Council, 435 U.S. 519 (1978), holding that while NEPA does set forth 
significant substantive goals for the Nation, its mandate to the 
agencies is essentially procedural--that is, to insure a fully informed 
and well-considered decision, not necessarily a decision the judges of 
the court of appeals would have reached if they had been the decision 
maker.)

    In my view, it is neither the law nor the CEQ regulations nor 
guidance documents nor case law that is actually driving the large 
volume EISs that are the subject of so much concern. Rather, it is lack 
of good management of the NEPA process. Indeed, courts have expressed 
more concern about lengthy documents than about brevity. Judges don't 
want to read thousands of pages any more than anyone else. What they--
and agency decision makers--should be looking for is actual analysis of 
potential impacts, not pages and pages of material with little 
relevance to the decision. That is why CEQ's regulations already have 
page limits of 150-300 pages for the main body of an EIS. 40 CFR 
Sec. 1502.27. Again, the problem is not the law or the regulations; 
rather, it's lack of trained staff within the agencies and overuse of 
contractors, many of whom get insufficient guidance from their client 
agencies.

                                 ______
                                 

    The Chairman. Thank you.
    Mr. Howard.

STATEMENT OF PHILIP K. HOWARD, CHAIRMAN, COMMON GOOD, NEW YORK, 
                            NEW YORK

    Mr. Howard. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and other members of the Committee. Thank you for 
having me here.
    I am the Chair of Common Good, which is a not-for-profit 
that has been looking at how we can expedite the rebuilding of 
America's decrepit infrastructure. The context of this hearing 
is that America is living on infrastructure built 50 to 100 
years ago, leaking trillions of gallons of water, wasting vast 
amounts of electricity in a rickety grid, and so forth.
    The past 3 years we have written white papers with the help 
of former environmental officials from both parties, convened 
public forums, including senior officials and former 
Secretaries of Transportation from both parties, and there is 
broad agreement in the need to expedite the entire process by 
which infrastructure gets approved, including the environmental 
process.
    There is also broad agreement that NEPA is an 
extraordinarily important statute, and probably should be made 
more effective, not less effective. It is a procedural step 
that prevents rash decisions on alterations that might have 
impact for a century or more. It is very important to have a 
pause, to have the facts, to look at the alternatives, so that 
the political leaders can make a decision about whether the 
right balance, as the statute says, between population and 
resources be met.
    Under the regulations on the Council on Environmental 
Quality, environmental reviews, even from the largest projects, 
are not supposed to be more than 300 pages, and it should never 
last more than a year. You would be hard to find an 
environmental review that was that short on a large project, or 
one that did not take years.
    NEPA has evolved into something that no one intended. 
Instead of highlighting material issues and alterations, it 
obscures the important facts in mountains of detail. It has 
become an academic exercise of no pebble left unturned. Much of 
the information is useless in the particular project. Requiring 
traffic studies on the replacement for the Tappan Zee Bridge or 
raising the roadway of the Bayonne Bridge makes no sense 
because the traffic is not changing. There is no impact to the 
traffic, so why do they have an extensive traffic study?
    Instead of encouraging public input--actually, I think NEPA 
should do more to encourage public input, it has become an 
exercise available only to the insiders, many of which do not 
have the common good in mind. They are professionals who work 
for a particular advocacy group seeking a particular goal, many 
of which I agree with, but it is not accessible, a 5,000-page 
report is not accessible, to a member of the public. They will 
never have enough time to study a 5,000-page report. The 
density of these reports is driven by fear of litigation, 
because at the end of any project, someone who doesn't like it 
will sue, claiming that some detail is not accurate.
    The process takes years, an average of 4.6 years for large 
projects. And then, on top of that, there is permitting.
    In the case of raising the roadway of the Bayonne Bridge 
into Newark Harbor, a project with almost no environmental 
impact, because it uses the same foundations and the same 
right-of-way, it took 6 months to get a Federal agency to agree 
to be the lead agency. Then it took another year of meetings to 
get the scoping of the environmental review correct. This is a 
project that had an environmental assessment, which is 
supposedly a short-form environmental review. The review itself 
was 10,000 pages long, plus another 10,000 pages of appendices 
for a project using the same foundation and right-of-way.
    The bottom line is that environmental review for large 
projects is now, typically, dramatically harmful to the 
environment. It is harmful to the environment because it 
prolongs bottlenecks that could be fixed in a matter of a year, 
or 2 or 3. Instead, they are not fixed for 6 or 7 years. We 
quantify those costs in our report, ``Two Years, Not Ten 
Years,'' and it also, combined with permitting delays, often 
doubles the cost to taxpayers, typically, of large projects.
    The solution, in my view, and we have proposed legislation, 
is to create clear lines of authority. So, among other things, 
the Chairman of CEQ has authority to decide issues on the scope 
and adequacy of review. Still has to comply with NEPA, but can 
say, in the case of the Bayonne Bridge, for example, ``Oh, you 
are using the same foundations and right-of-way? Give me 50 
pages on construction impacts.''
    Thank you very much.

    [The prepared statement of Mr. Howard follows:]
Prepared Statement of Philip K. Howard, Chair of Common Good, New York, 
                                New York
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for inviting me to testify before the Committee 
today about the need to modernize environmental review.
    America is living on infrastructure built 50-100 years ago. Aging 
roads, fragile power grids, inefficient ports, and an antiquated air 
traffic system hamper America's ability to compete. Traffic 
bottlenecks, leaking pipes, waste overflows, and dirty power generation 
cause unnecessary pollution. Unsafe roads cause thousands of accidents 
each year.
    The upside of modernizing America's decrepit infrastructure is as 
rosy as the current situation is dire. An infrastructure initiative 
will provide upwards of 2 million high-paying construction-related 
jobs, and provide a 21st century platform to enhance America's 
competitiveness. Not rebuilding infrastructure runs irresponsible 
risks. One failure at a critical transit chokepoint--for example, the 
two century-old rail tunnels under the Hudson River that were damaged 
by Superstorm Sandy \1\--could paralyze an entire region.
---------------------------------------------------------------------------
    \1\ See, e.g., Philip K. Howard, ``Billions for Red Tape: Focusing 
on the Approval Process for the Gateway Rail Tunnel Project,'' Common 
Good, May 2016.
---------------------------------------------------------------------------
    Rebuilding America's infrastructure requires Congress to do two 
things: Provide funding and create clear lines of authority to give 
permits. Congress provided money in 2009 as part of the $800 billion 
stimulus, but did not give the executive branch the authority to issue 
permits on a timely basis. Because ``there's no such thing as shovel-
ready projects,'' as President Obama put it,\2\ the Administration 
ended up spending only 3.6 percent of the stimulus money on 
transportation-related infrastructure.\3\
---------------------------------------------------------------------------
    \2\ Michael D. Shear, ``Obama Lesson: `Shovel Ready' Not So 
Ready,'' New York Times, October 15, 2010.
    \3\ Executive Office of the President, Council of Economic 
Advisers, ``The Economic Impact of the American Recovery and 
Reinvestment Act Five Years Later,'' February 2014, p. 34.
---------------------------------------------------------------------------
    My testimony today will focus on one element of permitting--
environmental review under the National Environmental Policy Act 
(NEPA). Environmental review should be a vital tool in enhancing public 
input and improving the quality of projects. Instead, environmental 
review has become a bureaucratic swamp that bogs down vital projects 
and a potentially lethal weapon in the hands of anyone who opposes a 
project.
    The effect, paradoxically, is that environmental review often harms 
the environment. Lengthy environmental reviews typically prolong 
bottlenecks and other inefficiencies which cause pollution. A 2015 
report by the group I chair, Two Years, Not Ten Years, quantified these 
and other permitting costs for different categories of infrastructure 
delays. For example, a 6-year delay in rebuilding our Nation's 
crumbling highway infrastructure would release an extra 51 million tons 
of CO<INF>2</INF> emissions. America's antiquated power grid wastes an 
amount of electricity equivalent to the output of 200 coal-burning 
power plants.\4\
---------------------------------------------------------------------------
    \4\ Philip K. Howard, ``Two Years, Not Ten Years: Redesigning 
Infrastructure Approvals,'' Common Good, September 2015.
---------------------------------------------------------------------------
    Overall, we also found that a 6-year delay more than doubles the 
effective cost of projects (including increased overhead and 
construction costs, lost economic opportunities, and the environmental 
costs of prolonged inefficiencies).
    The core flaw in America's review and permitting process is that 
there are no clear lines of authority to make needed decisions to 
adhere to timetables, including to resolve disputes among bickering 
agencies or project opponents. At any step along the way, a project can 
get bogged down in the balkanized bureaucracy. The project to raise the 
roadway of the Bayonne Bridge required 47 permits from 19 different 
Federal, state, and local agencies. With multiple decision makers, even 
preliminary decisions can take years. With the Bayonne Bridge, it took 
6 months to pick the lead agency for environmental review and another 
year to agree on the scope of review. The Bayonne Bridge construction 
had virtually no environmental impact--it used the same right of way 
and foundations as the old bridge--but the final environmental 
assessment ran 10,000 pages, with another 10,000 pages of 
appendices.\5\
---------------------------------------------------------------------------
    \5\ See, e.g., ibid, and Sam Roberts, ``High Above the Water, but 
Awash in Red Tape,'' New York Times, January 2, 2014.
---------------------------------------------------------------------------
    No one deliberately designed this review and permitting process. It 
serves no legitimate public interest, and, by delaying modernization of 
infrastructure, actively harms the environment. Nor do multi-thousand-
page environmental reviews enhance transparency of important issues; 
lengthy reviews obscure them in a jungle of trivial detail.
    Congress in recent years has improved the process at the margin by 
creating committees to resolve disputes, shortening the statute of 
limitations, allowing some state-level processes to fulfill Federal 
requirements, and improving transparency via the Permitting Dashboard. 
What's needed, however, is a simple hierarchy, where designated 
officials take responsibility to make needed decisions at each step 
without months of delay. I attach here three pages of amendments that 
create clear lines of authority to make decisions needed to adhere to 
reasonable schedules. The effect will be to reduce the effective cost 
of infrastructure by half and to create a greener footprint.
                         the distortion of nepa
    The 1970 National Environmental Policy Act was a landmark statute 
requiring that federally-funded projects review potential environmental 
impacts and consider alternatives before breaking ground. NEPA requires 
agencies to undertake an assessment of the environmental effects of 
their proposed actions so that they can strive to ``achieve a balance 
between population and resource use.'' \6\ NEPA is a tool for 
thoughtful process and democratic accountability, not a substantive 
requirement for environmentally correct decisions.
---------------------------------------------------------------------------
    \6\ 42 U.S.C. Sec. 4331.
---------------------------------------------------------------------------
    NEPA is supposed to provide the public with disclosure of major 
impacts, not dense academic analyses. One historian reports that 
``[t]he earliest [environmental impact statements (EISs)] were less 
than 10 typewritten pages in length. They were submitted to the 
Congress and went unchallenged.'' \7\ The current regulations of the 
Council of Environmental Quality (CEQ), created to oversee NEPA, say 
that an EIS should generally be no more than 150 pages, and no more 
than 300 pages for complex projects.\8\
---------------------------------------------------------------------------
    \7\ Daniel A. Dreyfus, ``NEPA: The Original Intent of the Law,'' 
Journal of Professional Issues in Engineering Education and Practice 
109, no. 4 (1983), pp. 252-3.
    \8\ 40 CFR Sec. 1502.7.
---------------------------------------------------------------------------
    NEPA has rightly been called ``the Magna Carta of environmental 
law,'' \9\ and 160 nations have adopted similar frameworks for 
environmental analysis of government-backed projects since its 
inception. Other greener countries such as Germany, however, conduct 
their environmental reviews in months, not years.
---------------------------------------------------------------------------
    \9\ See, e.g., Daniel R. Mandelker, ``The National Environmental 
Policy Act: A Review of Its Experience and Problems,'' Washington 
University Journal of Law & Policy 32 (2010), p. 293.
---------------------------------------------------------------------------
    What happened in America is that NEPA diverged from its original 
goal of public transparency to being an implied mandate for perfect 
projects. But there is no such thing as a perfect project. Every 
infrastructure project has an environmental cost--a desalination plant 
has a briny byproduct, a new power line or wind farm mars natural 
views, a new highway exit or intermodal facility will disrupt a 
neighborhood. Wringing our hands for years over these effects does not 
make these effects disappear; it just postpones the benefits of the 
projects while making them more expensive.
    NEPA provided no private right of action. But activist courts in 
the 1970s implied a right of action, and lawsuits over environmental 
review statements became surrogates for questioning the wisdom and 
design of projects.
    In effect, NEPA litigation transferred power from democratically-
elected officials to project opponents and courts. For example, the 
environmentally-beneficial Cape Wind offshore wind farm project has 
faced numerous NIMBY lawsuits since its NEPA process began in 2001 as 
wealthy beachfront property owners use lawsuits to try to kill the 
project and protect their ocean views.
    Lawsuits over environmental disclosures triggered a downward spiral 
of ever-denser detail--a process of no pebble left unturned. Former EPA 
general counsel E. Donald Elliott estimates that 90 percent of detail 
in Federal impact statements is there not because it's actually useful 
to the public or decision makers, but because it might help in the 
inevitable litigation--a form of environmental ``defensive medicine.''
    At this point, environmental review has taken a life of its own, 
often unrelated to any meaningful public purpose. The environmental 
impact statement for the new Mario Cuomo Bridge (replacing the aging 
Tappan Zee Bridge over the Hudson River) spent over 300 pages 
describing the methodology used in the rest of the statement. It also 
included detailed traffic studies despite the fact that the new bridge 
would not meaningfully alter traffic patterns relative to the old 
bridge.\10\
---------------------------------------------------------------------------
    \10\ See Department of Transportation, Federal Highway 
Administration, ``Tappan Zee Hudson River Crossing Project Final 
Environmental Impact Statement,'' July 2012, and Philip Mark Plotch, 
``Politics Across the Hudson: The Tappan Zee Megaproject'' (Rutgers 
University Press, 2015).
---------------------------------------------------------------------------
    Fear of litigation skews decision making toward mollifying the 
squeaky wheel. For instance, labor unions sometimes ``greenmail'' 
projects, burying them in environmental lawsuits until project 
proponents agree to labor demands. Striving for consensus means that 
delays can go on for years, often decades. A plan to plug a quarter-
mile gap in a Missouri levee has been studied seven times since it was 
originally proposed, with no resolution in site.\11\
---------------------------------------------------------------------------
    \11\ Barry Meier, ``Trump Wants More Big Infrastructure Projects. 
The Obstacles Can Be Big, Too.'' New York Times, November 18, 2017.
---------------------------------------------------------------------------
    At this point, environmental review is often a weapon for opponents 
to demand changes or other concessions that undermine the common good. 
The public harm includes dramatically higher costs and delayed 
environmental benefits. The uncertainty over timing keeps many projects 
on the drawing board, and has been a kind of poison pill deterring 
private capital from committing to infrastructure investment.
            fixing nepa by returning to its original purpose
    The solution is to return to the original purpose of NEPA--to 
provide a short and plain statement of material impacts of projects. 
Congress can achieve this by enacting provisions that allocate 
authority to designated officials, and restating a few basic principles 
that will serve as a course correction to officials and courts. 
Specifically, Congress could enact a statute along the lines of what I 
attach here providing that:

  1.  Permitting processes should take no longer than 2 years, and 
            authority should be given to designated officials and 
            courts to allow them to enforce that schedule.

  2.  The Chair of CEQ should have the authority, consistent with the 
            mandate of NEPA, to decide all issues relating to the scope 
            and adequacy of environmental review. For the Bayonne 
            Bridge project, for example, the review could have 
            consisted of 50 pages on construction impacts, not 20,000 
            pages. The CEQ Chair will not have to decide most issues--
            just the availability of a common-sense decision will give 
            backbone to officials down the line to resist absurd 
            detail.

  3.  Courts should only have authority to review EISs for mis-
            statements or omissions which have a material environmental 
            impact, and must do so within an accelerated litigation 
            timetable.

  4.  The Chair of CEQ should be authorized to accelerate permitting 
            where projects have a net positive environmental impact or 
            where sponsors solicit meaningful public participation 
            before the project is fully developed. Public input 
            generally improves projects, but is needed in the planning 
            process, not after the project design is set in stone.

  5.  For projects of interstate significance, state and local reviews 
            and permits should be pre-empted if they delay approval 
            beyond the Federal timetable. This is comparable to FERC 
            provisions for gas pipelines.

  6.  Finally, an official designated by the President should have 
            authority to resolve disagreements among Federal agencies.

                               conclusion
    Rebuilding America's decrepit infrastructure is a goal shared by 
most Americans. Streamlining permitting is good government, not bad 
government. Raising money to modernize infrastructure is a good 
investment, not government waste. This could be the impetus for 
bipartisan agreement in Congress. If Democrats agree to cut red tape 
and modernize NEPA, Republicans agree to unlock funding sources.

                                 *****

                               ATTACHMENT

Accelerate Infrastructure Permitting
March 2017

Permitting for infrastructure projects can take a decade or more. 
Multiple agencies oversee the process, with no clear lines of 
authority. Once permits are granted, lawsuits can last years more. 
These delays are costly and, often, environmentally destructive.

To eliminate unnecessary delays, we must give officials authority to 
enforce deadlines and resolve lawsuits in expedited proceedings. To 
accomplish these goals, we recommend amending the FAST Act with the 
following provisions:

  1.  Except in unusual circumstances, decisions to approve 
            infrastructure projects are made in less than two years.

  2.  The Chairman of the Council on Environmental Quality (CEQ) has 
            authority to resolve all disputes regarding the scope and 
            adequacy of environmental review pursuant to NEPA.

  3.  CEQ has the authority to grant a fast track one-year review for 
            those projects that were developed with significant 
            consultation with stakeholders and that demonstrate net 
            environmental benefits.

  4.  The Director of the Office of Management and Budget has authority 
            to resolve inter-agency disputes.

  5.  If state and local permits are delayed past issuance of Federal 
            permits, the Chief Permitting Officer is authorized to 
            grant final permits for projects of interstate or national 
            significance.

  6.  Judicial review is limited to the question of whether the initial 
            review failed to disclose material impacts and practical 
            alternatives.

These changes will substantially improve review timetables and reduce 
construction costs while maintaining strong environmental protections 
for federal infrastructure projects. Here is the text of the bill to 
accomplish these amendments, which we call the Get America Building Act 
of 2017.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               *****

Common Good (www.CommonGood.org) is a nonpartisan reform coalition that 
proposes simplified regulatory and legal structures to empower 
officials to use common sense and meet deadlines. Common Good's report 
``Two Years, Not Ten Years: Redesigning Infrastructure Approvals'' 
details the costs of delaying infrastructure permits. In August 2016, 
Common Good launched ``Who's in Charge Around Here?,'' a national 
bipartisan campaign to build support for simplifying government. The 
Co-Chairs of the campaign are Bill Bradley and Philip Howard, with 
support from, among others, Mitch Daniels, Tom Kean, and Al Simpson. 
Learn more at www.SimplifyGov.org.

This proposed bill was developed with the assistance of Covington & 
Burling LLP, pro bono counsel to Common Good's infrastructure red tape 
project.

                                 ______
                                 

  Questions Submitted for the Record to Mr. Philip Howard, Chairman, 
                              Common Good
                   Questions Submitted by Rep. Costa

Topic 1: NEPA Delegation Authority
    Question 1. Some states have enacted state level public disclosure 
laws similar to NEPA whose standards meet or even exceed NEPA's 
requirements.

    For instance, in 1970 my home state enacted the California 
Environmental Quality Act, which actually mandates that environmental 
mitigation be performed if an action has an impact on the environment. 
Unfortunately, in many instances, analysis under CEQA does not meet the 
statutory requirements of NEPA, leading to duplicative work and delayed 
project delivery.

    I've heard that this is especially problematic for projects where 
CEQA analysis and review has already been completed and as a result of 
a Federal agency interaction either through a required permit or a 
Federal funding agreement, an environmental review process under NEPA 
is required. In fact, I've heard of some instances where local agencies 
have rejected Federal funding because the delay to complete NEPA, 
despite already having completed CEQA, would result in a greater 
project cost.

    This is simply unacceptable.

    As you've mentioned, Congress has taken some steps to streamline 
these analyses, specifically for highway projects. This could prove 
beneficial to streamline projects in many congressional districts and 
specifically for those projects in California, like the Atwater-Merced 
Expressway that's needed to redevelop Castle Air Field or the 
California High-Speed Rail project.

    1a. Do you think that there are benefits to allowing projects in 
states that have equally stringent environmental disclosure laws as 
NEPA to move forward under a single environmental analysis?

    1b. Is it reasonable for Congress to explore additional ways in 
which NEPA delegation authority can be extended to the states?

    1c. In your opinion, what sorts of agency actions lend themselves 
to enhanced delegation authority? For instance, Reclamation projects, 
FERC projects, or projects with Federal grant funds disseminated?

    1d. If it is beneficial, is further action by Congress necessary to 
move forward to expand delegation authority?

    Answer.

    1a. Yes. There are already some procedures in place to allow for 
state-level review documents to be adopted in whole or in part during 
NEPA review, and to the extent practicable this practice should be 
expanded. It makes no sense to duplicate review between state and 
Federal actors.

    1b. Yes, particularly for projects that mainly impact state and 
local rather than regional interests. That's how Germany divides review 
authority to ensure minimal duplication of effort.

    1c. Projects with primarily a state or local effect should enjoy 
this type of delegation; those with broader effects should have review 
run by the Federal Government. However, even in situations in which the 
state is running review under delegated Federal authority, the Federal 
Government still has a legitimate oversight interest, to ensure that 
local procedures do not impose undue costs or delays.

    1d. Yes, and Congress should explicitly authorize CEQ to delegate 
this authority where appropriate. As noted above, delegation procedures 
have already been incorporated in previous transportation bills, but 
should be expanded to encompass all infrastructure sectors and should 
be explicitly housed in CEQ.

Topic 2: FAST Act Streamlining Provision Implementation

    Question 2. I have heard concerns from many infrastructure project 
stakeholders that too much time is required to complete all of the 
environmental reviews under NEPA (i.e., environmental assessments (EA) 
and environmental impact statements (EIS). The U.S. Department of 
Energy reported that the average completion time for an EIS in 2015 was 
4.1 years, and the average cost was $4.2 million. A 2014 GAO report 
found that the average completion time for an EIS in 2012 was 4.6 years 
from the notice of intent to prepare an EIS through the issuance of the 
record of decision. I have heard that these figures may underestimate 
both time and costs. Available data from Federal agencies generally do 
not account for costs beyond third-party contractor fees, including a 
project applicant's data-development costs. The time estimates do not 
include the work that precedes the decision to prepare an EIS or the 
cost of defending them in court. I have heard other comments that 
expediting reviews could lead to potential litigation which could 
account for longer project delays beyond those that would have occurred 
using a more slow and steadfast approach under NEPA.

    Specific to infrastructure, there are NEPA streamlining reforms in 
the FAST Act already. With the FAST Act, Congress and the Obama 
administration sought to improve on past attempts to streamline the 
NEPA process by coordinating and expediting NEPA review across a 
broader range of agencies and industry sectors. The Act establishes a 
Federal Permitting Improvement Council (the Council), composed of 
officials from CEQ, OMB, and 13 other Federal agencies, to coordinate 
this streamlining effort. The range of projects covered by the FAST Act 
includes: ``renewable or conventional energy production, electricity 
transmission, surface transportation, aviation, ports and waterways, 
water resource projects, broadband, pipelines, [and] manufacturing.'' 
In addition, the Council has the authority to designate projects in 
other industry sectors by majority vote.

    To trigger the FAST Act, a project must be subject to NEPA; be 
likely to cost more than $200 million; and either: (1) not qualify for 
abbreviated environmental-review processes under any applicable law, or 
(2) because of its size and complexity, would likely benefit from 
enhanced coordination. Important aspects of Title XLI of the FAST Act 
include:

    <bullet> Coordinated Project Plans. The plans will identify the 
            lead agency and cooperating agencies and set out a 
            permitting timeline. The lead agency is to develop the 
            permitting timetable in consultation with the cooperating 
            agencies and the applicant.

    <bullet> Permitting Dashboard. An expanded online database will 
            track the status of Federal NEPA reviews for each covered 
            project. The lead agency must post information, including 
            the permitting timetable, status of compliance for each 
            participating agency, and any memoranda of understanding 
            between the agencies.

    In summary, the FAST Act already contains NEPA streamlining 
language for infrastructure projects. There seems to be little data on 
whether or not these provisions have been implemented or whether they 
are working to accelerate project delivery in a way that is consistent 
with the public disclosure requirements and alternatives analysis 
required by NEPA.

    2a. Is there information available about whether the existing 
streamlining provisions have been fully implemented and what effect, if 
any, they have had on project delivery timelines?

    2b. If this information were available, would it assist Congress in 
making any policy changes necessary to implement NEPA more effectively?

    2c. If this information is not available, how would you recommend 
this information be acquired and presented to Congress?

    Answer.

    2a. We are in the process of determining this now.

    2b. Yes, however, there are a number of innovations that the FAST 
Act did not address. For instance, there must be clear lines of 
authority to set timetables and resolve disputes.

    2c. Relevant CEQ and DOT staff would be best equipped to begin 
answering this question, and we plan on meeting with them soon to 
discuss this issue.

Topic 3: Local Development Experience

    Question 3. Recently approved by all permitting agencies last June/
July was a major ``new town'' project in my district that is designed 
for roughly 5,000 new residences, 3 million square feet of commercial 
and light industrial development, two new public schools, parks, 
trails, environmentally sensitive conserved lands, and various other 
related features. That project is now under construction.

    The U.S. Army Corps of Engineers and the U.S. Bureau of Reclamation 
were key permitting agencies for this project, and NEPA compliance by 
these agencies played a major role. Fortunately for this project, both 
the Corps and Reclamation ended up working well together to resolve a 
wide variety of issues, including some tricky NEPA compliance issues. 
Other projects, I am told, have not fared so well.

    However, with the benefit of 20/20 hindsight on this project, there 
are at least two areas where I am told we could be doing better:

    <bullet> Need for a single lead agency for NEPA compliance. Many 
            projects, including the project in my district, require 
            permits from two or more Federal agencies. Although the 
            NEPA regulations contemplate a lead Federal agency for 
            purposes of NEPA compliance, it is too often the case that 
            Federal agencies work inefficiently with each other on NEPA 
            compliance issues, leading to time-consuming delays and 
            multiple meetings that can sometimes span weeks and even 
            months.

      I believe that the NEPA regulations could be strengthened in that 
            regard with the intent of squarely assigning the 
            responsibility of NEPA compliance in one Federal agency for 
            all the Federal agencies that might be involved on a 
            particular project.

      In my home state of California, our NEPA equivalent--CEQA--is an 
            excellent model for how this notion of a single ``lead'' 
            Federal agency can work well.

    <bullet> Scope of analysis. Closely related to the idea of a 
            ``single lead agency'' for each project is the importance 
            of defining a suitably encompassing ``scope of analysis'' 
            for purposes of NEPA review. This is particularly important 
            for purposes of Section 7 consultation under the Endangered 
            Species Act.

      If the ``lead'' Federal permitting agency defines its NEPA 
            ``scope of analysis'' to only include the area of its 
            particular permitting jurisdiction, then the other Federal 
            permitting agencies for that same project may have no 
            choice but to prepare their own separate NEPA analysis if 
            their permitting jurisdiction does not coincide with that 
            of the ``lead'' agency.

      For the project in my district, resolution of this particular 
            issue took months longer than it needed to, and further 
            clarity is needed for future projects. At base, there 
            should be a single ``lead'' Federal agency with a project-
            specific ``scope of analysis'' that encompasses all Federal 
            permitting issues, not just those of the ``lead'' agency.

    3a. I have heard from constituents that the 6-year statute of 
limitations applicable to NEPA claims is too long. It creates too much 
uncertainty and can be a sticking point with the project finance 
community. Six years is too long to know whether an approved project is 
going to become the subject of litigation alleging NEPA non-compliance.

    The comparable statute of limitations under CEQA is 30 days.

    What are your views on the idea of new legislation to shorten the 
NEPA statute of limitations?

    3b. Under NEPA, ``alternatives'' to the proposed project that must 
be assessed in an environmental impact statement (EIS) are, according 
to some Federal agencies and some courts, supposed to be reviewed at 
the same level of detail as the proposed project. This project-level 
review of the alternatives can be quite burdensome, difficult or 
impossible to undertake (e.g., how can a bio analysis be undertaken at 
an alternative site that is owned by someone else?), and ultimately, of 
little value to the ultimate analysis.

    What are your views on the possibility or need for new NEPA 
regulations to better and more efficiently focus the ``alternatives 
analysis'' component of NEPA review?

    3c. Under NEPA, each Federal agency is authorized to develop its 
own list of ``categorical exclusions'' that is intended to be a list of 
activities that are determined to be so relatively minor in their 
potential for environmental impacts as to excuse the need for further 
NEPA analysis. It seems like a good concept, but I wonder if there are 
improvements that could be made. In the interests of streamlining NEPA 
review across all Federal agencies, there may be merit in issuing new 
regulations that list categorical exclusions that are common to all 
Federal agencies (e.g., ``minor construction''), thereby reducing the 
possibility for inconsistent treatment of the same issue by different 
agencies. These common categorical exclusions could be in addition to 
the agency-specific ``CatEx's'' that are already in existence.

    What are your views on the possibility of streamlining the CatEx 
process by issuing new regulations that create categorical exclusions 
that are common to all Federal agencies, perhaps in addition to the 
agency-specific CatEx's that already exist?

    Answer.

    3a. The FAST Act shortened the statute of limitations (SOL) for 
certain transportation projects, but this should be applied to all 
NEPA-related challenges. It is absurd that a disclosure statute should 
have a 6-year SOL. The SOL should be 30-60 days, and court review 
should be fast-tracked, as in preliminary injunction decisions.

    3b. Here and elsewhere, a rule of reason should be applied to 
ensure that review remains relevant to the project at hand. Some 
projects legitimately need broad, detailed alternatives analysis; for 
others, it's wasteful overkill. There's no hard and fast rule; CEQ 
should be empowered to make scoping decisions like this for every 
project, on a case-by-case basis.

    3c. Because of the difference in missions between the various 
agencies, I'm not sure that there's an obvious need for uniformity in 
the CatEx process/ However, CEQ should certainly be empowered to draw 
those guidelines if they deem it necessary.

Topic 4: Potential Guidance Updates

    Question 4. Some stakeholders have indicated that new guidance from 
CEQ would help streamline Federal review of infrastructure projects by 
clarifying NEPA duties and procedures that are routinely challenged 
legally. This is as important for agencies and projects as for the 
public and the reviewing courts.

    While there are some who believe that the underlying NEPA statute 
is largely sufficient, some stakeholders assert that NEPA guidance has 
not kept pace with the specific issues and arguments that are now 
commonplace. Existing guidance tends to be high-level and conceptual; 
effectively leaving it to the courts to discern what is or is not 
required by NEPA. I have heard that areas for special focus could 
include:


    <bullet> Purpose and Need--NEPA analysis could properly reflect the 
            purpose of the proposal before the agency, not the 
            preferences of policy makers or opposition groups.

          --  For example, the purpose of a proposed interstate natural 
        gas pipeline is generally to transport natural gas by pipeline 
        from one or more regions or interconnections, to specific 
        market areas or interconnections. This purpose is more specific 
        than simply meeting the energy needs in a geographic area. Such 
        a general purpose could theoretically be met by providing oil, 
        coal, solar, or hydro power, requiring demand reduction, etc. 
        But none of these is the proposal before the agency, and none 
        expresses the purpose of the project or reflects the 
        jurisdiction of the reviewing agency (in this case, FERC).

          --  To remain pertinent and useful, would it be beneficial to 
        ensure that the scope of the NEPA review reflect the project's 
        purpose?

    <bullet> Alternatives--The alternatives analysis could be tailored 
            to the purpose of the proposal before the agency, otherwise 
            it leads to excessive analysis of irrelevant, tangential, 
            or infeasible projects that are not before the agency for 
            action.

          --  In the example above, solar or hydro power may not be 
        considered appropriate alternatives to the gas pipeline 
        project, even if these energy sources are preferred by certain 
        agencies or groups.

          --  I have heard that the breadth of alternatives being 
        considered has increased to the point where scores of major and 
        minor route alternatives are put under the microscope for an 
        interstate gas pipeline project. As a result, NEPA seems to 
        have evolved into the vehicle to select the route--which is 
        properly the province of the Natural Gas Act--and to ensure 
        that it has least environmental impact--which is not NEPA's 
        charge.

          --  The depth of analysis seems to have also increased to the 
        point where full mapping and resource-by-resource analysis is 
        often expected for many alternatives, setting up impact 
        comparisons between alternatives measured in fractions of a 
        wetland acre, etc. Such broad and intensive analyses require 
        months of effort and entail enormous costs that may be out of 
        proportion to the purpose of the alternatives analysis. They 
        also lead the public to expect a greater degree of control--by 
        the public and by the agency--over project development than 
        NEPA affords, fostering litigation and eroding public trust in 
        the reviewing agencies.

          --  Can you please speak to these concerns and whether you 
        believe if new guidance is needed to tie alternatives, first, 
        to the purpose and need of the proposed action of the agency 
        and, second, to a more general level of analysis sufficient to 
        discern whether an alternative is significantly more or less 
        burdensome to the environment.

    Answer.

    Purpose and Need: The scope of NEPA review is supposed to reflect 
the purpose and the effect of the project. Some projects with narrow 
purposes will have broad effects. Public policy choices require 
balancing effects and purposes, and NEPA was passed to ensure that the 
public and decision makers were able to make informed choices.

    Alternatives: New guidance is needed to apply a rule of reason 
standard to the scope and timetable of environmental review. The first 
part of any analysis should be a judgment--by the sponsor and CEQ--
about whether the time and effort spent on environmental review might 
be harmful to the environment. A version of the Hippocratic Oath must 
be applied to environmental review. ``First, do no harm.''

    Please let me know if you or other members of the Committee have 
additional questions, or if you would like additional information. And 
thank you again for the opportunity to participate in this important 
discussion.

                                 ______
                                 

    The Chairman. Thank you very much. By the rules that we 
have on our Committee, questions from the Committee members are 
limited to 5 minutes.
    I am also going to have to leave early on in this hearing, 
so I am going to apologize ahead of time. That is why I came 
early, so I can leave early. But I apologize. I am not trying 
to walk out because I don't think the significance of what you 
are saying is here. It is extremely significant. It is just I 
am being rude and I am going to walk out. Because of that, let 
me start with some questions by myself, if I could.
    Mr. Howard, let me start with you. One of the things you 
talked about in your testimony, is simply the fact that the 
goals of NEPA, as it started, have changed. And some of that 
has changed simply because of litigation. Is the goal of NEPA 
that was passed a half-century ago the same goal that we see 
today within the agencies who are administering it?
    Mr. Howard. Excuse me?
    The Chairman. The goals of NEPA, have they changed over the 
last 50 years?
    Mr. Howard. I don't think the goals have changed. I think 
the goal of public review remains as valid as it was 50 years 
ago, perhaps even more valid.
    We would encourage public input in advance, instead of 
after, but what has happened is the practice has changed, so 
that the goals have been subverted by a process that takes 
years and ends up interfering with important projects, instead 
of promoting better projects.
    The Chairman. Has litigation played a portion of that 
change in the process of administering this law?
    Mr. Howard. Undoubtedly. The fear of litigation, according 
to former EPA General Counsel E. Donald Elliott, probably 
accounts for 90 percent of the extra detail. People are scared. 
It is a form of defensive medicine.
    People are scared that someone might sue if you don't talk 
about the traffic study for the Tappan Zee Bridge. It might 
change 1 percent, and they will sue that you did not do that 
study. So, then you get months doing a study that makes no 
sense.
    The Chairman. You had an interesting statement that you 
made in there, saying that we are harming the environment by 
the way we are dragging out these things. Do you want to go 
through that?
    How can I convince other people the way we are defending 
the status quo right now actually can harm the environment?
    Mr. Howard. Well, I would encourage you to talk to leading 
transportation officials from the prior Democratic 
administration on the projects that are important for the 
environment and what is holding them up.
    Former Deputy Secretary John Porcari, for example, is 
someone who has spoken eloquently about how delay is harmful to 
the environment. We were involved in trying to expedite the 
projects for the gateway tunnel going into New York. The delay 
in that process dramatically increased the risk that the 
decrepit existing 100-year-old tunnels would close down. If 
they close down, which they do in a way that cannot be 
predicted, there is a 25-mile gridlock, which causes enormous 
pollution, as well as disruption of the economy.
    The transportation grid, the highway bottlenecks, the rail 
bottlenecks, the water mains that leak, all of those things are 
happening, and they are delayed because of the----
    The Chairman. So, the reality is certainly in contrast to 
what the goal and the intent, as noble as it was, was.
    Mr. Howard. Completely.
    The Chairman. Mr. Willox, can I ask you a simple question? 
We have heard part of the process is we don't have enough 
staff. How could counties like yours assist the Federal 
agencies to move the review process efficiently?
    Mr. Willox. Well, Mr. Chairman, as I indicated, I think it 
is important that counties get engaged early and often in the 
process. That does require a commitment on the counties.
    But even when the project is being proposed, before it is 
right in that formal setting, if we can be engaged early, we 
can help provide some of the social economic data that is 
important, some of the understanding of the local community and 
environment. So, early involvement would be definitely 
beneficial.
    The Chairman. Early in your testimony, you talked about 
consultation and coordination with local officials. That is 
happening at a haphazard level right now. Would it be helpful 
if we actually defined what would take place, and insist that 
local officials have to be part of this process?
    Mr. Willox. Mr. Chairman, I do think that would be helpful. 
Coordination is already part of the law, but it is implemented 
differently by different field offices and different directors. 
It does require a commitment on the local government officials, 
but I think the outcome would be better if that was more 
uniformly instigated at the local level.
    The Chairman. I would hope we could actually codify that in 
some way, so agencies know what they are and are not supposed 
to do.
    Mr. Bridges, I just have one simple question for you. You 
mentioned some of the people who turn up at hearings, and some 
of the testimony becomes more circus than it is reality. Are 
you telling me that sometimes our hearing process and our 
comment periods, they are really silly and useless?
    Mr. Bridges. It seems to be. They can be pretty interesting 
at times. And they are given a lot of latitude to just come in, 
and I was probably understating some of the stuff I have seen.
    For people that are protesting the projects, it is really 
emotion-based, and not a lot of fact-based. And there isn't any 
fact-checking with anything for the most part. They are just 
allowed to do their thing. And when I go there to do what I do, 
and our other people go to support the project, it is kind of 
intimidating. So, it is really hard for us to, even though we 
do----
    The Chairman. All right, thank you. I am over my time. I 
apologize. It was my fault for asking the question so close to 
the end of it.
    I warned you guys about doing that, so don't do what I just 
did ever, ever.
    [Laughter.]
    The Chairman. I also want to have unanimous consent to 
place in the record an Op-Ed by Cass Sunstein, who actually 
commends the Trump administration for some of their Executive 
Orders in an attempt to try to streamline this process that we 
are talking about here.
    Without objection, that will be so ordered.
    Mr. Grijalva, you are up.
    Mr. Grijalva. I was going to defer to Ms. Tsongas.
    The Chairman. Ms. Tsongas, you are up, then.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here today.
    As you all know, the National Environmental Policy Act is 
one of our Nation's bedrock environmental laws, and I was 
grateful to hear our Chairman say that, as well. Crafted on a 
bipartisan basis by Congress and signed into law by President 
Nixon, NEPA has informed Federal decision making and increased 
transparency for over 40 years.
    To put it simply, NEPA makes sure that we ``look before we 
leap,'' and are using taxpayer dollars wisely. NEPA is also one 
of the primary ways through which the public is able to 
participate in the Federal decision-making process, fulfilling 
the fundamental right of American citizens to have a voice 
regarding a proposed Federal project.
    We saw the benefits of this public input process in my own 
district several years ago during a major Federal highway 
project. Thanks to the NEPA process, the project improved 
nearby wetlands and led to the construction of noise barriers 
to mitigate impacts on neighbors. The public comments that were 
submitted by my constituents demonstrate the immense popularity 
and benefits of the public review process, which would not have 
been possible without NEPA.
    For example, a local trucking company submitted comments 
saying, ``All the neighborhood residents, the commercial 
businesses, homeowners, and general public have been invited to 
each meeting and hearing. All comments are welcomed. Everyone 
in attendance feels that they have had a say in the development 
of this project.''
    Another resident wrote, ``The project team has been 
excellent to work with. They have done an outstanding job of 
listening to the residents of Mathuen and, whenever possible, 
take local input.''
    Even residents who could have been negatively impacted came 
around to support the project, thanks to the NEPA public 
outreach process. ``Although our land will be impacted, and the 
state will be taking some of it, we definitely support the 
project. We believe this project is necessary for the improved 
safety of everyone at the intersection, and for the economic 
development of the community. The engineers and architects for 
this project have done an excellent job listening to the 
community and modifying the plans whenever practical.''
    All these examples from my district show that NEPA ensures 
that all citizens have a right to participate in the decision-
making process, and it ultimately improves the likelihood of 
long-term success and public support. And I have seen the 
benefit of this highway project, as it has gone forward in the 
ways in which the community has rallied around it.
    Ms. Bear, as has been referenced, the vast majority of NEPA 
projects do not require a significant environmental impact 
statement. Ninety-five percent of all NEPA reviews are 
completed in just a few days. Just 1 percent of projects 
require a more comprehensive environmental impact statement. 
Can you describe your experience with those 1 percent of 
projects that do require a longer environmental review? In 
these cases, why is it so important that we take a hard look at 
a project's potential impacts?
    Ms. Bear. Well, the easy answer is because those are the 
proposed actions that are going to have significant 
environmental impacts, as the threshold for doing an 
environmental impact statement. And those impacts may last for 
a very long time.
    In terms of what I have seen in the context of EIS 
preparation, yes, I have seen some delays that are unfortunate, 
and some problems that have been alluded to here.
    I have also seen some very positive developments. You 
mentioned the enthusiasm of private citizens, which I have 
found was the most gratifying part of my work. And one of the 
most exciting developments in NEPA over the past decade, 
decade-and-a-half, I think, is citizens who have come together 
in various coalitions, not just one group, but maybe ranchers, 
counties, small businesses, public interest groups, a variety 
of people, tribes, and developed a comprehensive alternative 
and presented it to the agency, and had that reviewed in the 
EIS, once in a while chosen, either in whole or in part.
    To me, that is really democracy in action, where they are 
really contributing the alternatives to their agencies, to 
their government. So, that has been very gratifying, to see 
that development.
    Ms. Tsongas. I thank you for that. One of the issues we 
have had--I want to see how much time, oh, I don't have enough 
time to go through this. Thank you for your testimony.
    Mr. Gohmert [presiding]. Thank you. At this time, the Chair 
recognizes the gentleman from Colorado, Mr. Lamborn, for 5 
minutes.
    Mr. Lamborn. I want to thank the Chairman, first of all, 
for having this hearing on such an important issue. NEPA is a 
policy that directly impacts an entire scope of this Committee, 
and that is why our Committee has primary jurisdiction over it.
    It should be obvious to any observer that, despite the good 
intentions behind the original passage of NEPA, it has now 
become, in many cases, nothing more than a weapon to stop or 
delay any kind of development, even development that is vital 
to creating jobs and giving us a higher standard of living. And 
when you look around the world and you see countries that have 
more prosperity, they have a better environment, they can 
afford to clean up the environment. I believe, if you want a 
clean environment, you should allow development to go forward.
    Mr. Howard and Mr. Bridges, one thing that we try to do in 
our legislation here, especially as we look forward to possible 
infrastructure legislation going forward, is to allow for lead 
agencies to be designated for NEPA review and requiring 
agencies to sit down and coordinate at the very beginning. 
Would either of those two things erode the integrity of NEPA in 
any way?
    Mr. Howard, or Mr. Bridges?
    Mr. Howard. No, no. Coordination among agencies is vital. 
The problem has come up when the agencies have different 
agendas, which they do--Fish and Wildlife has a different 
agenda than the Corps of Engineers--and there is no effective 
means of resolving the disagreement. Those disagreements can 
last months or years. That is the problem. There are no clear 
lines of authority to resolve what are natural and honest 
differences in view.
    Mr. Lamborn. So, articulating and defining those areas of 
agreement ahead of time, either by Congress or by the agencies, 
would be a positive development?
    Mr. Howard. Well, I think it is impossible to resolve a 
disagreement ahead of time. I think you need to create clear 
lines of authority.
    Mr. Lamborn. Clear lines of authority, thank you.
    Mr. Howard. To resolve disagreements.
    Mr. Lamborn. Mr. Bridges, in your testimony you mention a 
project that has been tangled up in a seemingly never-ending 
NEPA review, the Millennium Bulk Terminals project in 
Washington State. Why was there such a Federal-State 
disconnect, first of all?
    Mr. Bridges. I don't know why there is such a disconnect 
there. I have been more involved with the state process. It has 
been going on for almost 6 years.
    Just from an outsider looking at it, it seems to be, no 
matter which agency you are talking about, everybody is waiting 
for somebody else to be the first one to say yes. And that is 
kind of what I feel like, and you will see it in my written 
testimony, the people that oppose these projects have figured 
out the way to stall things and create a timeline that most 
businesses are not going to be able to survive and outlast.
    It is so open-ended to try to put a timeline on it, that is 
really what we are looking for. We are not looking for de-
regulation or anything, just some type of predictable timeline 
for our communities and for the businesses that are trying to 
invest in our community.
    Mr. Lamborn. Thank you. Would having designated a lead 
agency have expedited the project?
    Mr. Bridges. I would think so, yes. I think there would be 
less finger-pointing about whose turn it is to make a decision.
    Mr. Lamborn. Last, I would like to say that the original 
intention of NEPA was to allow stakeholders to have a voice in 
the project. But I think sometimes that gets hijacked.
    [Slide.]
    Mr. Lamborn. Up on the TV screen there are some photos that 
are going to be shown. And this has to do with a public scoping 
meeting in Bangor, Maine for the then-proposed North Woods 
National Monument. But these were people that were bussed in, a 
2-hour bus ride from some distance away. They were not local 
business owners or even local residents, but they were calling 
themselves local opposition.
    Mr. Bridges, have you ever seen cases of people being 
bussed in to provide so-called public comment?
    Mr. Bridges. Yes, that is exactly what we have been 
experiencing in my area with all the projects. We have three 
large projects, and they have a really good coalition, and they 
are just kind of moving around. And we see the same people, 
whether it is in Vancouver, Washington, Longview, Washington, 
and most of them are coming from the Puget Sound area, the 
Seattle area, or from Portland.
    We do have a few local opposition folks, but you can 
usually count those on one or two hands, the regulars that show 
up. I think it does discourage the community from coming 
because it has gotten to be where either you have to put a blue 
shirt on or a red shirt on, and that is not what this process 
is supposed to be about.
    But they made it a choice between jobs and environment, and 
I don't think that is really what we are looking at.
    Mr. Lamborn. Thank you very much.
    Mr. Gohmert. Thank you. At this time the Chair recognizes 
Mr. Lowenthal from California for 5 minutes.
    Dr. Lowenthal. Thank you, Mr. Chair. One of the greatest 
things about NEPA, in my opinion, is that it gives ordinary 
Americans a tool to weigh in on projects that can affect them, 
environmentally, economically, and culturally.
    This is especially true for those communities that are 
highly impacted by projects. In my area of California, 
especially true for the low-income, which are frequently 
minority communities whose neighborhoods are the most affected 
by infrastructure projects.
    I think of all the areas that this Committee has under its 
jurisdiction, NEPA is the most important for my district.
    The district I represent includes what locals used to say 
all the time and now say less and less is the diesel death 
zone, which are those neighborhoods, primarily low-income and 
minority neighborhoods, that border the busiest port complex in 
the United States. These communities have above-average rates 
of asthma attacks, cancers, especially pulmonary cancers, and 
other health-related issues that are associated with air 
pollution.
    But on the other hand, the economic activity of the Ports 
of Long Beach and Los Angeles generate a great deal of positive 
benefit for our community. There are thousands of jobs because 
the ports are there.
    At the same time, there are serious health concerns, 
especially in the neighborhoods, as I pointed out, around the 
ports. For example, schools have to have filters, kids cannot 
go outside, unfortunately, on too many days when the air 
quality is bad during their recess.
    But even though the ports have made significant 
improvements in the environmental conditions in or around them, 
and I must compliment them, there is still much more that needs 
to be done. And the decisions that we are going to be making in 
this port complex and throughout the Nation on infrastructure 
matter a great deal to those communities that are affected.
    NEPA is the Federal tool in these communities in my 
district that they have for weighing in on any major project as 
it is being evaluated and finalized. Unfortunately, many of the 
reforms that we are discussing today would cut out these very 
important voices of my constituents, the ones that need NEPA 
the most, potentially.
    So, I have a question, first, for Ms. Bear. Even the most 
economically beneficial projects, they can hurt the environment 
of nearby communities in the absence of clear public review, 
both public and Federal agencies. NEPA exists so we don't have 
to make those kinds of trade-offs, and instead can move toward 
sustainable economic development.
    During the NEPA review, when we have projects, such as one 
of the recent projects in the Port of Los Angeles, the Everport 
Project, where in the review, the EPA expressed concerns about 
the project's air quality and human health impacts, 
particularly on the low-income communities around it. In the 
final EIS, the Army Corps strengthened its air quality 
mitigation measures to specify that all the dredging equipment 
be electric. That really reduced the impact of the project's 
construction emissions, while still allowing the project to go 
forward. Is this what you mean by win-win situations, where we 
allow and have sustainable projects go forward, but we also 
protect communities?
    Ms. Bear. Yes, very much so. And I would just add, I 
alluded earlier that health, along with social and economic 
impacts, are one of the kinds of impacts that I think need to 
be given more attention in the NEPA process. I served on a 
National Academy panel looking at the role of public health 
issues in the NEPA process. There is a lot of work there to be 
done, and I am glad to hear that in the Los Angeles Port 
situation that worked, and worked well.
    Dr. Lowenthal. And finally, finalizing on that, would such 
outcomes where we both had a sustainable development, would 
they be less likely if some of these proposals we are hearing 
today, like shortened review time frames, limits on scientific 
analysis, restricted public input--if they were adopted, would 
this negatively impact the ability to have this?
    Ms. Bear. I can't answer. OK. I thought I was out of time.
    In my view, it depends on which measure we are talking 
about and some caveats. Let me just explain. Certainly cutting 
back on scientific analysis, yes. Cutting back on public 
involvement, yes.
    In terms of the time, there has been a lot of discussion 
and testimony about time and size of EISs. And there is no 
doubt that some of the length of time and the length of EISs, 
which are the smallest percentage of NEPA documents, is too 
long. And I would like to see that cut, and that would be 
consistent with CEQ's perspective.
    That is where I get to the point that, unfortunately, to do 
less in some ways, and certainly to do it faster, you need 
people. I think many of us went to school, heard our English 
teacher saying it takes longer to write a shorter document--
which is true, you need to do some editing, and you also need 
people, staff, that understand what the right issues are, or 
can even oversee consultants.
    I remember, just to give you an example, if I have another 
second.
    Dr. Lowenthal. Real quickly, our time is limited.
    Mr. Gohmert. The time is expired.
    Ms. Bear. I am sorry. OK, thank you.
    Dr. Lowenthal. Thank you. I yield back. Thank you, Mr. 
Chairman, for your forbearance.
    Mr. Gohmert. Thank you. At this time, the Chair recognizes 
the gentleman from California, Mr. McClintock, for 5 minutes.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Bridges, is a cost benefit analysis done before NEPA is 
applied to a project? Does anybody ask how much is this going 
to cost and how much value can we expect it to add for the 
public?
    Mr. Bridges. Yes. Usually that is done early on in the 
process, from my experience.
    Mr. McClintock. OK, and if the cost of the study exceeds 
the value that can be expected from it, do we do the study 
anyway?
    Mr. Bridges. Are you talking about the cost of the EIS?
    Mr. McClintock. Yes.
    Mr. Bridges. Yes, I don't think that any of these projects 
probably anticipated the cost of what the EIS would be after--
--
    Mr. McClintock. So, as far as the EIS is concerned, the sky 
is the limit?
    Mr. Bridges. Yes.
    Mr. McClintock. To what extent do these requirements 
inflate the cost of projects?
    For example, I have a community in my district, Foresthill. 
They get their water from the Sugar Pine Reservoir, a small 
reservoir that was built years ago with a dam with an 18-foot 
spillway, but no spillway gate. They didn't need the water at 
the time; they do now.
    So, they went out and priced a spillway gate for this 
little community of about 5,000 people. The cost of the gate is 
$2 million. But then the cost of the environmental studies is 
expected to be over $1 million, and the environmental 
mitigation over $2 million. So, a $2 million project that was a 
heavy lift for this little community, but within reach, becomes 
a $5 million cost-prohibitive boondoggle. Is that typical of 
these projects?
    Mr. Bridges. Yes, the scale that I am looking at from the 
projects that I am talking about, they are sizable projects, $1 
billion, $2 billion projects. Some of the EISs I have seen are 
upwards of $14 million right now for the state.
    Mr. McClintock. Often in multiples of what the actual cost 
of the project is.
    Mr. Bridges. Yes.
    Mr. McClintock. With no consideration of the cost benefit 
to be derived.
    Mr. Howard, has anyone estimated the value of projects that 
are never initiated because of the anticipated cost of these 
NEPA requirements?
    Mr. Howard. It is very hard to quantify what is not done.
    It is generally believed, in the infrastructure business, 
that private capital sits on the sidelines for the kinds of 
projects it would be appropriate for in the United States 
compared with, for example, Europe and the United Kingdom, 
because there is no certainty as to the timing of approval.
    And no, they don't do a cost benefit analysis before doing 
an EIS. It is all or nothing. In many projects, like the one 
you suggested, the absence of any common-sense decision making 
to do what the statute says, which is to balance the public 
needs versus environmental needs, is one of the deficiencies.
    Mr. McClintock. Has anyone estimated the total cost to the 
economy of these requirements? I think taxpayers deserve, in 
fact, everybody deserves, accurate price signals of what 
benefits we get and at what cost from all of our laws, but NEPA 
in particular.
    Mr. Howard. If you simply look at the infrastructure that 
needs to be remade, most of which does require environmental 
impact statements, it is not in these sort of trivial actions 
but the big ones, we are talking about multiple trillions of 
dollars over the next decade.
    We did an analysis that said if there is a 6-year delay, 
which is not caused only by NEPA, but also caused by multiple 
permitting requirements, that more than doubles the cost of 
that. So, if you had a $4 million infrastructure build over a 
decade, it would end up costing, in effect, including 
opportunity cost, twice as much.
    Mr. McClintock. We are told, though, that just 1 percent of 
projects require this full-scale environmental, so what is the 
problem?
    Mr. Howard. That is a very misleading number, because the 
categorical exclusions typically apply to very minor things, 
like can we put a falcon's nest over at this part of the park. 
You have all these sorts of daily executive decisions that fall 
under the categorical exclusion.
    Mr. McClintock. So, it is the 1 percent that are absolutely 
killing us and imposing these costs, and impeding communities 
meeting the needs of their citizens.
    Mr. Howard. The 1 percent aligns with the American Society 
of Civil Engineers report on the infrastructure needs.
    Mr. McClintock. Mr. Willox, let me go to forest management 
for a moment. We used to actively manage our forests to match 
tree density to the ability of the land to support them. This 
created a revenue stream to the Treasury for forest management 
and local governments, not to mention very healthy commerce.
    NEPA has made forest management virtually impossible. We 
are told that NEPA is one of our landmark environmental laws, 
yet we are now, because of the requirements, carrying four 
times the tree density that the land can support in the Sierra 
Nevada, and the result is these trees are badly stressed, and 
they lose their natural resistance to drought, disease, 
pestilence, and fires.
    I think we are entitled to ask, after 45 years of 
experience with this law, with the promise it was going to 
improve our forest environment, how is the forest environment 
doing?
    Mr. Willox. It is clear that the diseased and insect-
infested trees are a fire danger. And if you have ever read 
about a forest fire in the West, the smoke and carbon released 
in that fire is way more detrimental than reasonable logging 
and harvesting of that lumber would be.
    Mr. Gohmert. Thank you. The gentleman's time has expired. 
At this time the Chair recognizes the gentleman from Florida, 
Mr. Soto, for 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman. I am excited that we are 
talking about infrastructure. I worry, with the proposed tax 
reform that will add $2.3 trillion to the debt, we may not have 
any money for it. But let's assume for a second that we have an 
ability to do that.
    First, Ms. Bear, what do you think an appropriate staff 
number would be for NEPA review?
    Ms. Bear. I am sorry----
    Mr. Soto. You had mentioned that there is not enough staff 
to review these NEPA claims.
    Ms. Bear. Right.
    Mr. Soto. What would be an appropriate number to make sure 
we could speed these things up within appropriate reason?
    Ms. Bear. For the entire Federal executive branch?
    Mr. Soto. Let's just focus on this one area, shall we?
    Ms. Bear. Infrastructure? OK, but that infrastructure 
involves a number of agencies, of course, the Department of 
Transportation, the Army Corps of Engineers, and a lot of other 
agencies. I would really like to get back to you on the record 
in terms of a number for infrastructure.
    Mr. Soto. I think it is important, if you think there is a 
certain appropriate number, we would love to hear about it.
    Ms. Bear. Sure, OK.
    Mr. Soto. Let me go to the next question then. What would 
happen if NEPA was eliminated, Ms. Bear? What would be the 
consequences?
    Ms. Bear. I think, first of all, a lot of people would be 
very surprised. A lot of private citizens in the United States 
would be surprised much more than they realize now by things 
that were happening that they didn't know were going to happen 
in advance. And I say that because I think today many people 
take for granted, particularly people that live near public 
lands and use them, or in urban areas where there is 
infrastructure, that if something is going to happen of some 
import to them, they will know about it in advance. And if you 
take NEPA away, most of the time that is not necessarily true.
    There are exceptions to that, there are other laws that 
require some sort of public notice or involvement. But NEPA is, 
by far, the broadest and most systematic of those laws, so that 
is issue Number one.
    Issue Number two, I think, while the agencies would 
probably continue to try to mitigate some of the most important 
adverse impacts, I think you would lose the alternatives 
analysis, which is really the heart of the NEPA process. It is 
what forces people to think outside of their own little box, 
into thinking about better ways to accomplish what we are 
trying to achieve in a particular context.
    Mr. Soto. So, it is more comprehensive and provides 
alternatives?
    Ms. Bear. Yes.
    Mr. Soto. Thank you.
    Mr. Bridges, thank you for coming. We don't want to have 
NEPA get in the way of opportunities, obviously, particularly 
for our building trades and our working families. What do you 
think the time limit should be for a review? Because you 
mentioned that some of them are going too long.
    Mr. Bridges. Yes. We talk about 2 years as a fair timeline. 
I know there are so many different processes and different 
agencies that are in there, but that seems like a fair 
timeline, and have some predictability there.
    Mr. Soto. OK. Mr. Howard, you had mentioned that there are 
some de minimis things that are required. You mentioned the 
Bayonne Bridge and a traffic study. What do you think should be 
the mechanism, if we are talking about something that is de 
minimis, in your opinion?
    Then you also mentioned balance with cost benefit analysis. 
What are you advising us should be the rule on these sorts of 
potentially de minimis issues and striking this balance?
    Mr. Howard. I think the way the process should work is that 
there should be incentive for project developers to engage the 
public before the environmental impact statement, so it is not 
fully baked by the time it gets to a public hearing.
    Then, I think that the environmental officials in charge of 
environmental review, and I agree with beefing up the staff, I 
think it is very important, should have the authority, if there 
is a dispute over the scope of review for a project, to make 
decisions. We elect people, they appoint people. You need to 
make a decision about how much review is needed for the Bayonne 
Bridge or for the tunnel. The tunnel has a significant 
environmental impact, but not doing the tunnel immediately has 
an incredibly catastrophic environmental impact.
    So, someone in the Administration has to be authorized to 
say, however we build this tunnel, it is better to get it 
started tomorrow than to get it started in 5 years. Someone 
needs to have that job.
    Mr. Soto. So, a preliminary hearing on scope, or a meeting 
among the developers and the government would be helpful, you 
think?
    Mr. Howard. Well, that would be helpful, and also engaging 
the public. But most important is having the Chair of CEQ or 
having CEQ have the authority to make these kinds of balancing 
decisions, whereas now, in part because of the fear of 
litigation, the presumption is no pebble left unturned. So, it 
ends up just taking much longer than it ought to take. Most 
reviews should take a year or less, even big ones.
    Mr. Soto. I yield back.
    Mr. Gohmert. Thank you. The Chair recognizes the gentleman 
from Alaska.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Gohmert. He has 5 minutes.
    Mr. Young. I think this is a very important hearing. NEPA 
itself was never intended to be an obstructionist part of our 
infrastructure, nor building of any other thing. But it has 
been used as that.
    I will give you an example of Alaska's national forest, the 
Tongass, one of the largest forests in America, in fact, it is. 
A small portion of the Tongass is managed by the state. The 
vast majority is by the Federal Government, who does not manage 
it. It takes less than 18 months for the state to plan and 
offer a timber sale in Tongass. At the same time, the Forest 
Service sales are delayed by 5 years, largely because of NEPA.
    And you look at NEPA and here is one thing, gentlemen on 
this Committee, whether you want to eliminate it, I don't think 
we can, but we ought to at least take and streamline it.
    There are 90 statutes that govern the management of the 
Forest Service, 90 statutes, which are not connected or working 
together as we go through this and, consequently, have bad 
forest management in not only the Tongass, but other parts of 
the United States.
    In the 35 years I have served on this Committee, we have 
had two pulp mills, five large saw mills, and many smaller 
mills that have been forced to shut down because of the lack of 
timber because of the inefficiency of the Forest Service. We 
have lost 5,000 family wage jobs in this area that used to take 
and support small communities that no longer exist. Some people 
like that, but NEPA should not be used to slow down and impede 
the development because it does not protect the environment. 
And that is really what we should be talking about. I think we 
ought to recognize that as a Committee, that the environment is 
not protected by this law. In fact, it increases the problems 
we have.
    I noticed someone in their testimony talking about when we 
slow down traffic congestion, that adds more to the environment 
degradation than we do ordinarily because of NEPA.
    And, by the way, we are the only country in the world that 
can spend money as we are spending it to achieve nothing. We 
are spending money, this is as bad as some of the wars we have 
had. We do not achieve anything in this effort, because we 
don't really address the environment. We don't take into 
consideration the impact upon communities, the individual jobs. 
The prosperity of this Nation is being held up because of this 
law. It does need to be improved.
    Mr. Howard, in your written testimony, you talk about labor 
groups and delay tactics. But when a project's applicant and 
labor groups are on the same page, isn't that something that 
should be looked at as a positive for NEPA review?
    When these groups are on the same page and we still see 
delays, why? And what does it accomplish?
    Mr. Howard. There are many projects that everyone agrees 
ought to go forward, and labor is arm and arm with the National 
Association of Manufacturers and the regional plant 
associations and such, and it still takes years, unnecessarily. 
So, your point is extremely well taken.
    But I go back to the point that if you don't have a 
decision maker whose job it is to balance, you have this 
utopian assumption that every project gets full review, even 
though everybody knows that the right thing to do is to go 
clear out this part of the forest. And society doesn't work 
without people using judgment. We cannot create automatic 
government and utopian solutions. Unfortunately, NEPA has 
evolved into that delay for no good purpose.
    Mr. Young. As a member of the Transportation Committee and 
the chairman at one time, we were replacing a bridge because 
the old bridge was wore out. And we had to have a NEPA review 
on the fish activity on the new bridge. The new bridge was 24 
feet from the old bridge. Now that is stupidity beyond any 
stupidity action you can possibly have.
    Mr. Howard. Oh, I can----
    Mr. Young. It held up the project for 4 years, because we 
were studying the fish that went underneath the old bridge all 
those years. Now we build a new bridge, we had to have this 
NEPA study. That is stupidity. And yet this Nation allows that 
to happen.
    We have to change this law so it has more sense, so we have 
quicker decisions, we don't have all the statutes, we don't 
have all the agencies that are involved, so that projects are 
held up forever and ever and ever, and which cost more money 
and hurts the environment.
    Anybody disagree with that at that table? Anybody disagree 
with that?
    An old bridge and a new bridge, what was right with that, 
or why was it necessary to have it done? That was under your 
watch, by the way.
    Ms. Bear. Congressman Young, that is not a specific issue I 
was involved in, I cannot speak to that bridge. But to the 
extent that the issue is bridge replacement, I would like to 
give you an example of where NEPA did make a positive 
difference on a community related to a bridge replacement.
    Mr. Young. Did it make a difference on the fish?
    Ms. Bear. On the case I was going to mention, the fish were 
not the issue I was aware of. It was an issue affecting the 
community and businesses in the community.
    Mr. Young. I was speaking about, and I think you ought to 
consider it, that is what held up that bridge for 5 years, or 4 
years.
    Ms. Bear. OK.
    Mr. Young. That is the stupidity of this Act. Mr. Chairman, 
thank you. Because if we don't change this Act, we don't have 
the money to continue how it is being implemented by mostly 
easterners, by the way, and I am a westerner.
    [Laughter.]
    Mr. Gohmert. All right, thank you. The Chair recognizes the 
gentleman from California for 5 minutes, Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. I wish we did spend 
more time talking about how these laws are being implemented, 
and how we can make them work better, instead of constantly 
scapegoating the laws themselves, and the policies behind them. 
And I am disappointed that today's hearing seems to have been 
set up for us to simply talk past each other to try to box the 
Democratic side of the aisle in as those who are the defenders 
of delay and bureaucracy, and the Republican side as those who 
want to see major projects happen.
    If we could stop talking past each other, for example, my 
colleague from Colorado literally said NEPA has become nothing 
more than a weapon to stop projects. I would like to have a 
conversation about that, because I think he knows that is not 
true. He knows that NEPA, in 98 percent, 99 percent of 
projects, is not a source of significant delay at all. There is 
no challenge, these projects are moving forward. You are simply 
requiring public notice, public input, and an alternative 
consideration, which is, frankly, a way to make for better 
projects.
    It was said earlier, very casually, that NEPA was blamed 
for a small spillway gate project at Sugar Pine Reservoir in 
California, a project that is not even owned by the Federal 
Government. There is probably a NEPA review somewhere in the 
course of the many permits and reviews necessary to raise that 
spillway gate. But I would like to talk to my friend, Mr. 
McClintock, a little more about that project, because I am 
willing to bet, dollars to doughnuts, that NEPA is not the 
reason the review process and the planning process for that 
project cost more than the construction of that project. And to 
suggest, as the colloquy between the Member and the witness 
did, that it is somehow typical for the NEPA cost to exceed the 
project cost, we are now drifting into the realm of hyperbole, 
scapegoating, and factual distortion that just prevents smart 
policy making.
    So, I would love to get back to the real world and the real 
facts. Ms. Bear, I would like to ask you about one of the 
claims that was made to again trivialize this idea of public 
input. It was suggested that for an offshore wind project, 
lawsuits were about protecting ocean views. In reality, my 
understanding is that opponents argued that stakeholders, 
including fishermen, were simply not adequately consulted, and 
that alternatives were not identified. These are key components 
to the NEPA process: consult people who are impacted, consider 
alternatives.
    Can litigation actually argue against a project's design?
    Ms. Bear. No, that would not be a kind of claim that would 
be brought under NEPA, in terms of the design. There might be a 
claim associated with failure to look at some sort of 
reasonable alternative to that design, but the courts don't 
weigh in on the goodness or badness, so to speak, of the design 
or the project itself.
    The point of NEPA litigation is whether or not an agency 
followed the procedural requirements of NEPA.
    Mr. Huffman. All right. And what about the importance of 
this public input? There has been an effort to trivialize 
public input, to suggest that it is a circus, that people dress 
up in costumes, and that that is what public input under the 
NEPA process is all about.
    I can't help but think that right now they are cleaning up 
an oil spill in part of the Keystone Pipeline, and I wonder if 
maybe they should not have listened to the people that came to 
public meetings dressed up as fish and in tribal outfits and 
raising their posters high, instead of just listening to the 
oil executives who are now hiding under their desks and never 
seem to be around when things go wrong. Maybe we need to be 
more careful and have more public input for some of these big, 
polluting projects.
    But why do we value public input in this process?
    Ms. Bear. Because it matters, and because we are a 
democracy.
    I have seen a number of situations, I am not going to sit 
here and say every single one, but I have seen decisions 
fundamentally change through public involvement, and that 
matters. It matters a whole lot to the citizens to know that 
they have actually played a role in government decision making. 
And it has improved the environment.
    Mr. Huffman. Well, I am not claiming that NEPA is perfect, 
nobody is claiming it is being implemented perfectly. But do 
you have any thoughts to close out my time on how we could make 
NEPA faster, more efficient, more effective, without gutting 
the important purposes?
    Ms. Bear. I think it is critical to focus on 
implementation. And I don't have much time left, but I will 
just take one of several examples here.
    Mr. Howard has spoken about the 6-month delay in choosing a 
lead agency for the Bayonne Bridge. I understand why that would 
be frustrating. There is a process in the CEQ regulation, a 65-
day max to determine the lead agency. Anyone can trigger that 
process, and there are many other examples.
    I am out of time.
    Mr. Huffman. OK, I yield back.
    Mr. Gohmert. This time the Chair recognizes the gentleman 
from New Mexico, Mr. Pearce, for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman. It was interesting to 
hear my friend talking about hyperbole coming from our side, 
and in the next breath talk about oil execs hiding under their 
desks. That appears to be maybe just a little bit over the top, 
itself. But I appreciate the gentleman's observations.
    Mr. Willox, this whole idea that somehow we are overblowing 
the effects that you face on the ground, I hear from county 
commissioners, I represent a 34 percent Republican district, so 
most of the counties' elected officials are Democrats. I hear 
from them equally as much as Republicans that there are bad 
effects coming from the NEPA process that affect their forests 
and the jobs.
    So, tell me, from your perspective, is the process only 1 
percent of the time destructive? Is it more destructive? I 
don't know. Tell me from a county commissioner point of view.
    Mr. Willox. Well, I think it is important to distinguish 
between the big projects and the little projects. This is the 
draft EIS for a big project, our Converse County oil and gas 
one. We have a checkerboard ownership, minor Federal surface.
    And I talked earlier, the Federal nexus is a mile away from 
the disturbance. Why should that private land be encumbered by 
the NEPA process because we are touching Federal minerals a 
mile away? This law was written before horizontal access to 
minerals, so I think that is a bad decision when we impact 
private landowners and their surface that they own.
    The other examples are on minor projects. I talk about a 
power line in our area--you will see power lines that literally 
take two 90-degree angles, or three, to go around Federal 
surface so they don't have to go through the process and the 
cost of the shortest, most reasonable route that would have the 
least impact on the environment. So, the negative consequence 
of following that process is we build a longer power line with 
more disturbance that costs more. Absolutely against the goals 
of making positive decisions for the environment, and informed 
decisions.
    Mr. Pearce. You are just mentioning the 1 percent, so 99 
percent is OK?
    Mr. Willox. No, the----
    Mr. Pearce. OK, I just wanted to clarify.
    Mr. Willox. To be clear, the power lines are in that 99 
percent, because it falls under those small----
    Mr. Pearce. I am just razzing you, thank you.
    Mr. Willox. Yes, thank you.
    Mr. Pearce. I appreciate that.
    Mr. Bridges, you heard Ms. Bear say that one of the great 
benefits of NEPA, I think it was in response to the question if 
there was no NEPA, that people would be surprised by the things 
that are happening, that it is important to know in advance. 
How many projects do you think your association would move 
forward without notifying people that it is going on?
    In other words, I am trying to evaluate the validity of the 
comment that was made by a fellow panelist. Do you keep things 
kind of secret, and the only reason you bring them up is 
because of the NEPA process?
    Mr. Bridges. No, I don't think it would be secret. But I 
also agree that we have heard some great examples from Ms. Bear 
and others about collaborative things that happen and things 
that get put into projects, mitigation and things that may not 
have happened. And those are good things. I just have not had 
that personal experience during the hearing processes with 
that.
    We have had success in working with the private investors 
that are wanting to spend the money in our state.
    Mr. Pearce. OK. All right, I need to keep rolling. Mr. 
Howard, the same question. Do you keep things silent, hidden 
below the dark, and they only surface because of NEPA?
    And I need a quick answer on that.
    Mr. Howard. No one in modern America would be smart to do 
that. I come at this as a civic leader, so I am used to really 
dumb decisions by public officials on projects that make no 
sense, and opposing them.
    I do think that NEPA is important, and I think the public 
role ought to be beefed up, not cut down. As I said earlier, it 
should be done earlier in the process, you really get 
meaningful feedback, rather than after you have a 1,000 or 
10,000-page environmental impact statement.
    Public input is important. What is not important are 
academic studies and bickering over whether you disclosed 
something accurately in page 556.
    Mr. Pearce. All right. I have another question I need to 
ask here. I get the idea, and I appreciate your input. Sorry to 
rush along.
    Mr. Willox, what is the effect on the schools when we kill 
the jobs in these rural areas? I suspect Wyoming has some areas 
much like my district, very massive rural areas. The only jobs 
used to be keeping our forests clean. Now we are burning our 
forests down, but it doesn't take any jobs to do that. So, what 
is the effect on our schools when we don't have these clean-up 
projects in our forests?
    Mr. Willox. Well, you are absolutely right. The local 
economies are hurt any time we lose jobs for any reason. And 
forestry was a big part of parts of Wyoming. Some of those have 
converted to firefighters, which is a very unfortunate 
transition, from timber to firefighting.
    So, not just the schools, but the community and all that is 
part of that community is hurt any time jobs are lost for 
reasons that seem to be out of the control of the locals, and 
seem to not be in the best interests of the local socio-
economic environment.
    Mr. Pearce. OK, thanks.
    I yield back, Mr. Chairman, thank you.
    Mr. Gohmert. Thank you. At this time the Chair----
    Mr. Grijalva. Ms. Barragan and then----
    Mr. Gohmert. OK, the Chair recognizes the gentlelady from 
California, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman. I wanted to follow 
up on this. It seems like we are hearing a lot of complaints 
about NEPA, horror stories about the Act holding up economic 
development. Some of my colleagues have said it is not true. I 
am one of those, that it is less than 1 percent of instances 
where NEPA causes these delays.
    We just had one of my colleagues question Mr. Willox about 
what is happening in his county, and whether it is actually 
less than 1 percent. And I just want to remind everybody that 
the actual figure we are using is coming from a report that is 
being cited not just by our side of the aisle, but the other 
side of the aisle. It is a 2014 U.S. Government Accountability 
Office report. So, I would much rather focus on what we are all 
relying upon than just one select county.
    Ms. Bear, I wanted to give you an opportunity. You had 
started to give an answer about some of the implementation 
suggestions you had. Did you want more time to complete that 
response?
    Ms. Bear. I appreciate that. One of these days I will learn 
to hit the button. Apparently I am a slow learner on that.
    Anyway, yes, I do appreciate that opportunity. I wanted to 
make several observations about issues that have been brought 
up in the testimony that I am very sympathetic to, but that 
really run to the point of implementation issues because of 
either lack of staff or, frankly, staff that have not been 
given appropriate training to do their jobs. I have met some 
staff people who have been given NEPA assignments and, frankly, 
don't know anything about it.
    I already mentioned very briefly, Mr. Howard has used the 
example of the 6-month dispute over a lead agency there, and 
also the need for a decision maker. There is a dispute 
resolution process specifically geared toward CEQ making a 
final decision in the case of a dispute over a lead agency and 
affected parties. Mr. Howard could have brought it, anybody 
could bring that in to CEQ, and CEQ has 20 days to make that 
decision, and it is a final decision.
    Mr. Bridges pointed out the difficulty and frustration of 
having two separate environmental impact statements done: the 
Federal EIS, and I think, I could be wrong, a 13,000-page state 
EIS. That is horrifying. And it is one of the things that I 
found saddest when I was trying to do oversight for many years, 
as the only person overseeing 85 agencies. That never should 
have happened, unless there was some very extraordinary 
circumstance. That should have been a joint EIS. The agencies 
should have done it together to fulfill both the state and 
Federal requirements.
    The ID teams, the early involvement and ID teams that Mr. 
Willox mentioned, absolutely. The county and the state, if it 
is appropriate, the tribe, and the tribal government, if there 
is one involved, should all be at the table, should be part of 
the ID team, and should be making major contributions about 
areas that they are very familiar with, including the social 
and economic structure of the community.
    There are many more examples, but I just wanted to pick 
some that were relevant here. All of those are already 
addressed in the CEQ regulations, or CEQ guidance. Clearly, 
they are not being perfectly implemented. And we are never 
going to get to perfection, but I think we could do a heck of a 
lot better, in terms of implementing it, with adequate 
capacity.
    Ms. Barragan. Great, thank you. When I looked into this, I 
reached out to my own area in Los Angeles and heard success 
stories. The Los Angeles County Metropolitan Transportation 
Authority's Crenshaw/LAX transit corridor project was one of 
the Federal Transit Administration's first projects piloting a 
new NEPA process that helped identify and mitigate project 
risks more efficiently through the project review process.
    The Transportation Authority determined that a 5-mile 
stretch of the project could actually utilize a rarely used 
existing freight rail line corridor, instead of building new 
tracks in that section. The railroad agreed to abandon the line 
and allow the Authority to use it. That decision decreased 
project cost, saved time, and reduced disturbances for a nearby 
community by using an existing right-of-way, while providing 
significant environmental benefits, economic development, and 
employment opportunities throughout Los Angeles County.
    Ms. Bear, is this the kind of outcome that NEPA was created 
to produce?
    Ms. Bear. Absolutely, yes.
    Ms. Barragan. Thank you.
    I yield back.
    Mr. Gohmert. Thank you. At this time, the Chair recognizes 
Dr. Gosar from Arizona for 5 minutes.
    Dr. Gosar. I thank the Chair. Mr. Chairman, I just heard a 
conversation from my colleague from California about talking 
past ourselves and bringing up issues. It has been noted that 
the Minority witness is one of the chief litigants from one of 
the major litigation groups in the country.
    I have this document, it says donate here, the name is 
right on the front, here are over 500 litigations from the 
Defenders of Wildlife, right here. I find that kind of 
interesting, that when we are talking about solutions, that we 
would bring a headhunter like we have right here.
    Number two, we might be a form of democracy, but we are a 
representative republic. And I caution everybody to make sure 
you understand that. It is a higher degree in that regard.
    Mr. Howard, in your written testimony, you mention that 
former EPA General Counsel E. Donald Elliott estimates that 90 
percent of detail in Federal impact statements is there not 
because it is actually useful to the public or decision makers, 
but because it might help in the inevitable litigation--a form 
of environmental ``defensive medicine.'' Has the original 
purpose of the NEPA been lost in its quest to have the most 
litigation-proof NEPA environmental review?
    Mr. Howard. The original purpose has been undermined by 
this form of implementation that really makes it inaccessible 
to the public and not practical for reasonable decisions.
    Dr. Gosar. So, how has the NEPA litigation shifted the 
balance of power of who is ultimately in charge of permitting 
projects and held accountable for those decisions?
    Mr. Howard. The litigation over NEPA in many cases shifts 
power to opponents who can then use it to achieve--sometimes 
these benefits may be in the public good, and sometimes they 
are for the good of the group.
    So, for example, in the Bayonne Bridge, the group funding 
the litigation against the environmental impact statement was 
the union for the Port Authority, which wanted to use the 
litigation as the lever to get the port to agree to be a closed 
union shop. They were using the NEPA litigation as a lever to 
get something that had nothing to do with the environment.
    Dr. Gosar. So, the fact that I brought up these 500 
litigations actually has a big influence upon that process, 
does it not?
    Mr. Howard. It does.
    Dr. Gosar. Interesting. So, Mr. Willox and Mr. Bridges--
first, Mr. Willox. There are some who would argue that because 
the number of projects that require an environmental impact 
statement is small compared to the overall number of projects 
reviewed, that reform is not necessary. The assumption here is 
that companies pursue projects without considering the 
realities of navigating the NEPA process. We know that is not 
true.
    Can we actually quantify the number of projects that are 
never initiated due to the lack of confidence in the efficiency 
of the Federal approval process? Mr. Willox first.
    Mr. Willox. Unfortunately, I cannot quantify that for you, 
but it is a daunting task. We are 4 years into an oil and gas 
project in Converse County. The environment for oil and gas 
development is entirely different than when they started the 
project.
    So, for private companies to try to forecast and work 
through a process like this, and not know what their business 
environment is going to be like at the end of it, is for some 
an unreasonable risk to take, so they look for avenues that may 
avoid that.
    Dr. Gosar. So, it is like moving the goalpost?
    Mr. Willox. The goalpost is always moving. Then you throw 
14 referees in the middle of it, it makes it a little hard.
    Dr. Gosar. And then you have this in the background, any 
little thing may be sued upon.
    Mr. Bridges, your opinion?
    Mr. Bridges. I would agree with Mr. Willox on that. Just 
from my personal experience, the goalpost continues to move and 
evolve. And that is all we are really looking for, 
predictability. And I think that is what business is looking 
for. When you have a project that you want to get built, and 
you have the community and business behind it, some reasonable 
timelines would be great.
    Dr. Gosar. So, the two of you, have you ever encountered or 
observed a situation where, prior to initiating a new project, 
you have seen a threat of an extensive NEPA play a final impact 
on the final review, or going forward with that project? Have 
you seen a project like that, Mr. Willox?
    Mr. Willox. I have not seen one specifically. Anecdotally, 
I have heard it, but not in our area. But I could visit with 
more colleagues in our area to find out if people have said no.
    But it also affects government projects. If we want to do 
something, if local government wants it, we can trigger that. 
And there are times that that cost or implementation is 
definitely a consideration at the local level, whether to move 
forward with a road improvement project or something like that.
    Dr. Gosar. I think everybody should acknowledge that it is 
not just about being no or about being yes, but how do you do 
it right?
    Mr. Willox. Correct.
    Dr. Gosar. And that is the key here. Instead of just saying 
no, no, no, no, no, it should be about what is it going to take 
to be yes.
    Thank you, and I yield back.
    Mr. Gohmert. Thank you. This time the Chair recognizes the 
gentleman from California, Mr. Costa, for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member, for holding this hearing today, and having the 
opportunity to review how we might improve the National 
Environmental Policy Act, otherwise referred to as NEPA, that 
was first implemented when President Nixon, on January 1, 1970, 
signed it into law.
    Having sat through more of these hearings than I care to 
recount, I guess I kind of have an idea on how this one is 
going. My colleagues across the dais will talk about delays 
that have occurred as a result of NEPA for a host of reasons, 
like permitting under other laws. Of course, we do, as the 
witnesses have testified to, have that complicating factor of 
state and local laws that are done in conjunction with, but are 
not actually required by the environmental impact review 
process under NEPA.
    Most reasonable people, I think, would agree that some of 
the delays are caused by an abuse of the National Environmental 
Policy Act by stakeholders who want to delay or even stop a 
project to extract concessions or some resulting legitimate 
debate about reasonable alternatives that the Federal 
Government might pursue.
    Some of my colleagues on this side of the dais will say 
that NEPA is not the real cause of these delays, and that our 
Republican colleagues are simply trying to weaken or eliminate 
environmental laws. I have said a number of times, there is 
truth in both observations.
    But relating anecdotal stories doesn't count all the 
changes that have occurred since 1970 in what clearly is a much 
more litigious society that we live in today than back in the 
1970s and the 1980s, and I think we need to get past it.
    In 2015, in a transportation bill, we did amend NEPA to, I 
think, provide a better way in which we can process this 
effort. But at the end of the day, working together with 
Republicans and Democrats is the only way we are going to 
improve the environmental review process under NEPA, and to 
increase responsible public agencies, and also to ensure the 
right projects are built at the right scale in the right areas 
in a timely manner. And the timely manner gets to the point.
    I will give you an anecdotal story. In 2011, some of my 
colleagues were in the state legislature. I had been there up 
until 2002 for many years. We waived a portion of the state 
equivalent under CEQA for a football stadium. We know a lot of 
these things deal with not only public policy, but the politics 
on a host of these projects. It was determined in the public 
interest that this stadium was very important. So, we limited 
the time for judicial review, and we waived the period to deal 
with the superior court, so that if there was a suit brought 
forth, it would have to go to the appellate court.
    I don't know if that was good public policy or not. But the 
point is that, for reasons that we thought were meritorious, be 
they political or otherwise, we changed the law. OK?
    So, nothing is perfect. Nothing is set in stone. I think 
the Congress was designed to function and to provide oversight 
and review, and a lot has changed since 1970. And I think it is 
appropriate, and I would like to see changes in NEPA, that we 
would try to figure out how we chart a course to pursue good 
public policy.
    Ms. Bear, I was taken by your comments, because I think 
whether we are Republicans or Democrats, rich or poor, the 
economy and the environment, everyone has a stake in ensuring 
that good public policy is pursued, that we do not delay and 
have sort of tactics that really deal with people who don't 
want a project.
    But you talked about some observations you had, joint EISs, 
having multi-agencies work together. What reforms would you 
recommend, with your experience working with Democrats and 
Republicans, and you are involved with CEQ, on how we could 
make a better mousetrap, for lack of a better term?
    Ms. Bear. There are a number of provisions in the CEQ 
regulations that were specifically designed to reduce delay. 
Many of those are not getting implemented on a regular basis. 
And I would like to see some serious oversight on why those are 
not getting implemented.
    In terms of changes to the statute, I don't think that is 
necessary to expedite the process. I really do think most of 
this is implementation issues. There are other reasons for 
delays, of course, besides NEPA that get caught up in the NEPA 
process, including compliance with other laws, funding 
proponents, changing plans.
    In California, which is also my home state, there is a 
provision, as I understand it, in CEQA that allows the state to 
essentially use the Federal EIS; although sometimes, for other 
reasons, California does do joint documents. But certainly 
better coordination between the state governments and the 
Federal agencies is a big part of what could be improved.
    Mr. Costa. Can you supplement a state law for a Federal 
law, if it exceeds the requirements?
    Ms. Bear. There is a pilot project essentially right now 
under the FAST Act for that. And CEQ has recently published for 
public review and comment criteria that would define that. So, 
we will see how that works. That already is part of the law.
    Some states like California certainly have capacity for 
that, and a lot of experience under CEQA. The majority of 
states don't have a ``little NEPA law'' like California and New 
York City and New York does, so I think that would be much 
harder for the states.
    Mr. Gohmert. Your time has expired.
    Mr. Costa. Thank you. You might want to provide the 
Committee with maybe some subsequent information that might be 
helpful.
    Ms. Bear. Sure, happy to supply more for the record.
    Mr. Gohmert. Thank you. At this time, the Chair recognizes 
Mr. Tipton for 5 minutes.
    Oh, I am sorry. I recognize Mr. Hice for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman.
    Mr. Howard, is it fair to say that the NEPA review process 
is very costly, as a general rule?
    Mr. Howard. Yes. For large projects, many millions of 
dollars, not counting the time.
    Dr. Hice. And with that, obviously, it is also time 
consuming.
    Mr. Howard. Yes.
    Dr. Hice. Many of you have mentioned that, in essence, this 
becomes a magnet for litigation, would you agree?
    Mr. Howard. For many large projects, yes.
    Dr. Hice. It is just set up for that. Others of you agree, 
basically, with this?
    Mr. Bridges, you mentioned earlier about many people coming 
from, and others did as well, not the local area, but from 
extended areas, particularly for the Millennium Bulk Terminal 
project. In the process of those individuals coming, would you 
say that at least portions of the project were hijacked by 
those individuals for their political agenda, whatever that may 
have been?
    Mr. Bridges. That is what it seemed like to us. It seemed 
to be more based on the particular commodity or whatever, 
instead of actually looking at using the process to look at how 
it really impacts the state and the area.
    Dr. Hice. That is the impression I got, that is why I am 
using that.
    Mr. Willox, would you say as well that that is frequently a 
reality?
    Mr. Willox. It definitely exists. I don't know if it is 
frequently, but there definitely is some of that. We had 
comments come from Germany and Europe on prairie dogs in 
northern Converse County that the agency must consider and look 
at. That seems to be a time sink to me, that the agency's time 
could be better spent.
    We talked about staffing. Why review comments from foreign 
countries on prairie dogs? It seems not the best use of 
resources.
    Dr. Hice. Not exactly local. All right, so GAO has said we 
are looking at an average of 4\1/2\ years.
    Mr. Howard, I think you said 4.6, is that correct?
    Mr. Howard. That is correct, yes.
    Dr. Hice. All right, so this is, in any way you look at it, 
a cumbersome process, not exactly the intent of Congress 
originally in 1970.
    Mr. Howard. Early environmental impact statements were 
dozens of pages long. And the regs say that even in the largest 
projects they should never be more than 300 pages.
    Dr. Hice. Would you say that your view is that public 
comment ought to come earlier in the process? With them coming 
as they currently are, is that detrimental?
    Mr. Howard. Yes. I think there should be informal and 
perhaps some formal public process before the environmental 
review is done to talk about the project, and get the public's 
concerns. It is really important to get public input.
    After the project is done and you have a multi-thousand-
page report, you end up having this thing that often does 
resemble a circus, and people are just justifying their 
decisions.
    Dr. Hice. And having public opinion at that point creates 
more problems?
    Mr. Howard. It creates many problems. Sometimes some good 
comes of it, but not nearly as much as if you do it earlier.
    Dr. Hice. All right. Mr. Bridges, with you, on the public 
input part of things, your experience in both observing and 
participating in all this, what have you observed with the 
public input?
    Mr. Bridges. Well, I think I mentioned this earlier. It 
seemed to be that, because of the way the process works, people 
get involved later on after the draft EIS is out, and it is so 
publicized, it is in the paper, it is advertised. It allows 
these groups, the coalitions, to get together. And, I think, it 
prohibits the people in the public that really want to 
participate, because they do not want to have to pick a side. 
They want to go and do what Ms. Bear talked about, and talk 
about what they want to see in mitigation, or their real 
concerns, not be part of the sideshow.
    Dr. Hice. So, again, your experience right now, the public 
input part as it currently exists, is it detrimental to the 
overall project?
    Mr. Bridges. I think so, yes. It just adds drama that does 
not need to be there, instead of dealing with the real facts of 
the project.
    Dr. Hice. All right, with the Millennial Bulk Terminal 
project, for example, how is the public input part being 
detrimental?
    Mr. Bridges. I guess because there really is not any 
limitation, it discourages people that would participate to 
stay on the sidelines, and it just leaves it to the proponents 
and the people that are fighting. So, there does not seem to be 
a middle ground of like what Ms. Bear was describing in some of 
the transportation projects.
    That is where I would like to see things, where we are 
working together to try to get this stuff done. But right now 
it is----
    Dr. Hice. I will yield back. But you say it is detrimental 
to the project itself, as well. I just want clarification.
    Mr. Bridges. Yes.
    Dr. Hice. OK, yes. Thank you, Mr. Chair.
    Mr. Westerman [presiding]. The gentleman's time has 
expired. The Chair now recognizes the Ranking Member, Mr. 
Grijalva, for 5 minutes.
    Mr. Grijalva. Thank you very much, Mr. Chairman. And thank 
you, Ms. Bear, for being with us. Good to see you again. And 
your expertise on this, on NEPA, is one of the best in this 
country, and we appreciate that and your advocacy on a variety 
of issues.
    But let's talk a little bit about a comment that my 
colleague, Mr. Huffman, made about our side of the aisle here 
just defending the status quo of NEPA, and not acknowledging 
anything else in there. Part of the status quo has been, from 
2011 until now, less resources, less training for staff, less 
staff. And you kind of build this self-fulfilling prophecy 
around NEPA, that because NEPA is taking so long, that there 
must be other, more dramatic efforts that need to be undertaken 
to reform NEPA, such as eliminating it, constricting it, and 
putting mandates on it that effectively will kill the public 
input that is the whole point of NEPA.
    I find it curious in some of the comments that by inviting 
public input we somehow limit other public input. I do not 
understand the logic of that.
    Could you talk a little bit about resources in the agency? 
You already mentioned the training.
    But also, when projects are delayed, there are also delays 
associated with the lack of funding and adequate funding for 
that particular project to go forward, and somehow NEPA ends up 
getting blamed for that. And the remedies that already exist 
within NEPA to deal with some of the issues that have been 
brought up by my colleagues in the Majority, if you wouldn't 
mind.
    Ms. Bear. Right. And I think I already mentioned some of 
those.
    Just at the beginning, if you don't mind, I want to take 1 
second to say that I am appearing here in my own capacity. I 
just want that on the record, as former General Counsel, not 
representing any organization, although I am very proud to be a 
member of Defenders of Wildlife.
    In terms of the time delays and the capacity issues, let me 
just give a couple of quick examples. I think I already alluded 
to one, which was an agency that essentially stopped appointing 
anybody with any NEPA expertise to do NEPA, and told everybody 
in the agency that they had to ``do NEPA,'' who had not been 
trained. That is kind of a recipe for inefficiency.
    In another situation, I met a gentleman who had been told 
he was the regional coordinator for NEPA. He had spent 6 months 
getting questions from staff on how to do things, didn't even 
know who to call to ask. Fortunately, he did come to a forum 
where I and some of my colleagues were doing some training, and 
he had yellow pads full of questions that he had written down, 
didn't know the answers. I spent an evening with him going over 
every question.
    So, those kinds of things certainly hurt. But one of the 
things I found that nobody has mentioned, and I am not trying 
to cast aspersions on proponents, but proponents sometimes make 
major changes in their projects for good reasons, but they hit 
the pause button in terms of giving information to agencies, or 
it has changed enough that there needs to be a change in the 
analysis. And you have already alluded to funding.
    There are a lot of remedies I would love to talk at great 
length about, some of the issues, I have already mentioned 
doing joint EISs with the state and Federal Government. There 
is a lot of flexibility.
    Mr. Grijalva. And the utility of CEQ, in terms of being 
arbitrator, mediator----
    Ms. Bear. Right.
    Mr. Grijalva [continuing]. And that point of decision 
making, so when the issue of we don't know who the lead agency 
comes up, that there is a mechanism to settle that.
    Ms. Bear. Yes. There are two formal dispute resolution 
processes in the CEQ regulations, and the Supreme Court has 
said on numerous occasions that lower courts owe ``substantial 
deference'' to CEQ's interpretation of NEPA, and that no court 
has ever overturned that or questioned that.
    Mr. Grijalva. OK. Thank you very much.
    Mr. Bridges, in terms of the Millennium project that your 
testimony addresses, the role of the State Department of 
Ecology in that, they are in support of the project at this 
point?
    Mr. Bridges. We have one permit and we have others that 
have been challenged that are in appeal.
    Mr. Grijalva. So, is that particular action at the state 
level, is that contributing to the delays that you talked about 
earlier?
    Mr. Bridges. Yes, I think so.
    Mr. Grijalva. So, one cannot place the entire 
responsibility for your complaints about delay entirely on the 
NEPA process, in so far as the Department of Ecology for the 
state has not given you complete green light.
    Mr. Westerman. The gentleman's time has expired. The Chair 
now recognizes Mr. Tipton for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman, and thank the panel 
for taking the time to be able to be here.
    I think what I found interesting is, on both sides of the 
aisle, people are talking about a NEPA that does need some 
changes. It is not perfect. That seems to be a common thread 
that is going through, to be able to make sure that we can 
actually have those opportunities to be able to have real win-
wins.
    And I do find it disturbing when Mr. Willox is stating that 
we are getting comment, though, coming in from Germany having 
the full weight of an American citizen being able to comment on 
those projects, and taking in that consideration.
    And maybe just to go off of the foreign connection end of 
it there, Mr. Howard, you had cited in your testimony, I 
believe, how long did it take in Germany to be able to get an 
approval process?
    Mr. Howard. The most complex projects typically take less 
than 2 years, 1 to 2 years. Environmental reviews generally 
finish within 1 year, again, on complex projects. But it is not 
because they are less environmentally sensitive, it is thought 
to be a much greener government and society than America, it is 
because they have clear lines of authority to make decisions.
    Mr. Tipton. So, that streamlining process, that authority, 
is something that is going to be really critical.
    Mr. Howard. Authority is critical in a culture, and the 
fact that there is a procedure to appoint a lead agency and to 
make a formal request to appoint it is not a substitute for an 
official who says it is my job to make sure this moves along, 
and I want to make the decision.
    So, processes take a long time to wind their way through.
    Mr. Tipton. Could you maybe describe for me, with that 
streamlining, I think Ms. Bear had talked to it, as well. What 
if a lawsuit is filed? Even though you have had it streamlined, 
you have had an approval, if a lawsuit is filed, will that hold 
up a project?
    Mr. Howard. Lawsuits do hold up projects, typically. It 
depends on the project. The kinds of lawsuits we have been 
talking about are disclosure lawsuits at the end of an 
environmental review. That is typically when they are brought.
    Much of the delay comes in the internal processes of first 
you do this, and then you have to have the scope, and then you 
do the scope, and then you come back, and then this agency is 
disagreeing with that agency, and then they schedule a meeting, 
and before you know it, years have gone by.
    Mr. Tipton. So, you are on the cusp of approval, and then 
that is when the lawsuits will happen. I think you and Mr. 
Bridges have both cited in your testimony that at times the 
process has been hijacked, almost, by litigation coming in from 
activists to be able to just literally stop a project.
    In my own district in Colorado, we have a mining project 
that is currently 8 years in the process right now to try to be 
able to get the approvals, have constant lawsuits which are 
coming up that are stymying that. And it is impeding, actually, 
the ability to be able to achieve what I think on both sides of 
the aisle we would hope our goal is, is to be able to have 
adequate environmental review, and to be able to keep the 
trades working, and people employed, and people to be able to 
provide for their families.
    Mr. Bridges, Mr. Howard, can you maybe give us, we have had 
a few ideas Ms. Bear has thrown out, how do we actually fix 
this to make sure that process is addressed?
    Mr. Howard. We have proposed legislation attached to my 
testimony. But making it clear, create clear lines of authority 
to make decisions about scope and adequacy of environmental 
review in CEQ, just making it clear that that is their job, 
that is one thing.
    Second, making it clear to courts that litigation would be 
countenanced unless there are sort of either illegalities, 
omissions, or misstatements that materially affect the 
environment, not a sort of a nitpicking thing, and creating an 
expedited timetable to do that.
    If you had an expedited timetable and you had clear 
decision makers, you could constrain these processes from 8 to 
10 years down to 2 years, we think, without more legislative 
action than that.
    Mr. Tipton. Mr. Bridges, in the last 35 seconds, do you 
have something to add?
    Mr. Bridges. Nothing really to add to Mr. Howard, except 
just the timelines are key, just to keep things moving and have 
a predictable timeline.
    Mr. Tipton. Great. Thank you, and I appreciate you being 
here.
    I yield back, Mr. Chairman.
    Mr. Westerman. The gentleman yields back. The Chair now 
recognizes the gentleman from California, Mr. LaMalfa, for 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you, panelists, 
for being here with us today.
    My district is in Northern California, where we have a lot 
of issues with timber, timber management, and water management. 
We have two very large lakes, Lake Oroville and Lake Shasta, 
and two large river systems, Feather River and Sacramento 
River, as well as highway projects, and a potential water 
storage project called Sites Reservoir in my neighboring 
district to the west side of the Valley.
    I find that NEPA and California's level CEQA are very 
effective tools to stop development. And I certainly understand 
the need to have a review, and a review process, but each year 
hundreds of thousands of acres burn on forest land in 
California, so you would think that, after that has occurred, 
and you have a window of time to recover timber that still has 
some value there, 6 months, even up to a year, you can help pay 
for the cost of refurbishing the forest by getting out there 
and getting after it.
    So, why in the world do you need a NEPA to do something 
that is already an established practice on a pretty well-known 
zone? Yes, certainly, you figure out where the waterways are, 
and you don't drive tractors through the streams, et cetera. 
But then you also have to counter-balance, and this is what I 
think we need.
    The Forest Service and others need to use the NEPA on their 
side of the issue, on the management side of the issue. What 
are we doing by not taking action with forestry, salvage, 
either salvage after a fire or ongoing when you have drought, 
when you have over-crowding, over-inventory of forests with way 
too many trees per acre on the drought?
    Mr. Willox, could you touch on a little bit, would Forest 
Service actually be able to use NEPA and set a blueprint, not a 
NEPA every single time you have to do 100 acres? I mean, that 
is just a real great thing for the cottage industry of people 
out there preparing NEPA--how many pages do you have in those 
two binders there? It must be, what, 400, 500?
    Mr. Willox. Oh, close to 1,000.
    Mr. LaMalfa. Is there 1,000 in that?
    Mr. Willox. There are 500 in that one and 500 in that one, 
front and back, small print.
    Mr. LaMalfa. If we were to open to that, to anywhere, and 
just pick, say, two-thirds of the way through, what would two 
lines say in there? Would they say anything that actually meant 
anything? How can you put that many words in a binder that 
actually mean something on managing a forest, or managing a 
levee, or building a highway? What words can you come up with?
    Mr. Willox. This particular page is talking about school 
districts and their enrollment on the social economic part of 
it, but I can assure you that the social economic part is 
smaller than the air quality analysis.
    Mr. LaMalfa. Is that all boiler plate they use from CEQA, 
or NEPA to NEPA document? Or do they have to reinvent it every 
time they have something that might be near a school district?
    Mr. Willox. It is reinvented for the school district, 
specifically.
    But going back to your original question on the forest, if 
you have a forest plan that you can manage an entire area under 
a document, then you would not have to do individual, small 
ones, you could take a broader landscape approach view to how 
you should do forest health, because it is inter-related.
    You could do one in the front range of Colorado. You could 
do one for the southern Wyoming and then be able to harvest 
that.
    Mr. LaMalfa. Like we have in California, the northwest 
forest plan.
    Mr. Willox. Yes, absolutely.
    Mr. LaMalfa. So, it is supposed to be regional, you would 
have a blueprint to do anything you need to do, without having 
to stop the works.
    Again, when you are getting back to timber salvage----
    Mr. Willox. Correct.
    Mr. LaMalfa [continuing]. You are losing the time, the 
window to salvage that timber. Now it has become useless. And 
there is not enough money in any Treasury to do all the 
millions of acres that need to be done at a non-profit level. 
And that is the sad thing with all this.
    Mr. Willox. I think the thing that the NEPA process causes 
a problem for is sometimes there is an emergency or a short-
term situation that you need to get in there in a reasonable 
time, and the current time frame that we exist under sometimes 
does not allow it to be reasonable to get in there, let alone 
even allow it to be in there.
    Mr. LaMalfa. Well, thankfully, I also have Lake Oroville, 
where the spillway broke this last February, and we were able 
to put aside some things because it was an emergency 
threatening downhill communities, and maybe the integrity of 
the dam. But again, we are losing opportunity to make the area 
safer.
    Maybe, Mr. Bridges, you would like to touch on this a 
little bit. We had a lot of great jobs that were being done up 
there on the dam recovery, as well as a potential project 
called Highway 70 south of Oroville and Butte County, which 
would be the last link to actually have four lanes all through 
a fairly populous county. Yet, my understanding of the cost is 
it is going to be $30 million to do a combined NEPA and 
California CEQA environmental document to add a couple lanes to 
an already-existing highway. It is already there. No new sin is 
being committed. More lanes and anywhere from 2 to 4 more years 
of study. Please touch on what that means, as far as getting 
the work done and getting the jobs out there.
    Mr. Bridges. It sure sounds like a lot for what you are 
describing, just to add a couple of lanes. It just seems that 
would impact, that is all going to be running through 
California's budget.
    Mr. Westerman. The gentleman's time has expired.
    Mr. LaMalfa. Federal money and state money, yes.
    Mr. Westerman. The Chair now recognizes the gentlelady, Ms. 
Bordallo, for 5 minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. I apologize for 
being late. I had another committee hearing.
    Ms. Bear, I have a question for you. Thank you for your 
career of service under both Republican and Democratic 
administrations at the White House Council on Environmental 
Quality.
    The U.S. Department of Defense is among our largest Federal 
management agency. Can you please speak to the role the NEPA 
process plays in holding the Defense Department accountable to 
concerns raised by local communities?
    Ms. Bear. Sure. The military services, in my experience 
while I was at CEQ, there are some exceptions to this, but as a 
general rule, they are some of the most efficient agencies in 
implementing NEPA. But it is critical to the communities around 
installations and bases that they do so.
    And I had a number of experiences with private citizens--
this is not an area, frankly, where either trade associations 
or a lot of public interest groups tend to focus. But private 
citizens in the communities around military installations focus 
a lot on what changes are going to be impacting their 
businesses and quality of life.
    And just to give a short example, a lady called me one day 
at the CEQ. She had never heard of NEPA until the week before 
she called me. And that is true of a lot of citizens, they are 
not familiar with the law until something happens to bring it 
to their attention. She ran a small recreation business in New 
Mexico. I think it was near a mountain range, and there was a 
lot of recreation. And part of the base was also used for 
recreation.
    Long story short, she found our regulations. She told me 
that she read the entire booklet of regulations out loud to her 
husband while they were driving back from Las Vegas. They were 
still married at the end of the trip, which I thought was 
interesting.
    But seriously, she was so excited to learn that there was a 
framework where she could talk to the Air Force, and that they 
had to respond to her about the changes they were proposing, 
which were going to reduce recreation opportunities, that she 
would have a chance to have input into that.
    That is just one example. There are a lot of examples in, 
of course, Hawaii and other places in the Pacific, where it is 
certainly critical.
    Ms. Bordallo. Thank you. I have another. Do you see a 
connection between enactment of the National Environmental 
Policy Act, the NEPA, in 1970 and better public health and 
environmental safeguards at U.S. military installations today?
    Ms. Bear. Yes. I think the passage of NEPA and some of the 
other laws that were passed in the 1970s have done a lot to 
raise the military consciousness, and again, this is a wild 
generalization, but a lot of installations on bases try very 
hard to be good environmental citizens, but that was spurred by 
the passage of those laws.
    Ms. Bordallo. Right. I just have a comment to make, Mr. 
Chairman. On Guam, more than one-fourth of the island is U.S. 
Department of Defense land. The NEPA is oftentimes the only 
mechanism for the public to have a seat at the table so their 
voices are heard.
    Absent the NEPA process, those on Guam lacking on-base 
access privileges would have no way of influencing or even 
knowing about decisions made by the Defense Department 
affecting our island. I just wanted that information to get to 
you.
    And I think that is just about it. I have one more 
question. Do I have any time? All right.
    Do you agree that the NEPA process generally results in 
well-planned projects, and ultimately more responsible Federal 
decisions for taxpayer resources?
    Ms. Bear. Generally, yes.
    Ms. Bordallo. Yes. All right. Thank you, Ms. Bear.
    And thank you, Mr. Chairman. I yield back.
    Mr. Westerman. The gentlelady yields back. The Chair now 
recognizes the gentleman from Louisiana, Mr. Graves, for 5 
minutes.
    Mr. Graves. Thank you, Mr. Chairman. Thank you all for 
being here. Ms. Bear, thank you for your government service 
over many years.
    I have a question. The National Environmental Policy Act 
applies to projects that involve Federal dollars, Federal 
lands, or events when Federal waters, for example, may be 
impacted. If those criteria are not met--I believe there are 
four criteria, as I recall, in terms of triggering the 
application of NEPA.
    So, for example, if a private entity, if a state entity, or 
a local entity wanted to carry out a project that did not cross 
those thresholds, would NEPA apply?
    Ms. Bear. No.
    Mr. Graves. OK, so in most instances NEPA would not apply.
    Mr. Chairman, I think it is important to point out that the 
majority of projects that are carried out across this Nation do 
not go through a NEPA process. And the reason I point that out 
is because there were some comments that were made earlier that 
suggest, I think the question was asked if NEPA were eliminated 
what would happen. And that question was somewhat bizarre, and 
I think it was unfair, because it is based upon a premise that 
our local governments, our state governments don't care about 
the environment. And I refuse to believe that.
    As a former state government employee, I spent much of my 
life working on efforts to find the right balance. In fact, I 
would argue that we probably did more to restore our coastal 
resources in Louisiana than anywhere else in the United States. 
It is fascinating to me that that seems to be lost.
    So, I want to say it again: The majority of projects 
carried out across the United States, NEPA does not apply. And 
in many cases, there are public engagement requirements by 
local governments, by state governments, and others that would 
apply, that would allow for an opportunity for the public to be 
engaged in projects.
    Ms. Bear, I am not sure if you are familiar, but I believe 
you were at CEQ at the time. Following Hurricanes Katrina and 
Rita in 2005, CEQ, and I want to thank you to the extent you 
were involved, helped work with us and the Corps of Engineers 
to negotiate alternative arrangements for compliance with NEPA. 
Without getting into all the details, because as I recall it 
was a pretty thick document, we were allowed to go through this 
IEPR process where we were able to effectively do the 
environmental mitigation and quantifying of environmental 
impacts after the fact. Most of the environmental groups--in 
fact, I am not going to say my memory is perfect, but I don't 
recall a single environmental group indicating there were any 
problems that resulted from that.
    Do you recall that, or other experiences, where alternative 
arrangements were worked out?
    Ms. Bear. Yes.
    Mr. Graves. And where it didn't result in a detriment to 
the environment?
    Ms. Bear. Yes. There is a provision in the CEQ regulations 
to deal with emergencies that allows CEQ to develop alternative 
arrangements when normally an environmental impact statement 
would be required. That has been used about 37 times or so. I 
can submit the list for the record.
    And that has been used in a variety of circumstances, 
natural disasters, people shooting each other over fishery 
management lines--fortunately, that was only one time--but a 
wide variety of situations. And that has been done, I did one 
in 48 hours that was a critical emergency. A lot of times, most 
of the time, frankly, even though it is an emergency, and 
people cannot take 2 years or 4 years, or whatever it might 
take otherwise, they may need 3 weeks or a month or 6 weeks to 
get equipment and engineers and everything.
    So, CEQ will take what time is available before action can 
be taken, and essentially take the most important elements of 
the NEPA process, spend a lot of time on the phone, sometimes 
do site visits or public meetings for alternative arrangements 
on a very quick basis, and get everybody involved. Not 
everybody has always been happy----
    Mr. Graves. All right, let me interrupt you there. I am 
running out of time, and I have two other points I need to 
make.
    Number one, Mr. Chairman, every hearing where there is any 
degree of relevance, I like to point out the fact that the 
Federal Government, our own Federal Government, has caused 
2,000 square miles of coastal wetlands loss, and the primary 
cause of that loss in the state of Louisiana, surprisingly, 
NEPA has been applied in this case, yet our own Federal 
Government is the greatest historic ongoing and future cause of 
wetlands loss in the United States, as a result of how the U.S. 
Army Corps of Engineers manages the Mississippi River system 
and its resources.
    They have done nothing, absolutely nothing, to mitigate 
those losses that they have caused. Efforts by the state of 
Louisiana, including nearly $1 billion in Federal funds--excuse 
me, in non-Federal funds--that are in the bank today for a 
project Mid-Barataria, designed solely to restore the 
environment is now being obstructed by the Corps of Engineers 
and by NOAA under the auspices of environmental reviews.
    Mr. Westerman. The gentleman's time has expired.
    Mr. Graves. Five years, let me just make one comment, just 
for the record, Mr. Chairman, I know I am out of time.
    Mr. Chairman, earlier Mr. Huffman noted that the Keystone 
Pipeline had spilled oil. I think it is really important that 
we make comments based upon fact. The reality is, when you look 
at statistics, transporting oil by pipeline is a safer 
mechanism than rail, by boats, and other things, trucks, and 
others.
    So, while I will not support, obviously, and I don't 
support the spilling of oil in any circumstance, I do think it 
is important that we discuss facts here. And it is safer to 
transport oil by pipeline.
    With that, I yield back. Thank you.
    Mr. Westerman. The gentleman's time has expired. The Chair 
now recognizes the gentleman from Louisiana for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I want to associate 
myself with all the comments of my learned colleague from 
Louisiana, Garret Graves. We agree on all that.
    Thank you to the witnesses for taking your time today to be 
here and share your testimony with our Committee. It is 
valuable. All of us cannot be here all at the same time, but we 
all review the record, and you know how this works, so thank 
you.
    NEPA has been hailed as the Magna Carta of environmental 
law, but its implementation has historically been plagued by 
bureaucratic burdens. And you have all offered a lot of insight 
on that today. It is important to ensure that the EIS process 
is efficient and is free from undue burden as possible. 
Unfortunately, the EIS process is extremely time-consuming and 
expensive, as we have discussed. The greatest contributor to 
the problem arises from appeals in litigation from outside 
groups. That is my firm belief. And that, of course, causes 
delays and increased cost.
    A 2014 GAO report revealed that the average time to 
complete an EIS was 4.6 years. Equally as troubling, the 
average cost of a single EIS for the Department of Energy is 
$6.6 million. At that time, no governmental-wide analysis was 
available to calculate an average EIS cost across all the 
agencies. But the same GAO report found that less intensive 
environmental assessments cost a whole lot less. They are 
between $5,000 and $200,000 across all agencies. Furthermore, 
the CEQ estimates that EAs take an average of only 13 months to 
complete, as opposed to 4.6 years.
    Mr. Willox, a couple of questions. The appeals and 
litigation are clearly part of the problem with regard to time 
and cost. And the question is, are there ways we can work 
within the current framework to minimize the delays that add to 
the process?
    Mr. Willox. Thank you. The litigation one is a hard one to 
address, because the law allows that litigation. So, unless you 
create some sideboards of what is litigatable, and I think Mr. 
Howard had a recommendation that you narrow it to the actual 
impacts, not technical things, would be beneficial. And the 
fear of litigation is postponing or delaying projects, whether 
it happens or not.
    I mentioned I have 830 pages of air quality analysis. You 
are going to find something in there that you could probably 
object to. So, I think that would be one sideboard that would 
be helpful.
    Mr. Johnson. That is great. Another question. Secretary 
Zinke issued a memo in March of this year that raised several 
concerns about the NEPA process. I know that has been brought 
up today. One of the Secretary's concerns dealt with 
transparency in creating EISs, including proper accounting of 
time frames, delays, and financial cost of those analyses.
    What should be done to address the Secretary's concerns and 
foster greater transparency, so that the agencies can be held 
accountable for the inefficiency?
    Why don't you start with that?
    Mr. Willox. Well, public input has been talked about here, 
and I don't think you can eliminate public input. But as we put 
it, early input is important. Having the local government 
officials there early who do represent the public, we are all 
elected from that body, as are you. So, having that early and 
often as part of the process would be helpful.
    I think it is a very transparent process, it is just 
cumbersome. This is transparent. It is all here. But how does 
the average member of the public do a fair job of commenting on 
something that is this large?
    I think having more brevity and more succinct EISs would 
allow for better comment, so the public can actually know what 
is going on, and then provide reasonable alternatives if they 
so desire.
    Mr. Johnson. I agree with you. Simplicity and efficiency 
help with transparency. No one can wade through all this, and 
that is part of the problem.
    Mr. Howard, one for you. In this effort to increase 
transparency, what role does information-sharing between 
agencies play in streamlining the NEPA process to reduce some 
of this duplicative and disproportionate analyses? Do you have 
a thought on that?
    Mr. Howard. There is an unavoidable complication when you 
have a project that has a dozen or more agencies involved. And 
I will go back to my one theme: Somebody has to be in charge of 
the process, and somebody has to be able to make decisions.
    To the transparency point, and I have talked to Secretary 
Zinke about these problems, it would be so important to have an 
analysis at the beginning of a project about what the effects 
of delay of the environmental review will be. In other words, 
you need to balance, like we were talking about a forestry 
example, the cost of the delay with the benefits you are going 
to get from it. There ought to be a rule of reason at the 
outset. And they don't do that. It is all about, let's study as 
much as possible.
    If you really want to do a human-scale effective 
environmental review process, you need to actually make 
decisions at the outset, and this requires somebody to be in 
charge asking how much should we really do here, and what would 
be the cost if we waited an extra year or two? Because the 
costs often are going to harm the environment.
    Mr. Johnson. Thank you for that.
    I only have 10 seconds left, so I think I am out of time. I 
yield back.
    Mr. Westerman. The gentleman yields back. I now recognize 
myself for 5 minutes.
    I would like to thank all the witnesses for being here 
today, and for your testimony.
    Mr. Willox, I found your testimony to be particularly 
relevant to a situation being experienced by residents in my 
home state of Arkansas. In March of 2016, former Secretary of 
Energy Ernest Moniz granted Federal eminent domain to a 
private, for-profit company by approving the Clean Line Energy 
project. This was after Arkansas' Public Service Commission, 
the legislature, and every member of our Federal delegation 
opposed this project.
    This electric line will cover a path across private land 
through Arkansas' Ozark Mountains, a river valley, and delta 
regions, which are some of the most beautiful and productive 
land our state has to offer.
    I said all of that to say this: Some of the struggles and 
headwinds that Clean Line faced from hundreds of private 
property owners and the Arkansas Public Service Commission 
could have been avoided by running the transmission line 
through one property owner, the Ozark National Forest.
    [Slide.]
    Mr. Westerman. And if you look at the map, you see the red 
line, and all that green just north of the red line is Ozark 
National Forest.
    Like Mr. Willox mentioned in his testimony, Clean Line 
declined to do this, citing the overly burdensome and 
bureaucratic red tape they would face in that situation. I find 
this to be very two-faced of a government formed to protect the 
rights of the governed. On the one hand, the rules are so 
onerous that developers don't even consider Federal land, and 
on the other hand, the same government sanctions the 
unprecedented confiscation of private property by a private 
corporation.
    Mr. Willox, when did you first notice that industry was 
beginning to re-route projects to avoid any type of Federal 
land?
    Mr. Willox. It has been ongoing for some time. The power 
line that I cite in my testimony is actually a fellow 
commissioner that does it for a living, and he is constantly 
re-routing stuff. You see it in pipelines. Many times you will 
see a pipeline go and it just does 360s to go around Federal 
ground, imposing a burden on private property rights, which I 
think is a pertinent point that you make.
    That seems to be incongruent with what we want to have 
happen, as let's have the Federal Government say no so we can 
impose it on the private property owner. And that seems to be a 
problem, and not right.
    Mr. Westerman. I want to shift gears a little bit and talk 
about NEPA and how it specifically relates to forestry. Being a 
forester, I have never really understood why NEPA is so 
complicated for forestry projects.
    I think back to when I was in forestry school, and I had a 
classmate who was actually an instructor at the Yale School of 
Medicine. He decided to come over to the forestry and 
environmental school and learn forestry, and he made an 
interesting observation one day. He said that in forestry, 
trees are like people, and foresters are like doctors. He said, 
``Foresters apply the best science to keep trees and forests 
healthy.'' That is really what forestry is.
    Forestry is not clear-cutting. Forestry is not just about 
producing timber, which, by the way, is the most 
environmentally friendly material we have. Forestry is about 
forest health and conservation. Foremost, that is what it is 
about.
    And we know that actions do speak louder than words. Since 
NEPA, instead of forest science, the controlling factor in 
management of the forest has been NEPA. Our Federal timber land 
health has suffered greatly since that has happened. Of our 193 
million acres of Forest Service land, 80 million right now, 
according to the Forest Service, are subject to catastrophic 
wildfire. And we saw over 8.5 million acres go up in flames 
just this year.
    We have heard how NEPA only delays 1 percent of projects, 
but, Ms. Bear, can you give me just one modern example where 
NEPA has made a forest healthier, or not delayed science-based 
forest management practices from being implemented?
    Ms. Bear. Actually, Congress passed a law, I am not going 
to get the year right, but I am thinking it was about 2005, 
called the Healthy Forest Act, which was designed to address a 
lot of the concerns that you raised, and it has an expedited 
process for addressing a lot of those concerns.
    Mr. Westerman. That process has not been used.
    A quick question, Mr. Howard. Does the current NEPA process 
work for the common good of the forest?
    Mr. Howard. There are benefits to the current NEPA process. 
I think the review is important. But it is undermining the 
common good by taking too long and being too inaccessible to 
real people.
    Mr. Westerman. I am out of time. I recognize the Ranking 
Member, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. I ask for unanimous 
consent to enter into the record the following materials: a 
letter from the Labor Council for Latin American Advancement, 
an organization composed of union members representing 2 
million unionists in this country, supporting a strong NEPA; 
The City Project, GreenLatinos also submitted a letter; a 
letter from 29 conservation groups opposing this Committee's 
attacks on NEPA and requesting additional funding for NEPA 
implementation and reinstatement of NEPA climate change 
guidance; and a memo from the Center for American Progress 
debunking the false claims made in the Common Good report, 
``Two Years, Not Ten.''
    With that, thank you, Mr. Chairman, and I ask unanimous 
consent to submit those for the record.
    Mr. Westerman. Without objection.
    I would like to thank the witnesses for their valuable 
testimony, and the Members, there are only three of us still 
here, for their questions.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
those in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing by 5:00 p.m., and the hearing record will be held open 
for 10 business days for these responses.

    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Denham Submissions

    Prepared Statement of the Hon. Jeff Denham, a Representative in 
                 Congress from the State of California

    In the 114th Congress, I introduced H.R. 2497, the NEPA Reciprocity 
Act. This legislation proposed changes to Title 23 of the United States 
Code to create a program for alternative environmental reviews and 
approvals whereby state law would substitute for Federal laws in 
certain circumstances. A state could apply if they are able to 
demonstrate that a state environmental review law is equivalent to or 
more stringent than NEPA.
    Under this process, California projects (if accepted into the 
program) could bypass a duplicative and redundant second layer of 
review, dramatically streamlining the project delivery process. A 
participating state could manage the program with approval of the 
appropriate Secretary and exercise the program on behalf of local 
governments for local projects. Flexibility of this kind would expedite 
the permitting process in constructing important infrastructure 
projects faster, saving taxpayer dollars and growing the economy.
    This legislation was the genesis for Section 1309 of the Fixing 
America's Surface Transportation (FAST) Act, titled Program For 
Eliminating Duplication of Environmental Reviews. This section of the 
law established a pilot program at the Department of Transportation 
very similar to my bill. The project allows up to five states to 
substitute statewide environmental review laws for NEPA in respect to 
transportation projects, if they meet certain criteria.
    Please notice that substituting NEPA reviews with state 
environmental review laws is a different concept from allowing states 
to be delegated NEPA authority, which currently occurs.
    Although this was already signed into law, we do not yet have 
concrete results since the project is not yet underway. The comment 
period for the proposed rule just closed yesterday. However, state 
interest, especially from California, has already been significant.

                                 ______
                                 

     Prepared Statement of American Road & Transportation Builders 
                              Association
    On behalf of the American Road & Transportation Builders 
Association (ARTBA) and its more than 7,500 member firms and public 
agencies nationwide, the association would like to thank Chairman 
Bishop and Ranking Member Grijalva for holding today's hearing on 
``Modernizing NEPA for the 21st Century.''
    ARTBA, now in its 117th year of service, provides federal 
representation for more than 7,500 members from all sectors of the U.S. 
transportation construction industry. ARTBA's membership includes 
private firms and organizations, as well as public agencies that own, 
plan, design, supply and construct transportation projects throughout 
the country. Our industry generates more than $380 billion annually in 
U.S. economic activity and sustains more than 3.3 million American 
jobs.
    ARTBA members must directly navigate the regulatory process to 
deliver transportation improvements. As such, they have first-hand 
knowledge about specific federal burdens that can and should be 
alleviated. Because of the nature of their businesses, ARTBA members 
undertake a variety of activities that are directly impacted by the 
National Environmental Policy Act (NEPA). ARTBA supports NEPA and 
realizes it is an integral component of the transportation planning 
process. Many, if not all, of the significant environmental 
achievements of the transportation community and ARTBA members would 
not be possible without NEPA.
    ARTBA recognizes that regulations play a vital role in protecting 
the public interest in the transportation project review and approval 
process. They provide a sense of predictability and ensure a balance 
between meeting our nation's transportation needs and protecting vital 
natural resources. These goals, however, do not have to be in conflict. 
The most successful transportation streamlining provisions have been 
process oriented and have essentially found a path for regulatory 
requirements to be fulfilled in a smarter and more efficient manner.
    According to a report by the U.S. Government Accountability Office 
prior to the enactment of MAP-21, as many as 200 major steps were 
involved in developing a transportation project, from the 
identification of the project need to the start of construction. The 
same report also shows it typically takes between nine and 19 years to 
plan, gain approval of, and construct a new major federally-funded 
highway project. This process involves dozens of overlapping state and 
federal laws, including: NEPA; state NEPA equivalents; wetland permits; 
endangered species implementation; and clean air conformity.
    Further, project delays carry severe financial consequences. 
According to a 2016 report by the Texas A&M Transportation Institute, 
project delay is estimated to cost $87,000 per month for small projects 
(e.g., reconstruction), $420,000 per month for medium-sized projects 
(e.g., widening) and $1.3 million per month for large projects.\1\ Both 
political parties recognized that the current system was simply too 
long and too expensive a way to deliver transportation projects that 
improve mobility and safety. As such, finding meaningful ways to 
expedite this process has been a congressional priority for more than 
15 years.
---------------------------------------------------------------------------
    \1\ ``Assessing the Costs Attributed to Project Delay During 
Project Pre-Construction Stages,'' Texas A&M Transportation Institute, 
March 2016, available at: https://static.tti.tamu.edu/tti.tamu.edu/
documents/0-6806-FY15-WR3.pdf.
---------------------------------------------------------------------------
    Significant progress was made on a bipartisan basis to streamline 
the permitting and approval process for transportation improvements in 
the past four reauthorizations of the federal surface transportation 
program: the Transportation Equity Act for the 21st Century (TEA-21) of 
1998; the Safe, Accountable, Flexible Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) of 2005; the Moving Ahead for 
Progress in the 21st Century (MAP-21) Act of 2012; and, most recently, 
the Fixing America's Surface Transportation (FAST) Act of 2015. Each of 
these measures provides valuable insight about the successes and 
failures of legislative efforts to reduce delay in the delivery of 
needed transportation projects without sacrificing regulatory 
safeguards.

                         Reducing Project Delay

    Reducing the amount of time it takes to build transportation 
improvements was first addressed in 1998 with the passage of TEA-21. 
Efforts to reduce delay in this legislation concentrated on 
establishing concurrent project reviews by different federal agencies. 
The concept was that multiple reviews done at the same time, as opposed 
to one after the other, would reduce the amount of overall time it took 
to get a project approved. While this improvement was a step in the 
right direction, it had limited impact, as concurrent reviews were 
discretionary, rather than mandatory. Thus, it was up to the federal 
agencies involved in a project whether or not to take advantage of this 
new benefit.
    In 2005, SAFETEA-LU sought to further reform the project delivery 
process by establishing a wider range of new ways to deliver 
transportation improvements. Specifically, SAFETEA-LU gave greater 
authority to the U.S. Department of Transportation (U.S. DOT) as ``lead 
agency'' during the project delivery process, limited the window during 
which lawsuits could be filed against projects, and reformed the 
process for determining impacts on historical sites and wildlife 
refuges.
    SAFETEA-LU represented a far more expansive reforming of the 
project delivery process, by addressing the schedule for project 
reviews and also factors outside of the process itself which contribute 
to delay. SAFETEA-LU also went further than TEA-21 in that some of its 
reforms, such as the limitation on lawsuits, were mandatory, as opposed 
to optional.
    The clear lesson between the 1998 and 2005 surface transportation 
bills was that simply giving federal agencies the ability to complete 
regulatory reviews in a more efficient manner in no way guarantees that 
authority would be utilized. As such, SAFETEA-LU took more aggressive 
steps to influence non-transportation agencies into making 
transportation project reviews a higher priority.
    While SAFETEA-LU's environmental streamlining provisions were a 
significant step forward from those enacted in TEA-21, the 
transportation project delivery process remained at an unacceptable 
pace. As such, both MAP-21 and the FAST Act took project delivery 
reform even further, with more tools for reducing delay. In addition to 
building upon the concept of ``lead agency'' begun in SAFETEA-LU, MAP-
21 and the FAST Act also included specific deadlines for permitting 
decisions as well as a scheduling mechanism to ensure environmental 
impact statements (EISs) do not take longer than four years. As with 
SAFETEA-LU, however, it is important to note that many of the reforms 
made in MAP-21 and the FAST Act were discretionary. The more state and 
federal agencies choose to use these reforms, the greater the impact 
will be.

             Expansion of the Use of Categorical Exclusions

    One of the most significant changes to existing law in both MAP-21 
and the FAST Act was an expansion of the use of categorical exclusions 
(CEs) during the environmental review process. A CE is used when 
projects create minimal impacts on the environment. The difference 
between a CE and an environmental assessment (EA) or environmental 
impact statement (EIS) is multiple years added on to the amount of time 
it takes to complete a project review. Under MAP-21, many sorts of 
routine projects were automatically classified as CEs, these include 
rehabilitation and repair projects, projects within an existing right-
of-way, projects with minimal federal resources and projects undertaken 
as a result of an emergency situation. Expanding the use of CEs to 
these additional areas enables local governments to have more certainty 
as to when a CE can be used and also allows routine projects to be 
undertaken without burdensome, unnecessary levels of review.
    MAP-21 also called for the development of CE guidelines for 
projects being constructed in response to an emergency or natural 
disaster. To qualify for CE status, such a project must be of the same 
mode/type and in the same right-of-way as the facility it is replacing 
and started within two years after the emergency/natural disaster. It 
should be noted that MAP-21 also offers states additional flexibility 
in emergency situations by allowing the issuance of special permits to 
overweight vehicles delivering relief supplies and allows states to use 
any federal highway program apportionments other than those dedicated 
for local governments to replace transportation facilities damaged by a 
national emergency.
    Only three months after the emergency/natural disaster CE was 
promulgated by the U.S. Department of Transportation (U.S. DOT), it was 
put to use in May 2013 when a truck hit the I-5 Skagit River Bridge in 
Mount Vernon, Washington. Application of the CE allowed repairs to the 
bridge to begin swiftly, and correctly recognized that in times of 
emergency, the focus should be on responding as promptly and 
effectively as possible. Specifically, in this instance repairs began 
within 24 hours after the accident and the bridge was re-opened to 
traffic in just 27 days and fully repaired within 115 days.
    MAP-21 also created a CE for projects within an existing right-of-
way. This is a logical application of the CE process, as an 
environmental review would have already had to be completed in order 
for the right-of-way to be obtained. Thus, requiring a second 
environmental review for a project within that right of way is 
duplicative and adds no additional environmental protection. The Texas 
Department of Transportation (TXDOT) noted a Houston widening project 
undertaken prior to MAP-21 involving a widening of a four-lane road. 
Although no additional right-of-way was required, an EA was deemed 
necessary. The EA took three years and cost $100,000. Under MAP-21, 
that same project would qualify for a CE and be completed in a fraction 
of the time and cost.
    NEPA was never meant to be a statute enabling delay, but rather a 
vehicle to promote balance. While the centerpiece of such a balancing 
is the environmental impacts of a project, other factors must be 
considered as well, such as the economic, safety, and mobility needs of 
the affected area and how a project or any identified alternative will 
affect those needs. Allowing certain types of projects to be classified 
as CEs is a very effective way of reducing delay in the review and 
approval process, ensuring that projects with minimal environmental 
impacts are not put through a needlessly long regulatory process.
    Additionally, the current system for processing CEs should be 
examined in order to reduce unnecessary delay. Under Section 1315 of 
the FAST Act, FHWA, on behalf of the Secretary of Transportation, 
developed a programmatic agreement template for CEs as required by the 
legislation. The FAST Act specifically states the template was to be 
developed for CEs listed in section 771.117(c) of title 23, Code of 
Federal Regulations. ARTBA believes the intent of this requirement was 
to provide a single, uniform process for processing CEs on the ``c 
list'', which now include three previous ``d list'' CEs and associated 
constraints. Previously, there were no constraints associated with the 
use of ``c list'' CEs except for ``unusual circumstance''. It should be 
noted that FHWA already has a 1989 programmatic model for the ``d-
list'' CEs.\2\
---------------------------------------------------------------------------
    \2\ https://www.environment.fhwa.dot.gov/projdev/docuceda.asp.
---------------------------------------------------------------------------
    As stated in 23 CFR 771.117(c), ``c-list'' CEs normally do not 
require any further NEPA approvals by the FHWA while ``d-list'' CEs 
require additional documentation to be sent to a federal agency as 
outlined by FHWA's 1989 programmatic model for ``d-list'' CEs. The 
purpose of the programmatic agreement template under the FAST Act was 
to ensure that with the addition of the three previously listed ``d-
list'' CEs and associated constraints to the ``c-list'' that a template 
be developed to provide guidance on how to properly document ``c-list'' 
CEs which now includes the three CEs with constraints in an efficient 
manner.
    FHWA did not develop a template for the ``c-list'' CEs as required 
by the FAST Act, but one for both the ``c-list & d-list'' CEs. While 
there is not a specific issue with a template that covers both the ``c-
list and d-list'' CEs, there is an issue with the template placing 
historical ``d-list'' constraints on the use of ``c-list'' CEs and 
constraints which are not required under Federal Regulations. The FHWA 
developed template is more restrictive and burdensome than the Federal 
Regulation for those projects with ``c-list'' CEs and requires more 
case by case review by FHWA than what the Federal Regulations require. 
This was not the intent of the FAST Act language, nor the intent of 
programmatic agreements.
    FHWA should be directed to re-examine the FAST Act developed model 
programmatic agreement for CEs and remedy the language to fit the 
intent of the FAST Act and its underlying regulations.

          Delegation of Environmental Review Responsibilities

    Under SAFETEA-LU, a pilot program was established allowing five 
states (California, Alaska, Ohio, Texas and Oklahoma) to assume the 
role of the federal government during the NEPA process. MAP-21 expanded 
the opportunity to participate in the program to all states. States 
choosing to take part would conduct their own environmental reviews, 
potentially saving time as a result of not having to go through 
multiple federal agencies.
    Of the five states allowed to participate in the delegation pilot 
program under SAFETEA-LU, only California chose to do so and was 
approved in 2006. Under MAP-21, Texas was approved to participate in 
December of 2014. More recently, Ohio applied for the delegation 
program in 2015 and has just had its first federal audit while both 
Florida and Utah submitted applications last year.
    The Committee needs only to look to California and Texas--the two 
states which have the longest running NEPA delegation programs--to see 
what continued use of the delegation program can achieve. Specifically, 
an Oct. 30, 2015, fact sheet published by the California Department of 
Transportation demonstrates the following significant reductions in 
delay preparing environmental review documents:

    <bullet> Draft EAs have seen a median time savings of 10.7 months;

    <bullet> Final EAs and Findings of No Significant Impact (FONSI) 
            have seen a median time savings of 11.5 months;

    <bullet> Draft EISs have seen a median time savings of 22.9 months, 
            and;

    <bullet> Final EISs have seen a median time savings of 130.8 
            months--nearly 11 years! \3\
---------------------------------------------------------------------------
    \3\ Available at http://www.dot.ca.gov/hq/env/nepa/pdf/
nepa_assignment_fact_sheet_q33_oct 2015_rev.pdf.

    Similarly, the Texas Department of Transportation has (TXDOT) 
credited NEPA delegation with increased time savings, a more organized 
internal project delivery program and greater predictability.\4\ 
Further, the Ohio Department of Transportation (ODOT) estimates the 
time saved by NEPA delegation will lead to a cost savings of $45 
million once the Ohio program is fully established.\5\
---------------------------------------------------------------------------
    \4\ See Dec. 8, 2015 testimony of Carlos Swonke, Director of 
Environmental Affairs, Texas Department of Transportation before the 
House Committee on Oversight and Government Reform Subcommittee on 
Transportation and Public Assets, available at: https://
oversight.house.gov/wp-content/uploads/2015/12/12-8-2015-
Transportation-Subcommittee-Hearing-on-MAP21-Swonke-TX-DOT-
Testimony.pdf.
    \5\ Available at https://www.dot.state.oh.us/NEPA-Assignment/Pages/
NEPA_Assignment _History.aspx.
---------------------------------------------------------------------------
    Put succinctly, NEPA delegation works. As FHWA stated on Dec. 22, 
2016, ``The NEPA Assignment Program reduces duplication, saves time and 
resources, and avoids compromising our high standards for protecting 
the human and natural environment. Empowering states in this way saves 
time and money, making it good government AND good business.'' \6\
---------------------------------------------------------------------------
    \6\ Available at https://www.transportation.gov/fastlane/
fhwa%E2%80%99s-%E2%80%98every-day-counts%E2%80%99-initiative-
empowering-states.
---------------------------------------------------------------------------
    Additionally, MAP-21 allows states to also assume control of just 
the CE process as opposed to full environmental reviews. TXDOT has 
experienced a significant reduction in the time it takes to review CEs 
through this partial delegation program. Prior to assuming 
responsibility for CE review, the process took about one year. Under 
the program, the average time is now less than 45 days. Further, the 
documentation requirements have been reduced. CEs which used to span 
more than 100 pages are now two-page checklists. Utah has also assumed 
control of the CE process under MAP-21 and is now completing CEs in as 
little as six days for routine projects. Finally, Alaska has also 
assumed responsibility for CEs and is experiencing favorable results 
from the program.
    While the reason for non-participation thus far by the other states 
has varied, potential liability and litigation costs were an overriding 
issue, as the state would also be assuming federal responsibilities for 
litigation over any project where delegation was used. Still, ARTBA 
believes delegation of environmental review responsibilities to states 
could be an important tool to save resources and speed project delivery 
without sacrificing regulatory safeguards.

                 Greater Strength for ``Lead Agencies''

    SAFETEA-LU established U.S. DOT as the ``lead agency'' for the 
environmental review of transportation projects, including ``purpose 
and need'' and ``range of alternatives'' determinations. MAP-21 
expanded upon this authority by allowing U.S. DOT, as the lead agency 
for all transportation projects, to name a single modal administration 
as the lead agency in the case of multi-modal projects. The Secretary 
of Transportation also may, within 30 days of the closing of the 
comment period for a draft EIS, convene a meeting of the lead agency, 
participating agencies and project sponsor to set a schedule for 
meeting project deadlines. This new authority allowed the U.S. DOT to 
be the focal point of the review process, as opposed to a peer on equal 
footing with non-transportation agencies.
    The basic problem is that the development of a transportation 
project involves multiple agencies besides DOT evaluating the impacts 
of the project as required by NEPA. While it would seem that the NEPA 
process would establish a uniform set of regulations and submittal 
documents nationwide, this has not been the case. For example, the 
United States Environmental Protection Agency (EPA), Army Corps of 
Engineers (Corps), Fish and Wildlife Service (FWS) and their companion 
state agencies each require an independent review and approval process, 
forcing separate reviews of separate regulations, and unique 
determinations of key benchmark issues--such as the purpose and needs 
of a project--and requiring planners to answer multiple requests for 
additional information. Also, each of these agencies issues approvals 
according to independent schedules.
    The opportunities to reduce the delay caused by inter-agency 
conflict provided by SAFETEA-LU, MAP-21 and the FAST Act in the area of 
lead agency are significant. However, these reforms are only effective 
to the degree that the U.S. DOT chooses to take advantage of them. In 
other words, it is not mandatory that the agency take advantage of any 
of the benefits of ``lead agency'' status.
    Even as an optional tool, though, ``lead agency'' status is an 
important mechanism for improving the project delivery process.

                  Additional Project Delivery Reforms

    MAP-21 also improved project delivery by limiting the time during 
which lawsuits may be filed against projects. This concept was also 
part of SAFETEA-LU. SAFETEA-LU set a deadline of 180 days after the 
issuance of a federal decision on a project for the filing of a 
lawsuit. MAP-21 shortened this deadline to 150 days. Establishing a 
firm deadline for lawsuits ensures that any possible litigation is 
dealt with at the beginning of the delivery process. By addressing 
conflicts early, planners then are able to set schedules without fear 
of litigation after the deadlines have passed. Further, the deadline 
allows conflicts to be heard and resolved sooner, rather than later.
    Under MAP-21, project sponsors were allowed to request the 
Secretary of Transportation to set an expedited schedule for projects 
undergoing an EIS for more than two years. This schedule would ensure 
the project's EIS would be completed within two additional years. MAP-
21 also establishes new deadlines for permitting decisions from federal 
agencies. If these deadlines are not met, the agencies suffer financial 
penalties. It should be noted, however, that these provisions of MAP-21 
have not yet been utilized and it remains to be seen how they would 
work in practice.

                   Other Suggestions for NEPA Reform

    Encouraging concise NEPA documents: Currently, the EIS process for 
a new highway project is a multi-year endeavor. A major reason for this 
is the length of the EIS itself, which can literally span multiple 
volumes totaling thousands of pages under the current NEPA regulations.
    The EIS is meant as a resource for affected members of the 
community to gain information about the proposed project. Current EISs 
are impossible for many lawyers to understand and completely 
inaccessible to community members without any prior training in the 
fields of law or environmental consulting. One factor behind lengthy 
EISs is the fear of litigation on the part of project developers. In an 
effort to anticipate issues which could be used to delay a project 
through litigation, project developers have reportedly attempted to 
``bulletproof'' their EISs. This results in a document which attempts 
to address every possible issue or scenario to arise in connection with 
a proposed project no matter the relevance or how likely it is to be a 
factor in environmental decision making. The end product of this 
process is an EIS which is completely unwieldy and does not serve its 
intended purpose.
    ARTBA recommends setting a page limit threshold on the length of 
EISs that would help them better serve the communities for which they 
are intended to be written. It would also force the authors of EISs to 
write in clear and more concise terms. Finally, it would reduce the 
delay associated with new transportation construction projects by 
dramatically cutting down the time needed to complete the final 
document.
    Integrating NEPA with planning: Another reform ARTBA supports is 
integration of NEPA with the transportation planning process. ARTBA has 
recommended increased integration of NEPA in both legislative and 
regulatory settings repeatedly and the issue is also one ARTBA has 
recommended be part of the next reauthorization legislation for the 
federal surface transportation program.
    For transportation projects, an extensive amount of information is 
gathered during the planning process, which often occurs prior to the 
actual triggering of NEPA requirements. Allowing information gathered 
during the planning process, to the extent it is still current and 
relevant, to satisfy NEPA requirements would limit duplicative reviews 
and reduce the amount of delay in the NEPA process. If current 
information is already available as the result of compliance with 
transportation planning requirements, that information should satisfy 
NEPA regulations as well. This would increase efficiency and maintain 
environmental protection. Duplicative reviews serve no redeeming 
purpose as part of the NEPA process, and should be eliminated wherever 
possible.
    Clear time lines for NEPA reviews: There is no set time limit for 
NEPA decisions. When they begin a NEPA review, project planners have no 
sense of when the process is going to be completed. Strict, enforceable 
timelines for NEPA decisions would add predictability to the NEPA 
process and allow project planners to more accurately plan schedules 
for environmental review.
    However, ARTBA recognizes that a uniform deadline may not work for 
every project. In setting NEPA schedules, discussions involving the 
lead agency and project sponsor should take place in order to determine 
a realistic time frame for the project and allow for project-specific 
flexibility.

                         Still More Work to Do

    Unfortunately, a number of the MAP-21 and FAST Act project reforms 
mentioned do not have many examples upon which to evaluate their 
success. A major reason for this is the uncertainty over long-term 
federal funding. Federal funds, on average, support 52 percent of 
annual state department of transportation capital outlays for highway 
and bridge projects. Uncertainty surrounding the short and long-term 
fiscal condition of the Highway Trust Fund continues to have a 
significant effect on state transportation planning.
    Following the expiration of MAP-21 and prior to the passage of the 
FAST Act in December 2015, Congress put in place a series of short-term 
program extensions and temporary Highway Trust Fund revenue patches to 
keep highway and public transportation funds flowing to the states. 
This period of uncertainty led DOT officials in 35 states to publicly 
declare their state programs would be impacted by a shutdown of the 
federal surface transportation funds. In fact, eight states delayed or 
canceled projects valued at $1.9 billion.
    The types of projects which require an EIS (and sometimes even an 
EA) are complex, multi-year projects. Without the assurance of long-
term federal funding, states were often reluctant to proceed with such 
projects. With the FAST Act's assurance that federal investment will be 
provided through FY 2020, states will hopefully undertake more long-
term transportation construction projects and we will have a better 
opportunity to witness more project delivery reforms in practice. 
Still, the long-term stability of the Highway Trust Fund needs to be 
addressed to provide states full confidence to undertake large-scale 
new transportation improvements.

                               Conclusion

    The transportation sector has made significant strides in the area 
of project delivery. Beginning with TEA-21 and continuing through to 
the FAST Act, members of both parties have worked together to ensure 
our nation's infrastructure continues to improve at a pace matching the 
growth of our country. Continuing to streamline the NEPA process for 
our nation's infrastructure is essential in assuring the public the 
government is making every dollar spent of transportation go as far as 
possible without sacrificing necessary regulatory safeguards. ARTBA 
looks forward to continuing to work with the Committee on these 
efforts.

                                 ______
                                 

  Prepared Statement of the California Agricultural Commissioners and 
         Sealers Association by Martin Settevendemie, President
    Chairman Bishop and Ranking Member Grijalva, members of the 
Committee on Natural Resources, thank you for scheduling this important 
hearing on Modernizing National Environmental Policy Act (NEPA) for the 
21st Century. It is important for the Committee to better understand 
the impacts of an outdated NEPA process and the need for reforms.
    Fifty-four California County Agricultural Commissioners and Sealers 
of Weights & Measures are members of the California Agricultural 
Commissioners and Sealers Association (CACASA), a 501 c 6 non-profit 
professional organization. Representing all of California's fifty-eight 
counties, County Agricultural Commissioners and Sealers of Weights and 
Measures have the dual roles of promoting and protecting the state's 
food supply, agricultural trade, the environment, public health and 
safety, consumer confidence and ensuring an equitable marketplace in 
California. California County Agricultural Commissioners and Sealers 
are appointed by their respective County Boards of Supervisors. We work 
cooperatively with California Department of Food and Agriculture and 
Department of Pesticide Regulation, federal and other state agencies, 
and stakeholders to implement regulatory programs at the local level 
ensuring compliance with applicable laws, regulations, ordinances and 
policies.
    One of our many responsibilities includes working cooperatively 
with Weed Management Areas (WMAs) throughout California. WMAs are made 
up of local stakeholder groups and public and private land management 
entities. WMAs have proven to be an efficient and effective method for 
controlling the spread and impact of invasive plants, including noxious 
weeds throughout California. Left unmanaged invasive plants add to fuel 
loads that if not properly managed can lead to catastrophic wildfires 
and impact their behavior and severity.
    The spread of invasive plants in-and-around our nation's national 
forests have an impact on wildfires by constantly changing fuel load 
properties. The recent devastating series of wildfires in Northern 
California that claimed the lives of 43 people, injured hundreds and 
destroyed thousands of buildings and homes were undoubtedly fueled by 
dry vegetation. The wet winter of 2016 and spring of 2017 spurred plant 
growth and this was followed by extreme heat and dry conditions over 
the summer of 2017. This unmanaged, dense fuelbed combined with the 
diablo winds from the northeast to increase the intensity of the fires 
and carried them quickly across the landscape.
    The spread of invasive plants can alter ecosystem properties. As 
they do, needed management activities must also be altered to timely 
control the spread. There are multiple management activities that can 
be deployed to reduce risks associated with the potential severity of 
wildfires. Some of those activities include; biological control, 
treatments such as mechanical thinning and prescribed fires, as well as 
herbicide treatments. All activities can help achieve multiple 
management objectives. Last year the USFS reported, ``reduced hazardous 
fuels (activities occurred) on over 3 million acres of National Forest 
System, state, and private lands.''
    The varying management activities all come with pros and cons. For 
instance, biological control is a critical element of an integrated 
pest management (IPM) program which can help to reduce herbicide 
applications. However, in some cases professionally applied and 
controlled herbicides may be the only practical consideration for very 
large infestations. Prescribed fires successfully reduce hazardous fuel 
loads but may impact air quality and public safety.
    Despite the pros and cons there is simply too much at stake, as 
exhibited by the recent northern California fires, to impede management 
activities that reduce hazardous fuels in-and-around our nation's 
forests. In testimony before this Committee in September 2017 witness 
Lawson Fite, American Forest Resource Council testified, ``Our federal 
forests, managed by the Forest Service and Bureau of Land Management 
(BLM), urgently need active management to reduce the risk of severe 
wildfire. At least 58 million acres of national forest are at high or 
very high risk of severe wildfire, and over 4.5 million homes are at 
risk.''
    The USFS reports that the varying management activities work! More 
than 1,400 hazardous fuel treatments since 2006 have shown that they 
are effective in reducing both the cost and damage from wildfires.
    Yet, regulatory, legal and funding impediments exist and projects, 
including those managed by WMA's in California to reduce hazardous fuel 
loads, are continuing to mount. The USFS estimates eleven million acres 
of National Forest System lands located in or near the Wildland Urban 
Interface, where homes and communities are present, would benefit from 
fuel treatments that reduce risks to wildfires.
    A more persistent and long-term impediment to the spread of 
invasive plants and management activities to reduce hazardous fuel 
loads in, near National Forests is that most forestry projects are 
subject to the National Environmental Policy Act (NEPA). NEPA requires 
agencies to complete a detailed Environmental Impact Statement (EIS) 
for activities ``significantly affecting the quality of the human 
environment.'' If activities do not have a significant impact, agencies 
can complete an Environmental Assessment (EA). If proposed management 
activities are: (1) similar to activities that an agency has already 
determined do not have the potential for significant environmental 
impacts, and (2) NEPA procedures are already established for proposed 
management activities, or (3) Statute does not require an agency 
determination for the management activity, a categorical exclusion (CE) 
applies and an EIS and EA are not required.
    Some of the work carried out by the California County Agricultural 
Commissioners has historically taken place on public lands including 
USFS-managed lands. About fifteen years ago, the USFS halted most of 
the work done by the County Agricultural Commissioners because the 
appropriate NEPA documentation had not been completed on many forests. 
Since that time very little NEPA analysis has been completed.
    California's Sierra Nevada mountains and foothills are a patchwork 
of private and federal lands. Threats such as tree-mortality, 
catastrophic wildfire, and the spread of invasive species do not 
discriminate among landowners or recognize jurisdictional boundaries. 
Counties such as Plumas, Sierra, Nevada, Placer, El Dorado, Amador, and 
Calaveras have worked diligently over the last several decades, 
utilizing shoe-string budgets, to stop the spread of invasive weed 
species such as Yellow Starthistle, Spotted Knapweed, and Musk Thistle. 
One of the greatest challenges to the efficacy of these efforts has 
been the ability of local governments to treat invasive weed 
infestations when they occupy both federal and private lands. In many 
instances, the lack of NEPA coverage means that the county agriculture 
department is required to stop otherwise effective treatments (either 
chemical or mechanical) at federal land boundaries, and leave 
populations of invasive weeds untouched on federal lands where they 
reproduce and re-infest the adjoining private lands. In many instances, 
lack of NEPA coverage is the single biggest obstacle to effective 
treatment of invasive weed populations in the Sierra Nevada range.
    According to information highlighted in a Committee on Natural 
Resources Federal Lands Subcommittee hearing earlier this year, the 
federal government does not have a lot of data and analytics on NEPA. 
In an April 2014 report, ``National Environmental Policy Act, Little 
Information Exists on NEPA Analyses,'' the Government Accountability 
Office (GAO), said ``Government-wide data on the number and type of 
most NEPA analyses are not readily available, as data collection 
efforts vary by agency.''
    An EIS contains more procedural requirements and more time to 
complete according to the GAO. ``Based on the information published in 
the Federal Register, the National Association of Environmental 
Professionals (NAEP) reported in April 2013 that the 197 final EISs in 
2012 had an average preparation time of 1,675 days, or 4.6 years--the 
highest average EIS preparation time the organization had recorded 
since 1997.''
    More recently, the NAEP website shows that in 2016, 312 Draft, 
Final, and Supplemental Environmental Impact Statements (EISs) were 
published in the Federal Register. The Forest Service published the 
most documents with 67 (21% of total), followed by the U.S. Army Corps 
of Engineers (37/12%), Bureau of Land Management (30/10%), Fish and 
Wildlife Service (18/17%), and Federal Highway Administration (16/5%) 
(based on information in the U.S. Environmental Protection Agency (EPA) 
database of EISs.
    In addition, in their 2016 NEPA Annual Report, NAEP reported that 
``the average time to prepare the 177 Final EISs issued in 2016 
(measured from Notice of Intent to Final EIS) was 5.1 years. This 
continues the recent trend of increasing Final EIS preparation time. 
The average time to prepare the Draft EISs issued in 2016 again showed 
signs of a decreasing trend. Seventeen percent of Final EISs were 
prepared in two years or less, a small increase from 2015.''
    We are aware of one project on the Shasta-Trinity National Forest 
requiring an Environmental Analysis that has taken eight years to 
complete. The 100+ acre noxious weed treatment project still has not 
received Final approval. Reasons cited for the delay include lack of 
funding, use of herbicides, adding additional alternatives and re-
prioritizing projects.
    Preparing an EIS also comes at a cost. In their 2014 Report GAO 
found that the Department of Energy (DOE) tracks the funds it pays 
contractors to prepare NEPA analyses (excluding the time spent by DOE 
employees). ``The average payment to a contractor to prepare an EIS 
from calendar year 2003 through calendar year 2012 was $6.6 million, 
with the range being a low of $60,000 and a high of $85 million.''
    Knowing about significant environmental impacts is vital but the 
processes to discover those impacts should not impede progress on 
controlling biological challenges. Invasive plants and grasslands 
continue growing with no regard to a NEPA EIS or EA being completed. 
Any government program dealing with biology and nature that is under-
managed, untimely and/or inconsistently or inadequately funded will 
result in profound consequences. In this case, and as has been 
witnessed in the recent California wildfires, the fires behaved 
differently and burned more intensely and spread quicker.
    Only a few National Forest managers in California have completed 
the NEPA analysis required to employ Integrated Pest Management (IPM) 
methods for invasive noxious weed control. Multiple statutes have been 
developed over the last sixty years emphasizing the need to control 
invasive species, but little has been done to follow through with NEPA 
completion.
    The National Forests surrounding the Tahoe (El Dorado, Lake Tahoe 
Basin MU, Plumas) all have completed invasive plant NEPAs that allow 
them to use herbicides. The Tahoe, despite having significant issues 
with musk thistle, has refused to consider any options other than 
mechanical control. This approach has resulted in a limited success 
over 20+ years of ongoing control projects. If the Tahoe National 
Forest had completed NEPA when musk thistle was first discovered this 
project it would have reduced the significantly burdensome challenge it 
remains today. Instead, there is no end in sight to their continuous 
mechanical control efforts which draw on federal grant monies that 
could be used to fund other projects--and, musk thistle continues to 
spread in eastern Nevada, Sierra, and Placer counties.
    Sufficient program funding remains a challenge. Many Forest 
supervisors would be willing to proceed with NEPA, but program-specific 
funding has not been made available. We understand this is a more 
broader challenge and Congress and the USFS are working to lessen the 
impact of the practice of fire borrowing which impedes progress in 
other USFS programs such as hazardous fuel reduction and healthy forest 
initiatives.
    Another challenge of completing management activities targeted at 
hazardous fuel reductions in/near National Forests is NEPA-origin 
lawsuits. According to the USFS litigation trends nationally for the 
number of cases filed against the Forest Service that contain at least 
one NEPA claim between fiscal year 2012 and 2017 have been relatively 
steady or decreasing slightly. While the number of NEPA-origin lawsuits 
may have slightly reduced in recent years what has not been reduced is 
their broad implications that increasingly obstruct progress of 
projects.
    For instance, the National Strategy and Implementation Plan for 
Invasive Species Management clearly demands an IPM method for weed 
control and management. Many critical management activities are 
impossible to implement if the USFS does not complete NEPA-authorizing 
IPM treatments such as chemical, mechanical, and biological invasive 
noxious weed control management.
    More broadly, in a study published in the January 2014 Journal of 
Forestry, ``Twenty Years of Forest Service Land Management Litigation'' 
(Miner, Malmsheimer and Keele) researchers provided a comprehensive 
analysis of USFS litigation from 1989 to 2008. During this period 
researchers found that ``1,125 land management cases were filed in 
federal court. The Forest Service won 53.8% of these cases, lost 23.3%, 
and settled 22.9%. It won 64.0% of the 669 cases decided by a judge 
based on cases' merits. The agency was more likely to lose and settle 
cases during the last 6 years; the number of cases initiated during 
this time varied greatly. The Pacific Northwest region along with the 
Ninth Circuit Court of Appeals had the most frequent occurrence of 
cases. Litigants generally challenged vegetative management projects, 
most often by alleging violations of the National Environmental Policy 
Act and the National Forest Management Act. The results document the 
continued influence of the legal system on national forest management 
and describe the complexity of this litigation.''
    The reason that litigants challenge vegetative management projects 
based on NEPA is simply because it is easy to do. In their 2014 
``Guidance on Best Practice Principles for Environmental Assessments'' 
report to the Council on Environmental Quality (CEQ), the National 
Association of Environmental Professionals (NAEP) explain how they 
developed a process to produce Best Practice Principles (BPPs) for 
preparing an effective environmental assessment. One of the first steps 
taken was to prioritize the 535 positive features NEPA practitioners 
identified in a survey as ``features typically associated with adequate 
environmental assessment.'' That's right, 535 positive features for an 
adequate environmental assessment. Likely each one of the 535 features 
is a potential subject for litigation. To their credit the NAEP and CEQ 
are working to prioritize these features down to between 15 and 23 best 
practices for environmental assessments. However, it still leaves a lot 
of interpretations for the U.S. federal court system to settle.
    Moreover, NEPA-origin lawsuits do not have to be legally successful 
in court to be successful. NEPA-origin lawsuits are often time-
consuming and add to the burden of an already strained U.S. federal 
court system.
    Without the completion of NEPA invasive noxious or non-native weeds 
will continue to proliferate on public and private lands throughout 
California threatening the state's critical infrastructure, its 
biodiversity, and ecological integrity. County Agricultural 
Commissioners (CACs) are also concerned about infestations of serious 
weed species such as Scotch Thistle, Musk Thistle, Leafy and Oblong 
Spurge, Scotch Broom, and Diffuse and Spotted Knapweeds to name just a 
few. These species can seriously reduce the productivity on grazing and 
pasture lands, infest hay fields and timberlands, deplete water 
resources, make recreational areas almost unusable by the public, and 
last but not least displace the very native flora and fauna that the 
U.S. Forest Service is obligated to protect.
    There are some modernized practices that if continually undertaken 
can improve upon the challenges to timely completion of environmental 
analyses under NEPA. Two restoration-related categorical exclusions to 
promote hydrologic, aquatic, and landscape restoration were approved in 
2013;

  1.  learning networks are established within the agency to promote 
            adaptive management, focused environmental assessments, and 
            iterative environmental impact statements; and

  2.  ``Electronic Management of NEPA'' (eMNEPA) investments have 
            reduced administrative workload by $7 million per year from 
            2005 to 2010 and are projected to save $17 million through 
            2014.

    Implementing the new planning rule and improving NEPA will help 
land managers focus on collaborative watershed restoration while 
promoting jobs and economic opportunities in rural communities.
    In addition, more NEPA ``predecisional'' collaborative processes 
should be used with a goal of avoiding litigation. Earlier decisions by 
collaborative partners helps speed the completion of NEPA processes.

    Other ideas to modernize the NEPA process include:

    <bullet> Incentivize MOU's and project grants for quick 
            implementation of management activities developed by local 
            collaboratives.

    <bullet> Provide Categorical Exclusions (CEs) under the National 
            Environmental Policy Act that allow forest management 
            projects to be quickly prepared, analyzed, and implemented.

    <bullet> A reasonable length of time must be established and 
            mandated for completion of EAs, CEs and EIS.

    <bullet> Support U.S. Forest Service hiring additional staff that 
            solely focus on completing NEPA and NEPA-origin lawsuits to 
            gather required information for USFS attorneys defending 
            these lawsuits.

    <bullet> Support increases in hazardous fuel reduction programs 
            line item. A portion of these funds should be set aside 
            specifically for U.S. Forest Regions to complete NEPA and 
            management activities such as control of noxious weeds.

    <bullet> The hazardous fuel reduction budget line item specifically 
            addresses biological challenges. To appropriately address 
            biological challenges, the hazardous fuel reduction account 
            should at least remain static and portions of such funding 
            should be specifically targeted toward abatement of noxious 
            weeds as a preventative measure to reduce hazardous fuel 
            buildup and increase risks of wildfires.

    <bullet> The USFS must expedite its work on needed NEPA 
            documentation for invasive noxious weed control to cover 
            entire infestations on public land and for all the national 
            forests in California.

    <bullet> USFS must maintain consistency between forests with regard 
            to weed policy, project management and better communication 
            and continued collaboration to leverage limited resources.

    <bullet> Continuing public input in the NEPA process is strongly 
            encouraged and needed early in the process, before an 
            environmental assessment begins.

    <bullet> Early input should include itemization and detail of 
            things that will occur if the proposed project is delayed.

    <bullet> Staff across all federal agencies need NEPA training.

    <bullet> The internal NEPA process needs a designated lead agency. 
            The lead agency should be authorized to make decisions when 
            conflicts arise. A defined chain of command is needed among 
            varying agencies involved in NEPA processes.

    <bullet> Congress should hold oversight hearings on The White House 
            Council on Environmental Quality (CEQ) guidance on NEPA 
            processes. These processes require collaboration between 
            agencies at all levels; County, State, Federal, Tribal. 
            Collaboration between all agencies is vital early in the 
            NEPA process.

    <bullet> Federal and State EIS must be completed jointly, not 
            separately.

    <bullet> If possible, litigation should only be allowed on 
            material, technical components of NEPA.

    We appreciate this opportunity to present our thoughts.

                                 ______
                                 

Rep. Grijalva Submissions

                                    GreenLatinos,  
                                  The City Project,
                                    Los Angeles, California

                                                  November 29, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Strengthen and Fully Fund NEPA Review to Protect People, Places, 
        and Values

    Dear Chairman Bishop, Ranking Member Grijalva, and Honorable 
Members of the Committee:

    We appreciate the opportunity to provide written comments for the 
Committee's November 29, 2017, hearing on ``Modernizing NEPA for the 
21st Century.'' Please accept these comments for the hearing's official 
record.
    Republican President Richard M. Nixon signed the National 
Environmental Policy Act (NEPA) into law with bipartisan support in 
1970. NEPA is effective in providing the public and public officials 
with the information we all need to make better decisions. ``Thank God 
for NEPA because there were so many pressures to make a selection for a 
technology that might have been forced upon us and that would have been 
wrong for the country,'' according to then-Secretary of Energy James 
Watkins (ceq.doe.gov/NEPA). Secretary Watkins, a Navy admiral, served 
as Secretary of Energy under Republican President George H.W. Bush. 
NEPA has been a proven bulwark against hasty or wasteful federal 
decisions by fostering government transparency and accountability. It 
has ensured that federal decisions are at their core democratic, by 
guaranteeing meaningful public involvement. It has achieved its stated 
goal of improving the quality of the human environment by relying on 
sound science to reduce and mitigate harmful environmental impacts.

    We support strengthening the law, and full funding, to enable fair 
and efficient review under NEPA, including the impact of policies and 
programs on people of color and low income people. This Congress has 
proposed bills that would waive NEPA via legislative categorical 
exclusions, limit the scope of environmental reviews to ignore climate 
impacts, and reduce government accountability to we the people by 
limiting judicial review. These attacks reflect an ideological effort 
to eliminate this law and the legacy of bipartisan support for it.

    NEPA and other regulations are not the major cause of delay in 
infrastructure development and government decision-making. The 
Congressional Research Service (CRS) identified causes entirely outside 
the NEPA process, such as lack of funding. The U.S. Department of 
Treasury concluded ``a lack of funds is by far the most common 
challenge to completing'' major transportation infrastructure 
projects.\1\
---------------------------------------------------------------------------
    \1\ Congressional Review Service (CRS), Accelerating Highway and 
Transit Project Delivery: Issues and Options for Congress (2011), 
www.aashtojournal.org/Documents/August2011/CRSinfrastructure.pdf; Toni 
Horst, et al., 40 Proposed U.S. Transportation and Water Infrastructure 
Projects of Major Economic Significance, AECOM (2016), 
www.treasury.gov/connect/blog/Documents/final-infrastructure-
report.pdf.

    NEPA plays a vital role in distributing fairly the benefits and 
burdens of environmental policies and programs for all. What the 
environmental justice movement has demonstrated is that racially 
identifiable communities are at a greater risk of environmental harms, 
disproportionately lack environmental benefits, pay a larger cost, and 
carry a heavier environmental burden than other communities regardless 
of income and class. Latinos are among the strongest supporters of 
environmental protection for several major reasons, namely, local 
exposure to pollutants, the effects of climate change and pollution on 
migrant farmworkers, and the impact of global warming on Latin American 
nations. Latinos and other people of color nevertheless are often 
marginalized by public officials, government agencies, mainstream 
environmentalists, and the media.\2\ Proper enforcement of NEPA can 
help address that injustice.
---------------------------------------------------------------------------
    \2\ See generally Samuel Garcia, Latinos and Climate Change: 
Opinions, Impacts, and Responses (Policy Report GreenLatinos & The City 
Project 2016), www.cityprojectca.org/blog/archives/43303; Prof. Gerald 
Torres & Robert Garcia, Pricing Justice: Carbon Pricing and 
Environmental Justice (Policy Report, The City Project 2016), 
www.cityprojectca.org/blog/archives/43641; Ariel Collins & Robert 
Garcia, Climate is a civil rights and moral issue as well as a health, 
economic, and environmental issue (Policy Report, The City Project 
2015), www.cityprojectca.org/blog/archives/35499; Environmental Justice 
Leadership Forum, Guidance to Incorporate Environmental Justice and 
Civil Rights in State Clean Power Plans, https://www.cityprojectca.org/
blog/archives/41618.

    GreenLatinos is a national coalition of Latino environmental, 
conservation, and civil rights leaders. The City Project's mission is 
equal justice, democracy, and livability for all. EarthJustice, a 
nonprofit environmental law organization, fights for justice to advance 
a healthy world for all. The Urban & Environmental Policy Institute at 
Occidental College is an applied research and advocacy center with the 
mission of advancing community-driven programs and policies to build 
healthy, thriving communities and achieve social, economic, and 
---------------------------------------------------------------------------
environmental justice.

    We urge this Committee in the strongest possible terms to foster 
better decisions, improve transparency and accountability, and ensure 
taxpayer dollars are invested to protect our health, our people, and 
our environment. People of color care about protecting people, places, 
and values under NEPA. And we vote.

            Very truly yours,

        Mark Magana                   Robert Garcia
        President                     Founding Director-Counsel
        GreenLatinos                  The City Project
      Labor Council for Latin American Advancement,
                                             Washington, DC

                                                       June 5, 2017

    Dear Member of Congress:

    On behalf of the Labor Council for Latin American Advancement 
(LCLAA), home of the Latino labor movement, we write to strongly oppose 
any and all attacks on the National Environmental Policy Act (NEPA). 
NEPA provides our communities a voice in some of the most consequential 
government decisions, impacting where we work, how we work, and even 
the rights and safeguards we have on the job. As Latino workers, we 
play a major role in building and maintaining our nation's 
transportation and energy infrastructure, the same infrastructure that 
allows our country to prosper. In many instances, Latino workers and 
working families bear the brunt of federal projects, making our 
communities most vulnerable to rushed or ill-planned decisions. An 
attack on NEPA is an attack on Latino priorities and our voice, in 
particular.

    We represent the interests of over 2 million labor unionists, with 
50 chapters across the United States. Our members include some of the 
most prominent unions in the country, including the United Automobile 
Workers (UAW), the United Steel Workers (USW), the American Federation 
of State, County and Municipal Employees (AFSCME), the Amalgamated 
Transit Union (ATU), the Service Employees International Union (SEIU), 
and the Office and Professional Employees International Union (OPEIU) 
amongst many others. We recognize that our country is in dire need of 
job-creating infrastructure investment but that investment must be used 
in ways that serve and respond to the needs of the American public. 
This can only happen through a strong and well thought out NEPA 
process.

    NEPA provides an important voice for Latino workers and working 
families as we tend to be among the most impacted by federal projects. 
Latino workers account for over 43% of ground, maintenance and 
construction workers and up to 75% of agricultural laborers. Our 
families live, breathe, learn and play in communities next to federally 
funded highways, incinerators, power plants, pipelines, and toxic waste 
sites. How these projects are built and how they are run dictate the 
quality of our health and safety as workers within those facilities as 
well as the health of our families who live near them. We need a say in 
how these projects are developed and NEPA provides it.

    We consistently use NEPA's public disclosure mandate to learn about 
how projects are developed and how they will impact our families. We 
use NEPA's public comment opportunities to fight against worker 
exploitation and for safer and healthier work places. We also use it to 
improve the projects with our trade and local expertise. Overall, we 
use NEPA to make projects better; to make jobs better and to keep our 
communities safe.

    Although NEPA has historically been used to address environmental 
priorities, it is also a tool we use to address related but independent 
issues that impact labor, immigrant, and human rights. For example, 
when a power plant is being developed, we use the NEPA process to 
address workers' safety; when an immigration detention center is 
planned, we use it to address the lack of healthcare for immigrant 
detainees; and when the administration wants to militarize the border 
with a wall, we use it to show how pointless and hateful the idea is. 
NEPA is an environmental protection statute but it is also a civic 
engagement one that we cannot afford to lose.

    We are concerned by the increasing volume of attacks on this 
critical law. In each of the last three Congresses, we have seen over 
160 bills that undermine NEPA by shortening public comment periods and 
statutes of limitation, establishing arbitrary deadlines for 
environmental review, limiting the consideration of better alternatives 
or waiving the law altogether. All in all, these harmful measures give 
industry a green light to recklessly build projects without addressing 
or even considering how Latino workers, their families, and countless 
communities of color will be impacted or disenfranchised in the 
process. We ask that you protect and recognize our right to 
meaningfully participate in the national infrastructure development 
process by defending NEPA and all the safeguards it guarantees.

    Therefore, as the home of the Latino labor movement, we urge you to 
oppose any efforts that threaten to undermine our voice in government 
decisions. We, the workers who contribute so much everyday to building 
and maintaining our national infrastructure urge you to protect our 
voice in government. Protect NEPA!

            Sincerely,

        Hector Sanchez,               Milton Rosado,
        Executive Director            LCLAA National President
        Labor Council for Latin 
        American Advancement 
        (LCLAA)                       United Auto Workers (UAW)

        Eddie Rosario,                Carlos Pelayo,
        LCLAA New York City Chapter 
        President                     LCLAA San Diego/Imperial Counties 
                                      Chapter President
        American Federation of 
        State County and Municipal 
        Employees (AFSCME)            Labor Environmental and Political 
                                      Activist


                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Bishop Submissions

    --Bloomberg Op-Ed, ``Trump Did Something Good This Week,'' 
            by Cass R. Sunstein, August 17, 2017.

    --Letter addressed to Chairman Bishop from Thomas F. King 
            dated November 25, 2017.

Rep. Gosar Submission

    --Defenders of Wildlife, Board of Directors and Advisory 
            Committees List.

Rep. Grijalva Submissions

    --Center for American Progress, ``Debunking the False 
            Claims of Environmental Review Opponents,'' by 
            Kevin DeGood, May 3, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from 29 conservation groups dated November 
            29, 2017.

Mr. Howard Submission

    --``Red Tape, Not Progress: The Center for American 
            Progress Defends Bureaucratic Paralysis,'' by the 
            Common Good dated June 2017.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
